<html>
<title> - STOPPING THE DAILY BORDER CARAVAN: TIME TO BUILD A POLICY WALL</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





 
     STOPPING THE DAILY BORDER CARAVAN: TIME TO BUILD A POLICY WALL

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                               BORDER AND
                           MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 22, 2018

                               __________

                           Serial No. 115-65

                               __________

       Printed for the use of the Committee on Homeland Security
       
                                     



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
        

                               __________
                               
                               
                   U.S. GOVERNMENT PUBLISHING OFFICE
                   
 32-638 PDF                 WASHINGTON : 2018                                   
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Lou Barletta, Pennsylvania           Cedric L. Richmond, Louisiana
Scott Perry, Pennsylvania            William R. Keating, Massachusetts
John Katko, New York                 Donald M. Payne, Jr., New Jersey
Will Hurd, Texas                     Filemon Vela, Texas
Martha McSally, Arizona              Bonnie Watson Coleman, New Jersey
John Ratcliffe, Texas                Kathleen M. Rice, New York
Daniel M. Donovan, Jr., New York     J. Luis Correa, California
Mike Gallagher, Wisconsin            Val Butler Demings, Florida
Clay Higgins, Louisiana              Nanette Diaz Barragan, California
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
Don Bacon, Nebraska
Debbie Lesko, Arizona
                   Brendan P. Shields, Staff Director
                   Steven S. Giaier,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                  Martha McSally, Arizona, Chairwoman
Lamar Smith, Texas                   Filemon Vela, Texas
Mike Rogers, Alabama                 Cedric L. Richmond, Louisiana
Lou Barletta, Pennsylvania           J. Luis Correa, California
Will Hurd, Texas                     Val Butler Demings, Florida
Clay Higgins, Louisiana              Nanette Diaz Barragan, California
Don Bacon, Nebraska                  Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
              Paul L. Anstine, Subcommittee Staff Director
    Alison B. Northrop, Minority Subcommittee Staff Director/Counsel
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Martha McSally, a Representative in Congress From 
  the State of Arizona, and Chairwoman, Subcommittee on Border 
  and Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Filemon Vela, a Representative in Congress From the 
  State of Texas, and Ranking Member, Subcommittee on Border and 
  Maritime Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     8

                               Witnesses

Mr. Ronald D. Vitiello, Acting Deputy Commissioner, U.S. Customs 
  and Border Protection, U.S. Department of Homeland Security:
  Oral Statement.................................................     9
  Prepared Statement.............................................    11
Mr. Thomas D. Homan, Acting Director, U.S. Immigration and 
  Customs Enforcement, U.S. Department of Homeland Security:
  Oral Statement.................................................    19
  Prepared Statement.............................................    22
Mr. Lee Francis Cissna, Director, U.S. Citizenship and 
  Immigration Services, U.S. Department of Homeland Security:
  Oral Statement.................................................    25
  Prepared Statement.............................................    27

                             For the Record

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Map............................................................    35
The Honorable Nanette Diaz Barragan, a Representative in Congress 
  From the State of California:
  English Translation of Letter by Olivia Caseres................    40
The Honorable Filemon Vela, a Representative in Congress From the 
  State of Texas, and Ranking Member, Subcommittee on Border and 
  Maritime Security:
  Statement of Church World Service (CWS)........................    49
  Letter from Amnesty International..............................    50
  Statement of the National Immigration Forum....................    54
  Statement of the American Immigration Council..................    59
  Statement of the National Domestic Workers Alliance............    61

                                Appendix

Questions From Ranking Member Filemon Vela for Ronald D. Vitiello    71
Questions From Honorable J. Louis Correa for Ronald D. Vitiello..    75
Questions From Honorable Nanette Barragan for Ronald D. Vitiello.    76
Questions From Ranking Member Filemon Vela for Thomas D. Homan...    76
Questions From Ranking Member Filemon Vela for Lee Francis Cissna    78
Questions From Honorable Nanette Barragan for Lee Francis Cissna.    79


     STOPPING THE DAILY BORDER CARAVAN: TIME TO BUILD A POLICY WALL

                              ----------                              


                         Tuesday, May 22, 2018

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:04 p.m., in 
room HVC-210, Capitol Visitor Center, Hon. Martha McSally 
(Chairwoman of the subcommittee) presiding.
    Present: Representatives McSally, Rogers, Hurd, Bacon, 
Lesko, Vela, Correa, Demings, and Barragan.
    Also present: Representatives McCaul and Jackson Lee.
    Ms. McSally. The Committee on Homeland Security, 
Subcommittee on Border and Maritime Security will come to 
order.
    The subcommittee is meeting today to examine policies that 
impact the Department's ability to secure the border. I now 
recognize myself for an opening statement.
    Last month, a caravan of nearly 1,500 migrants was 
organized by Pueblo Sin Fronteras, also known as People Without 
Borders, an extremist advocacy group with the stated purpose of 
``abolishing borders''. Under the guise of humanitarian action, 
this group facilitated the movement of a migrant caravan 
traveling more than 2,000 miles through Mexico toward the 
Southwest Border of the United States. The caravan began in 
Tapachula on the Mexico-Guatemala border with the express 
purpose of traveling to the United States and entering our 
country by illegal entry, or utilizing loopholes in immigration 
laws.
    The reality is that this type of activity is happening 
every day in smaller numbers, and without the media fanfare. 
Our asylum process is broken, rife with fraudulent claims. 
Individuals who arrive at our border have no need to dodge our 
border security efforts, because our policies make it all too 
easy for them. Aliens can simply come to a port of entry, or 
look for a Border Patrol agent, and simply say that they have, 
``a credible fear''. Saying these simple two words permits them 
to be released into the country about 90 percent of the time, 
regardless of the merits of the claim. Once released, they are 
given a notice to appear for a court date, sometimes years in 
the future, and a work permit after 180 days.
    In 2008, DHS asylum officers referred 5,100 cases needing 
this credible fear threshold to immigration courts. In 2016 it 
was almost 92,000 cases. The reason for the increase is simple: 
Individuals have learned how to exploit the system. It should 
surprise no one that many of those who claim asylum do not ever 
show up for their court date, most likely because their claim 
is unfounded in the first place.
    In order to ensure we maximize our ability to accommodate 
those seeking to flee persecution, we must combat this fraud in 
order to help those who actually have a legitimate asylum 
claim, who are getting lost in a sea of fraudulent ones.
    Another loophole stems from the Trafficking Victims 
Protection Reauthorization Act, which is a well-meaning law, 
and as the name suggests, was designed to prevent human 
trafficking. However, the disparate treatment of children from 
Mexico and children from noncontiguous countries like Honduras, 
Guatemala, and El Salvador, creates a perverse incentive to put 
young children at risk. We must end that loophole that puts 
children in the hands of smugglers who abuse them along the way 
to our border. Once these young people arrive, they are 
vulnerable to gang recruitment, especially the notorious MS-13, 
given the weakness of the vetting done on those who sponsor 
those children.
    Dangerous gangs such as MS-13 are not the only ones 
benefiting from these loopholes. Drug cartels control the 
illicit movement of people and narcotics that cross our 
borders. Every single migrant, whether an unaccompanied child, 
family unit or single adult that illegally crosses the 
Southwest Border enriches the cartels, and assist their growth 
and their lethality.
    The number of illegal border crossings during the month of 
March and April show an urgent need to address these glaring 
loopholes. We witnessed a 300 percent increase from April 2017, 
compared to April 2018, and a 37 percent increase from last 
month to this month, the largest increase month-to-month since 
2011. Traffickers, smugglers, and extremist advocacy groups are 
exploiting these weaknesses, and putting individuals making the 
journey at risk, as well as Americans who are falling victim to 
crimes perpetrated by bad actors who are making their way in.
    In addition, if we do not address this situation, we will 
be confronted by another generation of DACA-like people in the 
near future.
    When I was in the Air Force, I traveled all over the world, 
and I saw desperation and poverty that most Americans cannot 
fathom. Countries around the world are dealing with extreme 
violence, war, and gangs, and as human beings, we would be 
moved to help them, often through the work of charitable 
organizations or ministries.
    But the truth of the matter is that we cannot bring 
everyone who is suffering here. The very definition of a 
country is one who controls who and who does not enter. We are 
a Nation of immigrants, and we welcome with open arms 
approximately 1 million legal immigrants in our country every 
year. However, we are also a Nation of laws, and we cannot sit 
idly by as our borders are overrun by lawlessness.
    The time has come to build a policy wall, alongside the 
physical wall, to force those seeking to immigrate to the 
United States to do it the right way, the legal way. Congress 
must act to change our immigration policy, and to close these 
loopholes.
    Last September, the speaker appointed me and 7 other 
Members, including our Chairman, to a working group tasked with 
addressing this issue. We spent countless hours diving into our 
broken immigration and border policies. For the last 9 months, 
we have been working and refining the bill that became the 
Goodlatte, McCaul, McSally, and Labrador Bill. This bill is 
strong on border security, closes these legal loopholes, and 
ends the insanity on the border. I have received assurances 
from leadership that our bill will be brought before the House 
for a vote in June. I look forward to its consideration on the 
floor.
    [The statement of Chairwoman McSally follows:]
                 Statement of Chairwoman Martha McSally
                              May 22, 2018
    Last month a caravan of nearly 1,500 migrants was organized by 
Pueblo Sin Fronteras, also known as People Without Borders, an 
extremist advocacy group with the stated purpose of ``abolishing 
borders.''
    Under the guise of humanitarian action, this group facilitated the 
movement of a migrant caravan traveling more than 2,000 miles through 
Mexico toward the Southwest Border of the United States.
    The caravan began in Tapachula on the Mexico-Guatemala border, with 
the express purpose of traveling to the United States and entering our 
country--be it by illegal entry or utilizing loopholes in our 
immigration laws.
    Our asylum process is broken, rife with fraudulent claims. 
Individuals who arrive at our border have no need to dodge our border 
security efforts because our policies make it all too easy. Aliens can 
simply come to a port of entry or look for a Border Patrol agent and 
simply say they have a ``credible fear.'' Saying these simple words 
permits aliens to be released into the country around 90 percent of the 
time regardless of the merit of such claims.
    Once released, aliens are given a notice to appear for a court date 
years into the future and a work permit after 180 days.
    In 2008, DHS asylum officers referred 5,100 cases meeting this 
credible fear threshold to immigration courts but in 2016 almost 92,000 
cases.
    The reason for the increase is simple, individuals have learned how 
to exploit the system.
    It should surprise no one that many of those who claim asylum do 
not even show up to their court date--most likely because their claim 
was unfounded in the first place.
    In order to ensure we maximize our ability to accommodate those 
seeking to flee persecution we must combat this fraud in order to help 
those who actually have a legitimate asylum claim who are getting lost 
in the sea of fraudulent ones.
    Another loophole stems from the Trafficking Victims Protection 
Reauthorization Act was a well-meaning law, and as the name suggests, 
was designed to prevent human trafficking.
    However, the disparate treatment of children from Mexico and the 
children from non-contiguous countries like Honduras, Guatemala, and El 
Salvador creates a perverse incentive to put young children at risk.
    We must end that loophole that puts children in the hands of 
smugglers who abuse them along the way to the border.
    Once these young people arrive, they are vulnerable to gang 
recruitment, especially the notorious MS-13 given the weakness of the 
vetting done on those who sponsor these children.
    Dangerous gangs such as MS-13 are not the only ones benefiting from 
these loopholes. Drug cartels control the illicit movement of people 
and narcotics that cross our borders.
    Every single migrant, whether an Unaccompanied Alien Child, Family 
Unit, or single adult, that illegally crosses the Southwest Border 
enriches the cartel and assists their growth and lethality.
    The number of illegal border crossings during the month of March 
and April shows an urgent need to address these glaring loopholes in an 
urgent manner. We witnessed a 300 percent increase from April 2017 
compared to April 2018 and a 37 percent increase from last month to 
this month--the largest increase from month to month since 2011.
    The traffickers, smugglers, and extremist advocacy groups are 
exploiting these weaknesses and putting individuals making the journey 
at risks as well as Americans who are falling victim to crimes 
perpetrated by bad actors who are making their way in.
    In addition, if we do not address this situation we will be 
confronted by another generation of DACA-like people in the near 
future.
    When I was in the Air Force, I traveled all over the world, and I 
saw the desperation and poverty that most Americans cannot even fathom. 
Countries around the world are dealing with extreme violence, war, and 
gangs.
    As human beings, we may be moved to help them through the work of 
charitable organization and ministry efforts.
    But the truth of the matter is that we cannot bring everyone who is 
suffering here. The very definition of a country is one that controls 
who and who does not enter.
    We are a Nation of immigrants and we welcome, with open arms, 
approximately 1 million legal immigrants into our country each year. 
However, we are a Nation of laws, and we cannot sit idly by as our 
borders are overrun by lawlessness.
    The time has come to build a policy wall alongside a physical wall 
to force those seeking to immigrate in the United States to do it the 
right way, the legal way.
    Congress must act to change our immigration policy to end these 
loopholes.
    Last September, the Speaker appointed me and 7 other Members a 
working group tasked with addressing this issue. We spent countless 
hours diving into our broken immigration policies. For the last 9 
months we have been working and refining the bill that became the 
Goodlatte, McCaul, McSally, and Labrador Bill.
    This bill is strong on border security, closes these legal 
loopholes and ends the insanity on the border. I have received 
assurance from leadership that this bill will be brought before the 
House for a vote in June. I look forward to its consideration on the 
floor.

    Ms. McSally. The Chair now recognizes the Ranking Member of 
the subcommittee, the gentleman from Texas, Mr. Vela, for any 
statement he may have.
    Mr. Vela. Thank you, Chairwoman McSally.
    I would first like to address the title for today's 
hearing. My position on the border wall is well-known by now, 
and I would like to express my deep concern about the so-called 
policy wall proposed by the administration, and that we are 
going to talk about today.
    As with the physical border wall, the need for a policy 
wall is unclear to me. The number of asylum-seekers requesting 
protection in Mexico or the United States indicates a human--
humanitarian problem, not necessarily a security threat. A 
growing number of asylum-seekers are coming from Guatemala, El 
Salvador, and Honduras.
    Most of us here today are aware that El Salvador and 
Honduras rank among the top 5 most violent countries in the 
world, including nations at war. Even former Secretary John 
Kelly acknowledged the dangerous and complex conditions on the 
ground in the northern triangle before he joined this 
administration, and during his confirmation hearing.
    The characterization that the levels of people seeking 
asylum are unacceptable is confusing. Blaming and punishing the 
people who are seeking protection is inhumane. The conditions 
leading to a humanitarian crisis are unacceptable, not the 
people seeking protection. We should be redoubling our efforts 
to work with international partners to fix the source problem.
    Earlier this year, I joined the other Democrats on this 
committee in sending a letter to Secretary Nielsen opposing the 
practice of separating migrant parents from their children in 
cases that do not warrant it when they apprehended at the 
border or in immigration detention. I am opposed to tearing 
kids away from their parents, and I am concerned about what 
criminalizing adult asylum-seekers will mean for legal claims 
to protection.
    The effect of family separation is also traumatizing. 
According to more than 200 child welfare, juvenile justice and 
child development organizations who wrote to Secretary Nielsen 
opposing family separation, there is ample evidence that 
separating children from their mothers or fathers leads to 
serious negative consequences to children's health and 
development. As DHS separates families at the borders, DHS will 
likely have to detain people over age 18 in adult immigration 
detention facilities, and designate any children as 
unaccompanied.
    I worry that there are no reliable mechanisms in place to 
ensure that families can be reunified later. If an adult goes 
through current criminal proceedings or is subjected to 
expedited removal, how will his or her child, who is in a 
shelter somewhere in the United States, know how to get in 
touch with them? I fear that these policies will be harmful in 
the long run.
    Last, I would like to hear from CBP about how you are 
managing your resources to address potentially more asylum-
seekers at our ports of entry. Given this new zero-tolerance 
policy for people crossing between our ports of entry along the 
Southern Border, DHS is encouraging people to claim asylum at 
ports of entry instead.
    The CBP officer staffing shortage is a persistent problem, 
and I would like to learn how capacity issues at ports are 
likely to be affected by these policy changes. I thank you for 
joining us today and I yield back the balance of my time.
    [The statement of Ranking Member Vela follows:]
                Statement of Ranking Member Filemon Vela
                              May 22, 2018
    Thank you, Chairwoman McSally.
    I would first like to address the title for today's hearing.
    My position on the border wall is well-known by now, and I would 
like to express my deep concern about the so-called ``policy wall'' 
proposed by the administration and that we are going to talk about 
today.
    As with the physical border wall, the need for a policy ``wall'' is 
unclear to me.
    The number of asylum-seekers requesting protection in Mexico or the 
United States indicates a humanitarian problem, not necessarily a 
security threat.
    A growing number of asylum seekers are coming from Guatemala, El 
Salvador, and Honduras.
    Most of us here today are aware that El Salvador and Honduras rank 
among the top five most violent countries in the world, including 
nations at war.
    Even former Secretary John Kelly acknowledged the dangerous and 
complex conditions on the ground in the Northern Triangle before he 
joined this administration and during his confirmation hearing.
    The characterization that the levels of people seeking asylum are 
``unacceptable'' is confusing.
    Blaming and punishing the people who are seeking protection is 
inhumane.
    The conditions leading to a humanitarian crisis are unacceptable, 
not the people seeking protection.
    We should be redoubling our efforts to work with international 
partners to fix the source problem.
    Earlier this year, I joined the other Democrats on this committee 
in sending a letter to Secretary Nielsen opposing the practice of 
separating migrant parents from their children in cases that do not 
warrant it when they are apprehended at the border or in immigration 
detention.
    I am opposed to tearing kids away from their parents, and I am 
concerned about what criminalizing adult asylum seekers will mean for 
legal claims to protection.
    The effect of family separation is also traumatizing.
    According to more than 200 child welfare, juvenile justice, and 
child development organizations who wrote to Secretary Nielsen opposing 
family separation, there is ample evidence that separating children 
from their mothers or fathers leads to serious, negative consequences 
to children's health and development.
    As DHS separates families at the border, DHS will likely have to 
detain people over age 18 in adult immigrant detention facilities and 
designate any children as ``unaccompanied.''
    I worry that there are no reliable mechanisms in place to ensure 
families can be reunified later.
    If an adult goes through criminal proceedings or is subjected to 
expedited removal, how will his or her child who is in a shelter 
somewhere in the United States know how to get in touch with them?
    I fear that these policies will be harmful in the long run.
    Last, I would like to hear from CBP about how you are managing your 
resources to address potentially more asylum seekers at our ports of 
entry.
    Given this new zero-tolerance policy for people crossing between 
our ports of entry along the Southern Border, DHS is encouraging people 
to claim asylum at ports of entry instead.
    The CBP officer staffing shortage is a persistent problem, and I 
would like to learn how capacity issues at ports are likely to be 
affected by these policy changes.
    I thank you for joining us today, and I yield back the balance of 
my time.

    Ms. McSally. The Chair now recognizes the Chairman of the 
full committee, the gentleman from Texas, Mr. McCaul, for any 
statement he may have.
    Mr. McCaul. I thank you Madam Chairwoman for holding this 
important hearing. Almost 2 months ago, a caravan of more than 
1,000 Central Americans began a 2,000-mile journey from 
Guatemala and Mexico border, headed toward the United States.
    The journey was not easy and the migrants were met with 
great difficulties, hunger, sickness, even exploitation by 
criminal gangs. So what motivated them to make this journey? A 
lawless immigrant advocacy group called Pueblo Sin Fronteras, 
whose specific goal is the circumvention of U.S. immigration 
law.
    They organized what they thought would be their largest 
blitz on the United States border, and the goal was simple--
overwhelm U.S. law enforcement and tax an already overburdened 
immigration system with baseless asylum claims.
    This was not the first caravan and it did not change our 
immigration policies and laws, and this will not be the last. 
While this particular caravan drew lots of media attention, CBP 
agents and officers have seen a troubling trend.
    Family units and unaccompanied alien children flood across 
the border, many of them claiming credible fear. Almost every 
single person who claims credible fear meets the existing 
threshold in the law. Loopholes in our immigration system are 
well-known to the organized illegal immigration groups and the 
brutal drug cartels who facilitate the movement of aliens 
across the border.
    In fact, cartels use these weaknesses as a shrewd marketing 
tool that further enriches the cartel. This harms the stability 
and the rule of law in Mexico. Building a physical wall along 
key parts of the Southwest Border is absolutely necessary.
    In tandem, we must also construct a wall of sensible policy 
to close these legal loopholes that put families and children 
at risk. Last month, we saw the number of illegal border 
crossings triple over the same period as last year.
    We have to take dramatic action to reverse this disturbing 
development. I was pleased to see that the--that the Department 
recently enacted a zero tolerance policy for those who come 
here illegally. Prosecuting those who enter the country 
illegally is the right policy.
    This will send a powerful message of deterrence to those 
who are trying to take advantage of our immigration laws. We 
have used prosecution successfully in the past, and I know that 
myself as a former Federal prosecutor--and our operations 
streamline, nearly every alien apprehended was prosecuted.
    When that policy was enacted, in every instance, we saw a 
dramatic decline in crossings. I along with Chairman Goodlatte 
and Chairwoman McSally have proposed a robust border security 
and immigration enforcement bill to close these legal loopholes 
that Secretary Nielsen and the honorable Homan--it's good to 
see you sir--have pointed out so many times in the past, so 
many times.
    Without changes to the way we treat unaccompanied alien 
children and family units, and without tightening our asylum 
standards, there will always be powerful incentives for aliens 
to come to this country illegally.
    This must stop. The time for change has come, and I am 
committed to working with this administration and other like-
minded Members to make that a reality. With that, I yield back.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                              May 22, 2018
    First, I would like to thank Chairwoman McSally for her leadership 
on this important issue and for holding this hearing.
    Almost 2 months ago, a caravan of more than 1,000 Central American 
migrants began a 2,000-mile-long journey from the Guatemalan-Mexico 
border and headed toward the United States.
    The journey was not easy and the migrants were met with great 
difficulties: Hunger, sickness, and even exploitation by criminal 
gangs. What motivated them to make this dangerous journey?
    A lawless immigrant advocacy group called ``Pueblo Sin Fronteras'', 
whose specific goal is the circumvention of U.S. immigration law.
    They organized, what they thought, would be their largest blitz on 
the U.S. border. The goal was simple, overwhelm U.S. law enforcement, 
and tax an already overburdened immigration system with baseless asylum 
claims.
    This was not the first caravan, and if we do not change our 
immigration policies, and laws, this will not be the last.
    While this particular caravan drew lots of media attention, CBP 
agents and officers have seen a troubling trend. Family units and 
unaccompanied alien children flood across the border--many of them 
claiming ``credible fear.''
    Almost every single person who claims ``credible fear'' meets the 
existing threshold in the law.
    Loopholes in our immigration system are well-known to organized 
illegal immigration groups and the brutal drug cartels who facilitate 
the movement of aliens across the border.
    In fact, cartels use these weaknesses as a shrewd marketing tool 
that further enriches the cartel.
    This harms stability and the rule of law in Mexico.
    Building a physical wall along key parts of the Southwest Border is 
absolutely necessary. In tandem, we must also construct a wall of 
sensible policy to close loopholes that put families and children at 
risk.
    Last month, we saw the number of illegal border crossings triple 
over the same period as last year. We have to take dramatic action to 
reverse this disturbing development.
    I was pleased to see that the Department recently enacted a zero-
tolerance policy for those that come here illegally.
    Prosecuting those who enter the country illegally is the right 
policy. This will send a powerful message to those who are trying to 
take advantage of our immigration laws.
    We have used prosecution successfully in the past.
    Under Operation Streamline, nearly every alien apprehended was 
prosecuted. And when that policy was enacted, in every instance, we saw 
a dramatic decline in crossings.
    I, along with Chairman Goodlatte, Representative Labrador, and 
Chairwoman McSally have proposed a robust border security and 
immigration enforcement bill to close the loopholes that Secretary 
Nielsen and the witnesses on the panel have raised in the past.
    Without changes to the way we treat unaccompanied alien children 
and family units, and without tightening our asylum standards, there 
will always be powerful incentives for aliens to come to this country 
illegally. This must stop.
    The time for change has come. I'm committed to working with this 
administration and other like-minded Members to make that a reality.

    Ms. McSally. Gentleman yields back. Other Members of the 
committee are reminded that opening statements may be submitted 
for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                              May 22, 2018
    I am deeply disturbed by actions President Trump, the Secretary, 
and Department officials are taking ostensibly to deter illegal 
migration.
    What the Trump administration, DHS officials, and many of my 
Republican colleagues call ``legal loopholes'' are actually laws 
Congress put in place to protect some of the most vulnerable migrants, 
particularly children, seeking humanitarian protection.
    Separating small children from their parents as a punitive measure 
runs counter to basic humanitarian principles and should be beneath 
even this administration.
    Earlier this year, I was proud to lead all 12 of Democrats on this 
committee in sending a letter to Secretary Nielsen opposing the 
practice of separating migrant parents from their children at the 
border or in immigration detention.
    I continue to believe the practice is cruel and will only 
exacerbate the trauma experienced by children fleeing violence and 
unrest in their home countries.
    DHS is also pursuing policies that may interfere with people's 
ability to seek asylum in the United States as provided for under the 
law.
    We have laws in place so that people fleeing dangerous situations 
can request protection and humanitarian relief.
    I am confident that our witnesses here today are aware that El 
Salvador, Guatemala, and Honduras are facing exceptional levels of 
violent crime--a sad reality that has persisted for the past several 
years.
    The increased number of Central Americans petitioning for asylum in 
the United States is not because more people are ``exploiting'' the 
system via ``loopholes,'' but because many have credible claims.
    Seeking asylum in the United States is not an easy process either.
    In addition, anyone undergoing a ``credible fear'' review has their 
name and fingerprints vetted via a National security database, which 
scans records from Federal, State, local, and foreign sources.
    We also know from immigration court records that 77 percent of 
asylum seekers who are not in ICE custody do show up for their 
hearings.
    When people, and particularly children, have access to counsel, 
they are even more likely to appear for their court date.
    Though asylum requests in both Mexico and the United States have 
increased, I take issue with the administration's characterization that 
we have a crisis at the border.
    DHS's own data shows that overall migration levels at the U.S-
Mexico border are at record lows, with apprehensions at their lowest 
since the early 1970's.
    In 2000, Border Patrol apprehended 1.6 million people crossing 
between ports of entry.
    In contrast, in 2017, the agency apprehended less than 310,000 
people--a nearly 82 percent decrease.
    Those of us who have worked on this issue for a long time have a 
responsibility to share facts that offer perspective on the situation 
at the border rather than foment fear for political gain.
    Democrats have long supported smart, effective border security 
measures and we will continue to do so.
    What we will not do is sit idly by while President Trump tries to 
undermine our values as a Nation of immigrants or prove his border 
security bona fides on the backs of children.
    We are better than that as a Congress and as a country.

    Ms. McSally. I ask unanimous consent that the gentlelady 
from Arizona, Ms. Lesko, a Member of the full committee, be 
permitted to participate in today's hearing. Without objection, 
so ordered.
    We are pleased to have three distinguished witnesses before 
us today. Mr. Ron Vitiello is the acting deputy commissioner of 
the U.S. Customs and Border Protection. Previously he served as 
the chief of the U.S. Border Patrol.
    As its chief operating officer, he was responsible for the 
daily operations of the U.S. Border Patrol, assisting in 
planning and directing Nation-wide enforcement and 
administrative operations. Mr. Thomas Homan became the deputy 
director and senior official performing the duties of the 
director in January 2017.
    Mr. Homan is a 33-year veteran of law enforcement and has 
nearly 30 years of immigration enforcement experience. He has 
served as a police officer in New York, a Border Patrol agent, 
a special agent with the former U.S. Immigration and 
Naturalization Service, as well as a supervisory special agent 
and deputy assistant director for investigations at ICE.
    Mr. Francis Cissna was sworn in as director of USCIS on 
October 8, 2017. Recently, he served as the director of 
immigration policy within the DHS Office of Policy, during 
which time he was selected for a detail to the U.S. Senate 
Judiciary Committee where he worked on immigration-related 
legislation.
    Prior to that, Mr. Cissna served as acting director and 
deputy director of immigration and border security policy in 
the DHS Office of Policy. The Chair now recognizes Deputy 
Commissioner Vitiello for 5 minutes to testify.

 STATEMENT OF RONALD D. VITIELLO, ACTING DEPUTY COMMISSIONER, 
U.S. CUSTOMS AND BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Vitiello. Thank you. Chairwoman McSally, Ranking Member 
Vela, distinguished Members of the subcommittee, thank you for 
the opportunity to appear before you today to discuss the 
efforts of U.S. Customs and Border Protection to achieve our 
strategic and operational border security objectives.
    My fellow witnesses have decades of practical experience 
and I am grateful to work with such dedicated professionals to 
secure the homeland. Tactical infrastructure including physical 
barriers and complimentary capabilities have long been a 
critical component of CBP's multi-layered and risk-based 
approach to securing our Southern Border.
    The recently-passed Consolidated Appropriations Act of 2018 
supports CBP's mission, including $1.4 billion for the largest 
investment in border wall in more than a decade. We are eager 
to put this funding to work to improve our Nation's security, 
and encourage Congress to continue to support investments in 
the high-priority border wall system.
    In addition to our border security mission, CBP plays a key 
role in our Nation's immigration continuum. We look forward to 
working with Congress on the legislation needed to enhance the 
security of our Nation, ensure effective immigration 
enforcement, and protect American workers and taxpayers.
    These legislative needs have a direct impact on CBP's 
ability to perform our mission. In accordance with the 
Department of Justice zero tolerance policy, Department of 
Homeland Security Secretary Nielsen has directed CBP to refer 
all illegal border crossers for criminal prosecution.
    CBP will enforce immigration laws set forth by Congress; no 
classes or categories of aliens are exempt from enforcement.
    The number of individuals apprehended while trying to enter 
the country illegally in between the established POEs and those 
presenting themselves without entry documentation along our 
Southern Border increased by 40 percent from February to March 
2018.
    When compared to March 2017, the increases are an 
extraordinary 203 percent. The effort in ours used to detain, 
process, care for, hold UACs and family units distracts our law 
enforcement officer deployments, shrinks our capability to 
control the border and make the arrest of smugglers and drug 
traffickers and criminals much more difficult.
    To enhance CBP's capability in Southwest Border sectors, 
the Department of Defense, in conjunction with Board of State 
Governors, has begun deploying the National Guard to assist in 
stopping the flow of deadly drugs, other contraband, gang 
members, criminals, and illegal aliens into the country. 
Initial forces are already on the ground, assisting CBP. We are 
working with DHS headquarters and DOD to ensure a seamless 
coordination of effort.
    With the support of Congress and in close coordination with 
our partners, CBP will continue to secure our Nation's borders 
through a risk-based deployment of infrastructure, personnel, 
and technology.
    We offer every assistance, working with Congress, on the 
legislative changes that will help fulfill our missions. I want 
to thank--I want to take a moment to thank and recognize the 
men and women of CBP. They vigilantly carry out their border 
protection responsibilities professionally and with an 
integrity deserving of the public's trust.
    I will work to ensure my representation of them matches 
their dedication and commitment and the sacrifices that they 
and their families make in service to this country.
    Last Wednesday during National Police Week, we added three 
more names to the CBP Valor Memorial, and did our best to 
demonstrate to their surviving families and our returning 
families that we will never forget their loved one. We will 
always preserve their memories and honor the heroic work they 
did while protecting us all.
    Chairwoman McSally, Ranking Member Vela, and Members of the 
subcommittee, I look forward to your questions.
    [The prepared statement of Mr. Vitiello follows:]
                Prepared Statement of Ronald D. Vitiello
                              May 22, 2018
                              introduction
    Chairwoman McSally, Ranking Member Vela, and distinguished Members 
of the subcommittee, thank you for the opportunity to appear before you 
today to discuss the efforts of U.S. Customs and Border Protection 
(CBP) to achieve our strategic and operational border security 
objectives and to enhance our deterrence, detection, and interdiction 
of illegal cross-border activity.
    CBP is responsible for securing approximately 7,000 miles of land 
border, 95,000 miles of shoreline, 328 ports of entry (POE), and the 
associated air and maritime space from the illegal entry of people and 
contraband into the United States. The border environment in which CBP 
works is dynamic and requires continual adaptation to respond to 
emerging threats and changing conditions.
                         legislative priorities
    When President Trump took office last year, he issued a series of 
Executive Orders to enhance border security, promote public safety, 
minimize the threat of terrorist attacks by foreign nationals, and 
protect American workers from unfair foreign competition. In January 
2017, the President signed the Executive Order entitled Border Security 
and Immigration Enforcement Improvements (EO 13767), which directs 
executive departments and agencies to deploy all lawful means to secure 
the Nation's Southern Border, prevent further illegal immigration to 
the United States, and repatriate aliens with final orders of removal 
swiftly, consistently, and humanely. E.O. 13767 sets a new standard of 
operational control of the Southern Border and establishes the 
foundation for securing the Southern Border by directing the provision 
of necessary tools, resources, and policy goals for the U.S. Department 
of Homeland Security's (DHS) dedicated men and women to fulfill their 
critical mission.
    But CBP is part of a system that neither begins nor ends at our 
borders, and innovative technologies and enhanced interdiction 
capabilities alone cannot prevent illegal crossings. The administration 
seeks support from Congress to amend current law to facilitate the 
expeditious return of Unaccompanied Alien Children (UAC) and family 
units who are ineligible for relief. The administration supports 
correcting the systemic deficiencies that created the asylum backlog, 
and supports providing additional resources to reduce the immigration 
court backlog and ensure the swift return of illegal border crossers. 
CBP looks forward to working with Congress on the legislation needed to 
enhance the security of our Nation, ensure effective immigration and 
enforcement, and protect American workers and taxpayers. These 
legislative needs have a direct impact on CBP's ability to perform its 
mission.
    CBP remains committed to working with Congress to address these 
issues in support of the priorities of this administration and CBP's 
mission set.
                    partnerships for border security
    To fulfill our complex missions, CBP is working with DHS 
components, our Federal, State, local, Tribal, and territorial 
partners, and with our international counterparts to ensure that 
information is shared quickly, resources are spent where they are most 
needed, and that the American people and economy are kept safe.
Processing Claims of Asylum
    Individuals who do not have proper travel documents and attempt to 
enter the United States, either at a POE or between the POEs, may be 
subject to expedited removal. If individuals placed into expedited 
removal inform CBP officers that they are afraid to go back to their 
home countries, they wish to apply for asylum, or that they fear 
persecution or torture, they are detained and referred to a U.S. 
Citizenship and Immigration Services (USCIS) asylum officer for a 
credible fear interview. Usually these individuals are detained by U.S. 
Immigration and Customs Enforcement (ICE) pending this credible fear 
interview, and the interviews are often conducted at detention 
facilities. Individuals who are found to have credible fear are 
referred to Immigration Court, where they may apply for relief from 
removal, including asylum. Individuals who are found to not have a 
credible fear are given an opportunity to ask an Immigration Judge for 
a review of the negative determination before ICE removes them from the 
United States.
    To ensure that all claims for asylum are considered, DHS, in 
partnership with the Department of Justice (DOJ), is taking a number of 
steps to ensure that all cases and claims are adjudicated promptly, 
including sending to the border, as necessary, additional USCIS asylum 
officers, ICE attorneys, and DOJ Immigration Judges.
Collaboration with the Department of Defense National Guard
    The number of individuals apprehended while trying to enter the 
country illegally in between established POEs, and of those presenting 
themselves for entry without proper documentation at POEs along our 
Southwest Border, increased by 37 percent from February to March 2018. 
When compared to March 2017, the increase is an extraordinary 203 
percent. CBP is committed to working with our domestic and 
international partners to secure our border.
    To enhance CBP's capability in Southwest Border sectors, the 
Department of Defense (DOD), in conjunction with border State 
Governors, has begun deploying the National Guard to assist in stopping 
the flow of deadly drugs and other contraband, gang members and other 
criminals, and illegal aliens into this country. Initial forces are 
already on the ground assisting CBP by executing missions such as 
logistical and administrative support, operating detection systems, 
providing mobile communications, and augmenting border-related 
intelligence analysis efforts. National Guard members will provide 
added surveillance, engineering, administrative, and mechanical support 
to our agents on the front line to allow CBP's agents to focus on their 
primary responsibility of securing our border. National Guard personnel 
will not conduct law enforcement activities, will not be assigned 
responsibilities that require direct contact with migrants, and will 
not be assigned missions that require them to be armed.
Federal, State, Local, and Tribal Partnerships
    CBP hosts monthly briefings/teleconferences with Federal, State, 
and local partners regarding the current state of the border--both 
Northern and Southern--to monitor emerging trends and threats and 
provide a cross-component, multi-agency venue for discussion. The 
monthly briefings focus on drugs, weapons, currency interdictions, and 
alien apprehensions both at and between the POEs. These briefings/
teleconferences currently include participants from: The government of 
Canada, the government of Mexico, the government of Australia, ICE, 
U.S. Coast Guard (USCG), the Drug Enforcement Administration (DEA), the 
Federal Bureau of Investigation (FBI), DOD's U.S. Northern Command, 
U.S. Central Command, U.S. European Command, and U.S. Southern Command, 
Joint Interagency Task Force--South (JIATF-S), the Bureau of Alcohol, 
Tobacco, Firearms, and Explosives (ATF), U.S. Attorneys' Offices 
(USAOs), Naval Investigative Command, State and Major Urban Area Fusion 
Centers, and other international, Federal, State, and local law 
enforcement as appropriate.
    The Office of Intelligence (OI) hosts a bi-weekly fusion forum to 
facilitate an open discussion with CBP's Federal, State, local, and 
international partners on emerging trends and patterns, specific 
problem sets confronted by each organization, and each organization's 
attempts to address them. Additionally, OI personnel take part in a 
variety of weekly or monthly conference calls related to a variety of 
issues affecting CBP's mission including narcotics, terrorism, trade, 
and migration.
    CBP is enhancing our collaboration with other DHS components to 
leverage the unique resources, authorities, and capabilities of each 
agency to more effectively and efficiently execute our border security 
missions against drug trafficking organizations, Transnational Criminal 
Organizations (TCOs), terrorists, and other threats and challenges. 
Under the Department's Unity of Effort initiative, the Joint Task 
Forces' operations also increase information sharing with Federal, 
State, and local law enforcement agencies, improve border-wide criminal 
intelligence-led interdiction operations, and address transnational 
threats.
International Partnerships
    Throughout Central America, CBP leverages its attache and advisor 
network to engage local immigration, border management, and police 
authorities, as well as our Federal partners such as the Department of 
State's U.S. Agency for International Development (USAID), and ICE to 
enhance security, improve governance and promote prosperity in the 
region. CBP efforts in the region include: Training, mentoring, and 
sharing best practices with local law enforcement; providing assistance 
in making Customs processes more efficient and transparent to enhance 
trade facilitation; and building the capacity of law enforcement in 
each country to counter drug smuggling activities, monitor, track, and 
deter the illicit migration of third-country nationals, and facilitate 
cross-border coordination.
                      investing in border security
    CBP's proposed investments in border security leverage the 
Capability Gap Analysis Process (CGAP), an annual, full spectrum 
requirements analysis process. The CGAP creates a consistent and 
repeatable, field-driven approach to conducting mission analysis and 
planning aimed at identifying capabilities gaps across the complex 
environments United States Border Patrol (USBP) and Air and Marine 
Operations (AMO) agents work in every day. Capability gaps are captured 
directly from the field using this process. These gaps are evaluated 
through qualitative and quantitative analysis and other evidence to 
provide information to decision makers about the border security 
mission space across the Northern, Southern, and Coastal borders of the 
United States. This methodology leads to informed investments that 
achieve the greatest possible operational impact. As the threats along 
the borders change, USBP and AMO will update this analysis as needed to 
maximize the impact of future investments.
    The CGAP is used by USBP to identify needs related to 12 master 
capabilities: Communications; doctrine and policy; domain awareness; 
human capital management; impedance and denial (I&D); information 
management; intelligence and counter intelligence; mission readiness; 
planning and analysis; security and partnerships; access and mobility; 
and command and control. While CGAP identifies needs across all 12 
master capabilities, four capabilities--I&D, domain awareness, access 
and mobility, and mission readiness--are consistently prioritized by 
field commanders as the most important. AMO uses CGAP to provide 
qualitative and quantitative gaps associated with their seven mission 
sets: Air Security; Land Security; Maritime Security; Extended Border 
and Foreign Operations; Air and Maritime Investigations; Contingency 
and National Tasking Operations; and Other Law Enforcement Operations. 
These identified needs are then subject to appropriate review and 
validation through the DHS requirements processes.
    Impedance & Denial (I&D) is among the four capabilities that USBP 
field commanders consistently prioritize during the CGAP process. I&D 
is the ability to slow and/or stop the use of terrain for illicit 
cross-border activity. This is achieved primarily through the use of 
man-made infrastructure such as a physical wall, and the complementary 
deployment of personnel, roads, and technology. Border barriers have 
enhanced--and will continue to enhance--CBP's operational capabilities 
by creating an enduring capability that impedes illegal cross-border 
activity and facilitates the deterrence and prevention of illegal 
entries. I&D investments are critical to protecting border areas with 
short vanishing times where illicit crossers can quickly evade law 
enforcement by ``vanishing'' into border communities. Investments in 
I&D, and particularly in a border wall system, will help CBP obtain 
operational control of the border and prevent illegal border crossings.
                             infrastructure
    Tactical infrastructure, including physical barriers and 
complementary capabilities, has long been a critical component of CBP's 
multi-layered and risk-based approach to securing our Southern Border. 
Tactical infrastructure also supports Executive Order 13767 Border 
Security and Immigration Enforcement Improvements and CBP's operational 
requirements, including the high-priority border wall system.
Between the Ports of Entry
    The land along the border between the United States and Mexico is 
extremely diverse, consisting of desert landscape, mountainous terrain, 
and urban areas. Today, we have several types of barriers, including 
steel bollard and levee wall, along nearly one-third, or 654 miles, of 
the Southern Border. The recently-passed Consolidated Appropriations 
Act, 2018 supports CBP's mission through investments in border 
infrastructure and technology, port security, and recruitment and 
retention efforts, to include $1.4 billion for the largest investment 
in border wall in more than a decade. We are eager to put this funding 
to work to improve our Nation's security, and encourage Congress to 
continue to support investments in the high-priority border wall 
system.
    CBP is seeking to build on the successes of, and lessons learned 
from, the construction and operation of existing barriers to deploy a 
system that addresses dynamic cross-border threats. CBP is working with 
industry and partnering with the U.S. Army Corps of Engineers to 
incorporate additional alternative barrier design features and other 
innovative solutions into our border barrier systems. Border barrier 
systems are comprehensive solutions that include a concentrated 
combination of various types of infrastructure such as walls, all-
weather roads, lighting, sensors, enforcement cameras, and other 
related technology. Deployments of additional infrastructure will be 
made using a multi-phased approach that meets USBP's operational 
requirements, and which safeguards National security and public safety. 
These deployments will be the results of a thorough analysis of threats 
and mission effectiveness and will follow disciplined acquisition 
processes overseen by DHS.
    Throughout the planning, design, and construction process, CBP will 
complete project, budget, real estate, and environmental planning to 
ensure appropriate resource stewardship. CBP will leverage expertise in 
Federal acquisition to maximize transparency and accountability and to 
ensure the most effective and efficient solutions are deployed to meet 
requirements, in accordance with the established DHS acquisition 
lifecycle framework and acquisition review board oversight.
    CBP is committed to ensuring that all stakeholder communities, 
including Federal partners, State, local, and Tribal officials, and 
impacted communities are kept informed and engaged throughout this 
process.
At the Ports of Entry
    CBP supports a vast and diverse real property portfolio, consisting 
of more than 4,300 owned and leased buildings, over 28 million square 
feet of facility space, and approximately 4,600 acres of land 
throughout the United States. Constructing and improving CBP's physical 
infrastructure is essential to keeping facilities operationally viable 
for front-line and mission support functions. CBP, in coordination with 
General Services Administration (GSA), continues to construct and 
modernize land POEs along the Northern and Southern Borders, and to 
complete additional enhancement and expansion projects within the 
Office of Field Operations (OFO) portfolio. Thanks to the funding 
provided in the fiscal year 2018 Omnibus, CBP is working with the GSA 
to ensure that our priority requirements in locations including Otay 
Mesa, CA, and Alexandria Bay, NY receive much-needed updates. We look 
forward to working with GSA and Congress to ensure that our physical 
infrastructure meets CBP's needs now and in the future.
                               technology
    Technology enhances CBP's operational capabilities by increasing 
the ability of the men and women of CBP to detect and identify 
individuals illegally crossing the border; detect dangerous goods and 
materials concealed in cargo and vehicles; and detect and interdict 
illegal activity in the air and maritime domains. For CBP, the use of 
technology in the border environment is an invaluable force multiplier 
that increases situational awareness. Technology enhances the ability 
of CBP to detect illegal activity quickly, with less risk to the safety 
of our front-line personnel.
At the Ports of Entry
    Smugglers use a wide variety of tactics and techniques to traffic 
concealed drugs and other contraband through POEs. CBP incorporates 
advanced detection equipment and technology, including the use of Non-
Intrusive Inspection (NII) equipment and radiation detection 
technologies, to maintain robust cargo, commercial conveyance, and 
vehicle inspection regimes at our POEs.
    NII technology is a critical element in CBP's ability to detect 
contraband, and materials that could pose nuclear and radiological 
threats. CBP currently has 304 large-scale NII systems and over 4,500 
small-scale systems deployed to, and between, POEs. These systems 
enable CBP officers to examine cargo conveyances such as sea 
containers, commercial trucks, and rail cars, as well as privately-
owned vehicles, for the presence of contraband without physically 
opening or unloading them. This allows CBP to work smarter and faster 
in detecting contraband and other dangerous materials. CBP officers 
also utilize NII, as well as spectroscopic and chemical testing 
equipment and narcotics detection canines, to detect and presumptively 
identify illicit drugs, including illicit opioids, at international 
mail and express consignment carrier facilities. Between October 1, 
2010 and March 31, 2018, CBP conducted more than 84 million NII 
examinations, resulting in more than 19,000 narcotics seizures and more 
than $79 million in currency seizures.
    Scanning all arriving conveyances and containers with radiation 
detection equipment prior to release from the POE is an integral part 
of CBP's comprehensive strategy to combat nuclear and radiological 
terrorism. In partnership with Countering Weapons of Mass Destruction 
Office (CWMD), CBP has deployed nuclear and radiological detection 
equipment, including 1,280 Radiation Portal Monitors (RPM), 3,319 
Radiation Isotope Identification Devices (RIID), and 35,294 Personal 
Radiation Detectors (PRD) to all 328 POEs Nation-wide. Utilizing RPMs, 
CBP is able to scan 100 percent of all mail and express consignment 
mail and parcels; 100 percent of all truck cargo; 100 percent of 
personally-owned vehicles arriving from Canada and Mexico; and nearly 
100 percent of all arriving sea-borne containerized cargo for the 
presence of radiological or nuclear materials. Since the RPM program 
began in 2002, CBP has scanned more than 1.41 billion conveyances for 
radiological contraband.
    In conjunction with CBP's many other initiatives, advancements in 
cargo and conveyance screening technology provide CBP with a 
significant capacity to detect dangerous materials and other 
contraband, and continue to be a cornerstone of CBP's multi-layered 
security strategy.
Technology Investments Between the Ports
    Thanks to the support of Congress, CBP continues to deploy proven, 
effective technology to strengthen border security operations between 
the POEs, in the land, air, and maritime environments. These 
investments increase CBP's ability to detect illegal activity along the 
border, increase our operational capabilities, and improve the safety 
of front-line law enforcement personnel.
Surveillance Capabilities
    Integrated Fixed Tower (IFT) systems are one of the technologies 
deployed along the Southwest Border in Arizona. IFTs provide long-
range, persistent surveillance. An IFT system automatically detects 
items of interest with radar, identifies and classifies them with day 
and night cameras, and tracks them at the Command and Control Center 
through the integration of data, video, and geospatial location input.
    Remote Video Surveillance Systems (RVSS) are another technology 
used by USBP in select areas along the Northern and Southern Borders. 
These systems provide short-, medium-, and long-range, persistent 
surveillance from towers or other elevated structures. Existing RVSS 
are being upgraded with newer cameras, communication backhaul, command-
and-control programs, and additional towers.
    In some areas along both the Northern and Southern Borders, USBP 
uses Unattended Ground Sensors (UGS) to provide focused, short-range, 
persistent surveillance. UGS are remotely monitored surveillance 
systems that detect, identify, and track activity and subjects in areas 
not easy to access or monitor with other technology. These sensors are 
hand-installed, fixed but relocatable, easy to conceal, and adaptable 
to numerous operational environments. Detection capabilities include 
seismic, magnetic, acoustic, infrared, radar, microwave, photoelectric, 
contact closure, and various others. Imaging UGS (I-UGS) provide photo 
or video verification of detections and allow advanced image analytics.
    Fixed systems provide persistent surveillance coverage to 
efficiently detect unauthorized border crossings. Once detection is 
confirmed, USBP can quickly deploy the appropriate personnel and 
resources to interdict. Without fixed-system technology such as IFT, 
RVSS, and UGS, USBP's ability to detect, identify, classify, and track 
illicit activity would be significantly limited.
Mobile and Relocatable Surveillance Capabilities
    Working in conjunction with fixed surveillance assets, USBP also 
uses mobile and relocatable systems to address areas where rugged 
terrain and dense ground cover may limit the effectiveness and coverage 
of fixed systems. Mobile and relocatable technology assets provide USBP 
with the flexibility to adapt to changing border conditions and 
threats.
    Mobile Surveillance Capability (MSC) systems provide long-range, 
mobile surveillance. They include radar and camera sensors mounted on 
USBP vehicles. Mobile Vehicle Surveillance Systems (MVSS) are short-, 
and medium-range, mobile surveillance equipment. They consist of camera 
sensors on telescoping masts mounted on USBP vehicles. USBP agents 
deploy with these systems, which detect, track, identify, and classify 
items of interest using the video feed.
    Another relocatable system is the Agent Portable Surveillance 
System (APSS). Mounted on a tripod, it provides medium-range, mobile 
surveillance and can be transported by two or three USBP agents. Two 
agents remain on-site to operate the system, which automatically 
detects and tracks items of interest and provides the agent/operator 
with data and video of selected items of interest.
    CBP's Tactical Aerostats and Re-locatable Towers program, 
originally part of the DOD re-use program, uses a mix of aerostats, 
towers, cameras, and radar to provide CBP with increased situational 
awareness over a wide area. This capability has proven to be a vital 
asset in increasing CBP's ability to detect, identify, classify, and 
track activity along the borders.
    The Cross Border Tunnel Threat (CBTT) program strengthens border 
security effectiveness between POEs by diminishing the ability of TCOs 
to gain access into the United States through cross-border tunnels and 
the illicit use of underground municipal infrastructure. This system 
helps CBP predict potential tunnel locations; detect the presence of 
suspected tunnels and tunneling activities as well as project the 
trajectory of a discovered tunnel; confirm a tunnel's existence and 
location through mapping and measurements; and facilitate secure 
information sharing across all stakeholders.
Technology in the Air and Maritime Domains
    AMO increases CBP's situational awareness, enhances detection and 
interdiction capabilities, and extends our border security zones, 
offering greater capacity to stop threats before they reach our shores. 
AMO's assets provide multi-domain awareness for our partners across 
DHS, as well as critical aerial and maritime surveillance, 
interdiction, and operational assistance to our ground personnel. AMO 
performs its offshore functions in coordination with the USCG and DHS's 
interagency partners.
    To address maritime threats, and the capabilities needed to meet 
those threats, AMO has recently acquired 41-foot, high-speed Coastal 
Interceptor Vessels (CIV) to enhance Marine Interdiction Agents' (MIA) 
ability to detect, intercept, and interdict suspect vessels entering 
the coastal approaches of the United States, Puerto Rico, and the U.S. 
Virgin Islands. The CIV will provide MIAs with upgraded electronics, 
and improved situational awareness through modernized navigation and 
sensor technology. As with AMO's aircraft, the marine vessels also 
support the Department's Joint Task Forces, as well as the Border 
Patrol Sectors, AMO investigations and missions, ICE, and other 
Federal, State, and local organizations.
    Additionally, AMO's Small Vessel Standoff Detection radiation 
detection capability increases the probability of detecting 
radiological and nuclear materials that might be used in an attack. 
This transportable equipment is effective against small private or 
commercial vessels, and can detect a potential threat in advance of a 
boarding.
    Multirole Enforcement Aircraft (MEA) are sensor-equipped aircraft 
for surveillance operations in regions where terrain, weather, and 
distance pose significant obstacles to border security operations. The 
MEA serves as a force multiplier for law enforcement personnel, 
facilitating the rapid-response deployment of equipment, canines, and 
people.
    P-3 Long-Range Trackers and Airborne Early Warning Aircraft provide 
critical detection and interdiction capability in both the air and 
marine environments. CBP P-3s are an integral part of the successful 
counter-narcotic missions operated in coordination with the JIATF-S. 
The P-3s patrol a 42-million-square-mile area that includes more than 
41 nations, the Pacific Ocean, Gulf of Mexico, Caribbean Sea, and 
seaboard approaches to the United States. Over the last 10 years, CBP's 
P-3 operational efforts assisted in the seizure or disruption of the 
delivery of more than 1.6 million pounds of cocaine, with an estimated 
wholesale value of $63 billion. In fiscal year 2018 to date, CBP P-3 
aircraft have flown 4,628 hours, and contributed to the seizure and 
disruption of over 83,000 lbs. of cocaine, averaging 23.5 pounds of 
cocaine for each hour a CBP P-3 flies.
    Multiple AMO aircraft are equipped with electro-optical infrared 
sensor systems that provide improved detection and identification 
capabilities, greater standoff ranges for more covert operation and 
safety, and have laser range finders, laser target illumination, and 
Shortwave Infrared functionality. These systems enable AMO aircraft to 
detect persons, vehicles, vessels, and aircraft during day, night, and 
in adverse visibility conditions, thus enabling classification of 
threats and enhancing mission value for ground agents.
    Other critical components of AMO's aircraft fleet include the UH-60 
Black Hawk helicopters, which are able to carry 8 agents with full 
gear. The Light Enforcement Helicopter (LEH) is a multi-mission 
helicopter used for aerial surveillance, tactical support, patrol of 
high-risk areas, and to transport agents responding to illegal border 
incursions, as well as serve search and arrest warrants. Another 
important asset is the DHC-8 Maritime Patrol Aircraft (MPA), which 
bridges the gap between strategic assets, such as the P-3 and Unmanned 
Aircraft System (UAS).
    AMO's aircraft have received a number of technological upgrades to 
increase their utility. For example, avionics upgrades to the AS-350 
helicopter allow operators to focus more of their attention on the 
mission, making them more effective. AMO has also added electro-optical 
infrared detection technology to its fixed-wing, light observation 
aircraft, thereby greatly increasing its tactical capabilities.
    UAS platforms are an increasingly important part of CBP's layered 
and integrated approach to border security. CBP's UAS consist of an 
unmanned aircraft, sensors, communication packages, pilots, and ground 
control operators. UAS platforms are used for surveillance, detection, 
and other mission requirements along the Southwest Border, Northern 
Border, and in the drug source and transit zones. The UAS program has 
logged over 49,200 flight hours since it began in fiscal year 2006, 
contributed to the interdiction and disruption of the movement of 
cocaine and marijuana with an estimated wholesale value of $1.18 
billion. CBP can equip four UAS aircraft with Vehicle and Dismount 
Exploitation Radar (VADER) sensor systems, which can detect human 
movement along the ground. Since 2012, VADER detected over 64,500 
people moving across the Southwest Border.
    Important advancements have come in the area of data integration 
and exploitation. New downlink technology allows AMO to provide a video 
feed and situational awareness to law enforcement personnel in real-
time. In addition, the Minotaur mission management system will enable 
the integration and geo-synchronization of multiple aircraft sensors, 
mission databases, and intelligence-gathering devices and allow 
multiple aircraft to share information from multiple sources, providing 
a never-before-seen level of air, land, and maritime domain awareness.
    AMO's Tethered Aerostat Radar System (TARS) monitors the low-
altitude approaches to the United States. With 8 aerostat sites, the 
TARS elevated sensor mitigates the effect of the curvature of the earth 
and terrain-masking limitations associated with ground-based radars, 
enabling maximum long-range radar detection capabilities. From fiscal 
year 2014 through fiscal year 2016, TARS was responsible for detecting 
86 percent of all suspected air smuggling flights approaching the 
Southwest Border from Mexico.
    A vital component of DHS's domain awareness capabilities, AMO's Air 
and Marine Operations Center (AMOC) integrates surveillance 
capabilities and coordinates National security threat response with 
other CBP operational components, including USBP. It works with other 
Federal and international partners.\1\ AMOC helps AMO and its partners 
predict, detect, identify, classify, respond to, and resolve suspect 
aviation and maritime activity in the approaches to U.S. borders, at 
the borders, and within the interior of the United States. AMOC 
utilizes extensive law enforcement and intelligence databases, 
communication networks and the Air and Marine Operations Surveillance 
System (AMOSS). The AMOSS provides a single display capable of 
processing up to 700 individual sensor feeds and tracking over 50,000 
individual targets simultaneously. The eight TARS sites represent 
approximately 2 percent of the total integrated radars in AMOSS, yet 
accounted for 53 percent of all suspect target detections.
---------------------------------------------------------------------------
    \1\ AMOC partners include the Federal Aviation Administration 
(FAA), the Department of Defense (including the North American 
Aerospace Defense Command (NORAD)), and the governments of Mexico, 
Canada, and the Bahamas.
---------------------------------------------------------------------------
    As we continue to deploy border surveillance technology, 
particularly along the Southwest Border, these investments in fixed and 
mobile technology, as well as enhancements of domain awareness 
capabilities provided by the AMOC, allow CBP the flexibility to shift 
more agents from detection duties to interdiction of illegal 
activities.
Access & Mobility
    USBP has consistently identified Access and Mobility as a key 
capability for gaining and maintaining operational control of the 
Southern Border. Access and Mobility is the ability to access areas of 
responsibility and, under all conditions, effect mobility for 
responding to illicit cross-border activity. CBP's portfolio currently 
includes over 900 miles of access roads. Roads are necessary to 
increase access points and expand patrol roads in high-priority areas. 
Patrol roads decrease travel time, improve incident response time, and 
increase the effective patrol range of USBP agents. Roads are a force 
multiplier and key in establishing operational control of the border.
                          hiring and personnel
    Front-line and non-front-line personnel are one of the most 
critical resources for improving border security. Mission readiness--
the ability to properly train and equip personnel--is critical to CBP's 
ability to secure the border and protect the American people.
    EO 13767 mandated the hiring of 5,000 additional USBP agents. To 
implement this directive, and as operational demands continue to 
evolve, CBP continues to explore all avenues to meet current and future 
human capital needs. CBP subjects our recruitment and hiring practices 
to an on-going cycle of analysis and refinement, working constantly to 
strengthen our hiring capabilities and secure adequate staffing for 
critical front-line operations and the network of personnel who support 
these operations. CBP's strategy includes initiatives designed to 
attract more applicants who are suited to the unique demands of CBP's 
mission, expedite the pre-employment time line, refine the hiring 
process to address potential bottlenecks, and reduce the attrition rate 
of the existing workforce.
    In pursuit of our hiring goals, CBP recruiters will continue to 
participate in thousands of recruiting events, seeking to reach a 
diverse spectrum of applicants. CBP has participated in close to 5,000 
recruitment and outreach events since the beginning of fiscal year 
2017. CBP's use of advanced data analytics to direct recruitment 
efforts, deemed a best practice by the U.S. Office of Personnel 
Management (OPM), has enabled CBP to identify demographics with low-
brand awareness of the CBP, and to refocus recruitment efforts toward 
these gaps. This has resulted in an overall increase in applicants and 
lowered the number of applicants it takes for one officer or agent to 
on-board. Recruitment at events for veterans and transitioning military 
personnel continues to be a top priority. CBP will continue to enhance 
our data analytics capabilities, refining CBP's ability to identify 
groups of people who are most likely to pursue or be interested in a 
law enforcement career and providing us with targeted areas and 
specific audiences for recruitment. In addition, CBP will focus on 
digital advertising, and enhance branding through relationships with 
community partners.
    In the last 2 years, more than 40 individual improvements to CBP's 
hiring process have resulted in significant recruitment and hiring 
gains, despite record low unemployment around the United States and 
intense competition for highly-qualified, mission-inspired people. With 
support from Congress, CBP is making investments in our capability and 
capacity to hire across all front-line positions. CBP is focusing on 
efforts to attract qualified candidates and expedite their progress 
through the CBP hiring process.
    CBP's streamlined front-line hiring process has led to significant 
reductions in the average time-to-hire. In the last 12 months, close to 
70 percent of new USBP agents and 60 percent of new CBP officers on-
boarded in 313 days or fewer, with 17 percent of USBP agents and 19 
percent of CBP officers on-boarding within 192 days. This is a 
significant improvement from the 469-day overall baseline established 
in January 2016. This streamlined process is reducing the number of 
otherwise qualified candidates who drop out due to process fatigue or 
accepting more timely job offers elsewhere, helping CBP grow its 
workforce. CBP's background investigation time is approximately 90 days 
for a Tier 5 level investigation, which is required for all of CBP's 
law enforcement officer applicants and 90 percent of CBP applicants 
overall. This is considerably less than the Government average for the 
same level investigation. CBP is also recognized as having a best 
practice quality assurance program, which other agencies regularly 
visit CBP to learn about.
    As a result of these improvements, CBP's fiscal year 2017 hiring 
totals surpassed fiscal year 2016 totals by 21 percent for CBP 
officers, 4 percent for USBP agents, and 91 percent for AMO air 
interdiction agents. In fiscal year 2017 CBP reached the highest number 
of USBP agent hires since fiscal year 2013 and the highest number of 
air interdiction agents and MIA hires since fiscal year 2014. The total 
number of front-line applicants increased by 73 percent between fiscal 
year 2015 and fiscal year 2017, including a 41 percent increase from 
fiscal year 2016 to fiscal year 2017.
    A significant challenge for CBP is that much of our work must be 
carried out in remote locations. It can be difficult to attract 
applicants who are willing to work in these locations, and it is a 
significant factor in our attrition. A stable relocation program will 
help meet USBP operational requirements and alleviate the workforce's 
concerns about lack of mobility, which is significantly contributing to 
increased attrition. CBP is working to develop programs that address 
attrition through relocation and retention incentives that meet 
employee aspirations, and at the same time enable CBP to staff these 
locations. Recruitment incentives are also helpful in attracting new 
personnel to join CBP, especially for positions in geographic locations 
that are difficult to fill. CBP is thankful for the continued 
dedication of Congress to working collaboratively with us to develop 
solutions to this complicated challenge.
    Consistent with the Explanatory Statement accompanying the fiscal 
year 2017 Consolidated Appropriations Act concerning the alternative 
polygraph exam format, CBP conducted a 6-month pilot program that 
allowed the agency to compare data points from applicants tested with 
the new, alternative format against applicants tested with the previous 
format. CBP developed this pilot in collaboration with the National 
Center for Credibility Assessment, which governs all Federal polygraph 
programs. After an assessment of the pilot, which carefully evaluated 
these metrics and measures to ensure the format maintained CBP's high 
standard of integrity for applicants, CBP has implemented this test 
format and has engaged with committee staff on our path forward. While 
its format may change, the exam retains all of the critical test topics 
of the previous exam and maintains CBP's commitment to high integrity 
standards for its personnel.
    Additionally, DHS supports the Anti-Border Corruption 
Reauthorization Act of 2017, which was ordered as H.R. 2213 in the 
House of Representatives and S. 595 in the Senate. The House passed 
H.R. 2213 on June 7, 2017, thanks to the strong support of this 
subcommittee and the co-sponsorship of Chairwoman McSally, and the bill 
is currently pending vote by the Senate. This pending legislation 
grants the Commissioner authority to waive the polygraph requirement 
for three groups of applicants who have a demonstrated, long-standing 
history of public trust and meet specific criteria: Current, full-time 
State and local law enforcement officers; current, full-time Federal 
law enforcement officers; and veterans, active-duty service members, 
and reservists. We thank the Members of Congress for your continued 
support as we seek to hire the men and women who will fulfill CBP's 
complex and crucial mission in the months and years to come.
                               conclusion
    The border environment is dynamic and requires constant adaptation 
to respond to emerging threats and changing conditions. CBP continues 
to work in close coordination with our partners to respond to these 
threats and ensure the safety and prosperity of the American people. 
With the support of Congress, CBP will continue to secure our Nation's 
borders through the risk-based deployment of infrastructure, personnel, 
and technology.
    Chairwoman McSally, Ranking Member Vela, and distinguished Members 
of the subcommittee, thank you for the opportunity to appear today. I 
look forward to your questions.

    Ms. McSally. Thank you.
    The Chair now recognizes Director Homan for 5 minutes.

STATEMENT OF THOMAS D. HOMAN, ACTING DIRECTOR, U.S. IMMIGRATION 
 AND CUSTOMS ENFORCEMENT, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Homan. Chairwoman McSally, Ranking Member Vela, and 
distinguished Members of the subcommittee, thank you for the 
opportunity to appear here today and speak to the importance of 
ICE's mission to protect America from cross-border crime and 
illegal immigration, both of which threaten National security 
and public safety.
    Since President Trump's Executive Orders were issued early 
last year, ICE and its partner agencies have made significant 
progress in restoring--restoring the rule of law to our 
immigration system.
    Over the last fiscal year, ISIS increased arrests by over 
40 percent, increased interior removals by 30 percent. We have 
nearly doubled the number of MS-13 arrests over this year.
    Reflecting our continued focus on enforcement against 
public safety and National security threats, illegal 
reentrants, and fugitives, 92 percent of all of our arrests 
last year reflected one of these priorities.
    These results reflect what the dedicated men and women of 
ICE can achieve when they are empowered to fulfill their lawful 
mission. But the reality is that we will not stop illegal 
immigration unless we eliminate the pull factors. We need 
Congress' help to do that.
    Last fall, the Trump administration sent a series of----
    Ms. McSally. The gentleman suspend for a minute. The Chair 
wishes to remind our guests today that demonstrations from the 
audience, including the use of signs, placards, and t-shirts, 
as well as verbal outbursts, are a violation of the rules of 
the House.
    The Chair wishes to thank our guests for their cooperation 
in maintaining order and proper decorum.
    Mr. Homan. Last fall, the Trump administration sent a 
series of policy priorities to Congress that would address the 
misguided policies and loopholes that only serve as pull 
factors for illegal immigration.
    These priorities reflect the input of law enforcement 
professionals and us three at the table who know best what we--
--
    Ms. McSally. The gentleman please suspend.
    Pursuant to my previous statement, would our guests please 
lower their signs in accordance with House rules?
    The Chair instructs the Capitol Police to remove the 
protestors from the committee room. The committee will recess 
until order is restored, pending the call of the Chair.
    [Recess.]
    Ms. McSally. The committee will come to order.
    Director Homan, please continue.
    Mr. Homan. Do you want me to start or do you want me to 
start where I ended, ma'am?
    Ms. McSally. You can start where you left off.
    Mr. Homan. OK. OK. Last fall the Trump administration sent 
a series of policy priorities to Congress that would address 
misguided policies and loopholes that only serve as pull 
factors for illegal immigration. These priorities reflect input 
of law enforcement professionals who know best what we need in 
order to close the loopholes and eliminate magnets for illegal 
immigration. Us three at the table actually authored much of 
what was sent up to the Hill.
    This administration rightfully listened to us. I know that 
many of you agree it is time that Congress do the same. 
Entering this country illegally is a crime. If there are no 
consequences for sneaking past the border, overstaying a visa, 
skipping immigration court or even committing crimes while in 
the country illegally, then there is going to be no integrity 
in the entire system.
    One major pull factor we need to address is the policies 
governing the processing of unaccompanied alien children we 
call UACs and family units and the legal constraints that 
impede their removal from the country. These policies 
ultimately encourage more parents to subject themselves and 
their children to dangerous criminal smuggling organizations 
and we unfortunately have seen that reflected in the recent 
uptick in border apprehension of UACs and family units.
    Since the Flores decision, ICE has been severely 
constrained in the way we can process and detain minors, as a 
result family units so we are often forced to release them 
which all but guarantees they will skip the court date or not 
abide by the court's decisions and not be sent home. This is 
highlighted by the fact that 3.4 percent, only 3.4 percent of 
all UACs from countries other than Mexico encountered at the 
Southwest Border have been removed.
    While ICE and our interagency partners have made progress 
this past year on reducing the number of countries that refuse 
to take their citizens back, we also need a solution that will 
allow us to detain dangerous criminals whose home countries 
won't take them back.
    As a result of a 2001 Supreme Court decision, Zadvydas vs. 
Davis, even illegal immigrants who are violent criminals can be 
released from our custody and back into the community if their 
home country won't take them back. That loophole can have 
tragic consequences and we need Congress to help us.
    We also need to address the dangerous pulls by sanctuary 
jurisdictions that needlessly risk innocent lives to protect 
criminals who are illegally present in the United States. 
Sanctuary policies are shielding criminal aliens and 
immigration violators from enforcement by refusing to honor ICE 
detainers or allow ICE access to their jails.
    For those who claim they want ICE to focus solely on 
arresting, detaining, and removing criminals, it defies common 
sense to prevent us from taking custody of them in local jails 
and prisons, but that is exactly what is happening in sanctuary 
cities.
    To be clear, ICE is not asking law enforcement to do our 
job. What we want is access to a jail to talk to somebody that 
we know is here illegally in violation of Federal law that 
committed yet another crime. It is incredibly frustrating.
    As a result of these policies, my officers are forced to 
make more arrests out in the community, at homes and 
workplaces. Those arrests are riskier for both the public and 
for law enforcement and they increase the likelihood that ICE 
will encounter other illegal aliens who previously weren't on 
our radar. In other words, policies aimed at restricting or 
minimizing ICE's direct engagement in the community is actually 
having the opposite effect by forcing ICE to increase its 
presence in those very same communities.
    These policies also undermine cooperation and partnership 
between Federal, State, and local law enforcement. We should be 
working together to uphold our shared priority of protecting 
the public safety.
    I am encouraged many of our law enforcement partners 
throughout the United States have expressed their opposition to 
these types of policies and continue to find ways to work with 
us. I want to make sure everyone here today understands that 
sanctuary cities do not protect the immigrant community. They 
do not make the community safer. They do the exact opposite.
    Finally, it is my hope that Congress will support the 
administration's request for more ICE personnel resources so 
that we can continue the progress we have made over the past 
year with our existing resources.
    These issues aren't just about enforcing law, they are also 
humanitarian issues because we know the journey to the United 
States can often be dangerous and deadly. Until and unless 
Congress works with us to address these concerns, we are going 
to see more caravans, more people making that dangerous journey 
north, more people that die entering this country.
    I have said it many times, there is a right way to come in 
this country and a wrong way. It is ICE's job to make sure that 
those who choose to come into United States illegally are 
found, arrested and, if ordered by the immigration judge, 
removed. That is the oath I have taken along with the other 
20,000 law enforcement officers in ICE who are constantly 
attacked simply for doing their Congressionally-mandated jobs.
    In closing, as you know, I will be retiring from Federal 
service next month after 34 years as a Federal law enforcement 
officer. It has been the honor of my life to lead this agency 
and the 20,000 men that work in this agency. They are American 
patriots by the very fact they leave their homes every day and 
put their safety at risk to protect their communities.
    I will continue to be a strong advocate for the work force 
and for the ICE mission and I urge Congress to work with ICE 
and the administration on the issues I have highlighted here 
today. I want to thank you again for giving me this opportunity 
to testify and look forward to answering any questions. Thank 
you.
    [The prepared statement of Mr. Homan follows:]
                 Prepared Statement of Thomas D. Homan
                              May 22, 2018
                              introduction
    Chairwoman McSally, Ranking Member Vela, and distinguished Members 
of the subcommittee: Thank you for the opportunity to appear before you 
today to discuss the role of U.S. Immigration and Customs Enforcement 
(ICE), in promoting homeland security and public safety through the 
broad enforcement of approximately 400 Federal laws governing 
immigration, border control, customs, and trade.
    ICE enforces the immigration laws of the United States against all 
removable aliens, consistent with Federal law. Immigration enforcement 
operations have always been a regular part of ICE's duties and are 
necessary to identify, arrest, detain, and remove those who present a 
danger to our National security, are a threat to public safety, or 
otherwise undermine the integrity of our immigration system. All those 
in violation of U.S. immigration laws may be subject to immigration 
arrest, detention, and removal from the United States.
    The ``caravan'' is the latest example of the need for an integrated 
approach to border security, which combines physical barriers and 
monitoring tools with the administrative tools necessary to regulate 
the orderly flow of goods and people into the United States. Moreover, 
the situation highlights the need for Congress to act to address the 
loopholes that exist in current immigration laws, as many individuals 
seeking to cross the border hold expectations that long-term entry to 
the United States can be garnered by laying false claims to credible 
fear, or otherwise thwarting our lawful immigration processes.
    The current statistics are sobering. Overall, the number of illegal 
aliens encountered at the border increased more than 200 percent when 
compared to this same time last year. Perhaps more troubling, the 
number of unaccompanied alien children encountered has increased over 
800 percent. And the number of families encountered increased over 680 
percent. While DHS has been apprehending and processing these crossers 
with historic efficiency, our ability to actually remove those who come 
here illegally cannot keep pace with the influx unless we make a number 
of key changes to close existing loopholes in the system.
    These legal loopholes are strong pull factors that entice those 
looking to circumvent our laws, including groups who profit from 
smuggling people. As Secretary Nielsen has made clear, interdiction 
without the ability to promptly remove those without legitimate cause 
undermines border security. And border security is National security. 
For border security to work, illegal activity must have consequences, 
and these loopholes must be closed. They are unacceptable, and more 
than that, they are dangerous. We must do more to secure our borders 
against these threats that are making our country vulnerable.
    While this administration has taken initiative and made strident 
efforts to address the pull factors that lead to illegal immigration, 
the most essential reforms require legislation. Congress needs to 
address sanctuary jurisdictions and affirm ICE's detainer authority. 
Congress needs to end catch-and-release by ensuring adequate funding 
for detention beds, mandatory detention for convicted criminals, and a 
legislative fix for the Zadvydas v. Davis court decision.
         credible fear claims and the immigration court backlog
    While those with legitimate claims of asylum must be protected, 
many of those seeking to enter this country illegally know that there 
is no significant downside to making a claim of ``credible fear'' and 
only a few key words are all it takes to keep an alien in the country 
longer. A fact that is exploited by the smuggling organizations who 
profit from them. DHS experience has shown that individuals seeking to 
enter the country illegally know they can delay their removal by making 
false claims of credible fear. Indeed, the standard for credible fear 
screenings at the border has been set so low that aliens may easily 
meet this threshold by including certain phrases and claims during 
their credible fear interview. The smuggling organizations know this, 
and they coach to aliens to make certain claims and to recite ``magic 
words'' during their interview.
    To compound this issue, family units who arrive at our border are 
nearly always released from ICE custody into the interior of the United 
States, as recent rulings in the Flores consent decree litigation 
places a constraint on ICE's authority to detain an entire Family Unit. 
This litigation requires that children be released from DHS custody 
within a few days of arrival if they are not removed. In fiscal year 
2017, approximately 71,500 members of family units were apprehended, 
and ICE believes this number is on track to increase significantly in 
fiscal year 2018.
    With many of those arriving at the border claiming credible fear 
and an immigration court backlog of more than 700,000 cases, it is 
clear that we must elevate the threshold standard of proof in credible 
fear interviews, as aliens who falsely claim credible fear in 
expectation of parole or release are placing a strain on Department 
resources, and preventing or delaying legitimate asylum cases from 
being adjudicated. DHS and the Department of Justice (DOJ) are working 
together to explore options for addressing this increasing threat to 
the security of our border.
              prompt removal for those who cross illegally
    A critical component of border security is being able to quickly 
remove illegal aliens when they are apprehended by immigration 
enforcement officers. However, the combination of legal loopholes, lack 
of detention funding, and court backlogs often results in illegal 
aliens being released shortly after their apprehension. Many of these 
illegal aliens never appear for their immigration court hearings and 
then, go undetected unless they get arrested for another criminal 
violation, which happens repeatedly, with often tragic results. These 
are preventable crimes, and more importantly, result in preventable 
victims of criminal activity, that needlessly occurs as a result of 
Congressional inaction.
    Aliens arrested in the interior may be more likely to have 
protracted immigration proceedings and appeals, which delays the 
issuance of an executable final order of removal. Specifically, many 
such aliens are not amenable to expedited removal--an accelerated 
removal process in which aliens cannot apply for relief from removal 
and when only very limited avenues for judicial review are available. 
Only if aliens subjected to expedited removal are found to have a 
credible fear of returning to the proposed country of removal are such 
aliens referred to full section 240 removal proceedings, in which they 
can apply for all forms of relief or protection from removal for which 
they are eligible. Such cases also frequently require a more complex 
and lengthy process to obtain travel documents, which further delays 
the removal process. As a result, ICE is working with DHS and its other 
components to evaluate options for returning aliens to their home 
countries in a safe, humane, and lawful fashion.
                     end catch-and-release policies
    ``Catch-and-release'' policies are a significant pull-factor for 
illegal immigration. Recent increases of illegal immigrants, of which 
the migrant caravan is but a small part, require immediate 
Congressional action to close loopholes that frustrate ICE's ability to 
enforce the laws.
    Court rulings which force ``catch-and-release'' for alien families 
have long posed significant challenges for ICE in maintaining effective 
control of the border, particularly when alien families decide to break 
our immigration laws en masse, as is currently happening. These court 
rulings have stripped ICE of the ability to detain these families, 
meaning they must be released into communities across the United 
States. In many cases, families do not appear for immigration court 
hearings, and even when they do, many more fail to comply with the 
lawfully-issued removal orders from the immigration courts.
    Additionally, DHS and ICE support making detention mandatory for 
all convicted criminals, to ensure our communities stay safe. Some 
judicial decisions, such as Zadvydas v. Davis, restrict ICE's authority 
to keep criminal aliens, who are pending removal, in custody. This 
decision significantly restricts the ability of DHS to detain aliens 
with final orders of removal, including serious felony offenders, if 
their home countries will not accept their return. As a result, foreign 
nationals who have been convicted of murder and rape--among other 
crimes--are released back onto the streets of America instead of being 
detained until they can be returned to their home country. In 2017, 
more than 2,300 aliens were released because of that court decision, 
including more than 1,700 convicted criminal aliens. Going forward, we 
would like to work with Congress to address this serious public safety 
issue.
                       sanctuary city legislation
    Though clear legal authority exists for State and local law 
enforcement to cooperate with ICE in its immigration enforcement 
efforts,\1\ not all State and local jurisdictions cooperate with ICE. 
Some jurisdictions refuse to honor ICE detainers, or even to share 
information relating to potentially removable aliens. Some even prevent 
ICE access to their jail population for purposes of conducting 
interviews. This is a significant impediment because ICE often requires 
interviews to determine alienage, gang affiliation, and removability.
---------------------------------------------------------------------------
    \1\ The U.S. Supreme Court has repeatedly recognized the broad 
discretion of the Federal Government in the area of immigration 
enforcement, as the authority of ICE officers to issue detainers is 
firmly rooted in Federal law and practice. (Adapted from 93037).
---------------------------------------------------------------------------
    The cooperation ICE receives from State and local law enforcement 
agencies is critical to its ability to identify and arrest aliens who 
are subject to removal from the United States pursuant to Federal law, 
and who may be a threat to the public because they have been arrested 
or convicted for criminal activity, much of it violent. ICE places 
detainers on individuals whom it has probable cause to believe are 
removable aliens in Federal, State, and local law enforcement agency 
custody on criminal charges.
    Unfortunately, some of the aliens who have been released after 
local jurisdictions refuse to honor an ICE detainer have gone on to 
commit additional crimes, including violent felonies. While these 
crimes could have been prevented if ICE had been able to take them into 
custody upon release from State or local criminal custody, and remove 
them from the country, State or local laws and policies prevented ICE 
from intervening, and these aliens were released back into the 
community to reoffend. Such laws and policies that limit or prohibit 
cooperation with lawful immigration enforcement needlessly jeopardize 
public safety, waste Government resources, and send the wrong message 
to those who seek to enter this country illegally, including criminals.
    Furthermore, when jurisdictions fail to honor ICE detainers, ICE 
must conduct at-large operations to locate these criminal aliens. Such 
releases increase the risks to everyone involved; from members of the 
public who may later become victims of crime, to the law enforcement 
officers and aliens involved in subsequent arrests. Logistically 
speaking, the failure to honor ICE detainers also increases the need 
for ICE's presence in communities, and requires additional resources to 
locate and arrest potentially dangerous aliens.
    As always, ICE seeks to build cooperative, respectful relationships 
with law enforcement partners, and continues to collaborate with them 
to help ensure that aliens who pose a threat to our communities are not 
released onto the streets to reoffend.
    ICE is committed to using its unique enforcement authorities to 
promote National security, uphold public safety, and preserve the 
integrity of our immigration system. The use of detainers is a lawful, 
efficient, effective, and safe means to carry out ICE's mission, and 
ICE, DHS, and the Department of Justice continue to work together to 
ensure that ICE is able to carry out this aspect of its public safety 
mission.
   ensure adequate bed funding and mandatory detention for criminals
    Detention is a necessary tool utilized in its primary mission to 
effectuate the removal of aliens ordered removed from the United 
States. ICE's increased interior enforcement initiatives, as well as 
the efforts of other agencies, resulting from EO 13767, Border Security 
and Immigration Enforcement Improvements, and EO 13768, Enhancing 
Public Safety in the Interior of the United States necessitates 
additional detention capacity. The lawful detention of illegal and 
criminal aliens ensures that they appear at their removal proceedings, 
increases the likelihood that orders of removal are executed, enhances 
public safety, and restores integrity to the immigration laws of the 
United States. In addition, mandatory detention for all convicted 
criminals will help ensure our communities are safe--for citizen and 
lawful immigrant alike.
    Currently, ICE's fiscal year 2018 budget provides funding for 
40,520 average daily population (ADP) (2,500 family beds and 38,020 
adult beds); this is approximately 675 adult ADP lower than current ADP 
levels (fiscal year 2018 ADP 40,830). The current funding levels do not 
allow for any increase in detention due to seasonal increases in border 
apprehensions, or additional interior apprehensions, even though ICE 
has identified additional detention capacity near the Southern Border 
to accommodate the surge in apprehensions stemming from seasonality or 
the deployment of the National Guard.
    The fiscal year 2019 budget includes nearly $2.8 billion to expand 
detention capacity to support an average daily adult population of 
49,500 and an average daily family population of 2,500, for a total of 
52,000 beds. ICE believes these numbers would provide appropriate 
detention space for enforcement activities and ensure the end of 
``catch-and-release'' at the border for those aliens ICE is lawfully 
able to detain. Additionally, the budget also includes funding for the 
Alternatives to Detention (ATD) program to sustain 82,000 average daily 
participants.
                               conclusion
    Thank you again for the opportunity to appear before you today and 
for your continued support of ICE and its law enforcement mission. We 
appreciate the chance to discuss the importance of immigration 
enforcement and border security, and how we can work together to keep 
our communities safe by closing legal loopholes that exist within 
current enforcement authorities. I look forward to answering any 
questions you may have at this time.

    Ms. McSally. Thanks, Director Homan.
    The Chair now recognizes Director Cissna for 5 minutes.

STATEMENT OF LEE FRANCIS CISSNA, DIRECTOR, U.S. CITIZENSHIP AND 
   IMMIGRATION SERVICES, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Cissna. Chairwoman McSally, Ranking Member Vela, and 
distinguished Members of the subcommittee I am pleased to be 
here today along with my colleagues from ICE and CBP to offer 
thoughts on real border security.
    In most people's minds, border security means physical 
controls and surveillance. We have all seen the wall 
prototypes, the documentaries that have followed Border Patrol 
agents as they do their dangerous and exhausting work and other 
evidence of the physical aspects of border control. I suggest 
that true border security is much more than that.
    While border security certainly does incorporate physical 
control of the border, it must also incorporate the 
administrative processes that govern the entry and exit of 
individuals into the United States. Behind the border wall, as 
both the Chairman and the Chairwoman have said, there must be a 
wall of law.
    As evidence that many in Congress understand this problem, 
I point to H.R. 4760, the Scoring America's Future Act, as a 
blueprint for meaningful immigration reform. I note that the 
Chairwoman along with Congressmen Smith, Barletta, Rutherford, 
and Bacon on this subcommittee and indeed Chairman McCaul 
himself, are all co-sponsors of that bill.
    This piece of legislation provides many of the tools that 
could help us regain control of our borders while at the same 
time improving our ability to administer an immigration system 
that is responsive to our Nation's needs and obligations.
    Now, I would like to mention the backlog in the USCIS 
asylum caseload. The number of new asylum filings has tripled 
between fiscal year 2014 and fiscal year 2017. The number 
received in fiscal year 2017 was the highest annual number of 
asylum claims received in over 20 years. USCIS currently faces 
an asylum backlog of around 318,000 cases, a backlog of 
critical proportions that cripples our ability to properly 
screen and vet applicants while they wait for a decision. A 
consequence of this 1,750 percent increase in pending asylum 
applications is that true asylum seekers are lost in a haystack 
of applications, many of them non-meritorious.
    In my written testimony, I discuss how USCIS has taken 
steps to address this backlog. I also mentioned several 
loopholes that work to undermine our Nation's asylum system. 
Now, I would like to share with you some background on this.
    When Congress established the expedited removal process in 
1996, Congress understood that a mechanism to screen for claims 
for asylum was necessary. The compromise Congress came up with 
was the so-called credible fear process. I would submit to you 
that the present process at the border is neither expeditious 
nor credible.
    The statutory standard for credible fear screenings at the 
border has been set so low that nearly everyone meets it. But, 
over the years since the passage of the Refugee Act of 1980, 
certain courts have taken this generous approach and stretched 
it almost beyond recognition ruling that people like former 
gang members or victims of general gang violence may qualify 
for asylum as a member of some sort of particular social group.
    Someone only has to show that there is a ``reasonable 
possibility'' of suffering persecution on account of a 
protective ground in order to qualify for asylum. The credible 
fear screening standard used at the border only requires that 
someone establish that there is a significant possibility of 
establishing eligibility for asylum in order to pass the 
screening process.
    What does this all mean? It means that an alien saying the 
magic word ``asylum'' at the border only has to establish a 
significant possibility that there is a reasonable possibility 
that he or she will be persecuted on account of a protective 
ground if returned home in order to be screened in. In other 
words, they need to only show a possibility of a possibility.
    Many of those seeking to enter this country illegally and 
smuggling organizations who profit from them know that a few 
key words are all it takes to get an alien through this 
screening process. It should be no surprise, therefore, that we 
have seen a 1,750 percent increase in the number of fear claims 
being made in the expedited removal process between fiscal year 
2008 and fiscal year 2016.
    The loophole of this overly generous screening standard 
when paired with insufficient funding for detention space, 
court decisions that prevent us from detaining fear claimants 
throughout the process of adjudicating their protection claims 
and an overburdened immigration court system tasked with 
hearing those claims is a recipe for the challenges that we are 
dealing with at the border.
    The evidence that the present system is being gamed is 
obvious. According to data from the Department of Justice, the 
Executive Office for Immigration Review through mid-January of 
this year, 56 percent of pending cases they have that 
originated from credible fear reviews that were conducted by 
USCIS still had not filed asylum application.
    The number of removal orders issued after the alien failed 
to appear at the hearing on cases that originated from credible 
fear has increased by over 1,350 percent. Finally, as announced 
by EYR last week, the approval rate for defensive asylum cases 
was only 20 percent and was only 22 percent for the first two 
quarters of fiscal year 2018.
    Secretary Nielsen has called on Congress to work with her 
to quickly pass legislation to close these legal loopholes and 
the asylum loophole, the loopholes and abuse of the asylum 
process I just described are some of them. These are being 
exploited to the detriment of the integrity of our immigration 
system.
    Like Secretary Nielsen, I stand ready to work with any 
Member of Congress who seeks to support DHS's mission to secure 
our country and correct these problems. Thank you.
    [The prepared statement of Mr. Cissna follows:]
                Prepared Statement of Lee Francis Cissna
                              May 22, 2018
                              introduction
    Chairwoman McSally, Ranking Member Vela, and distinguished Members 
of the subcommittee, I am pleased to be here today, along with my 
colleagues from U.S. Immigration and Customs Enforcement (ICE) and U.S. 
Customs and Border Protection (CBP), to speak with you about an 
integrated border security plan. My name is Francis Cissna, and I am 
the director of U.S. Citizenship and Immigration Services (USCIS). My 
testimony will lay out problems that exist within our Nation's asylum 
system that compromise border security and the integrity of our 
Nation's lawful immigration system, as well as steps that USCIS and 
other Department of Homeland Security (DHS) components are taking to 
address them. I will also suggest statutory changes in areas where only 
legislative action can provide the authorities needed to help secure 
our borders and keep our country safe. I am hopeful that the necessary 
changes will be realized, and I point to H.R. 4760, the Securing 
America's Future Act, as a blueprint for meaningful immigration reform. 
I further note that the Chairwoman, along with Congressmen Smith, 
Barletta, Rutherford, and Bacon on this subcommittee are cosponsors of 
the Securing America's Future Act.
    USCIS administers the Nation's lawful immigration system, including 
the adjudication of affirmative asylum claims and applications for 
refugee status. USCIS officers work shoulder-to-shoulder with their ICE 
and CBP colleagues--from conducting protection screening interviews at 
detention centers to running real-time immigration record checks at the 
National Targeting Center. The closer we work together--and not just 
with our DHS partners but also with the Department of Defense and the 
States that are stepping up and temporarily deploying the National 
Guard--the better we secure our country. Stronger security requires 
multiple layers, from physical controls and surveillance along the 
border, to targeted interior enforcement, to a more aggressive 
crackdown on the immigration fraud and abuse that diminishes the 
integrity of our immigration system and harms American workers. It also 
includes working with our foreign partners to ensure that their 
immigration and enforcement policies and efforts reduce illegal flows 
from and through their territories to other nations, including the 
United States.
    There is only so much we can do as a Department to enforce the rule 
of law when serious loopholes exist within current law. Congress must 
step in and give our officers the tools we need to better protect 
asylum seekers and the American people. Allow me to lay out the 
challenges we face, the actions USCIS has taken, and what more can be 
done, especially with your help.
    First, the backlog in the USCIS asylum process has swelled over the 
last 5 years. The number of new asylum filings has more than tripled 
between fiscal year 2014 and fiscal 2017; the number received in fiscal 
year 2017 (141,695 asylum applications) was the highest annual number 
of asylum claims received in over 20 years. USCIS currently faces an 
asylum backlog of over 318,000 cases--a backlog of critical proportions 
that cripples our ability to properly screen and vet applicants while 
they wait for a decision. A consequence of this 1,700 percent increase 
in the backlog of pending asylum cases over the last 5 years is that 
true asylum seekers are lost in a haystack of applications, many of 
them non-meritorious.
    To stem the increase of frivolous filings and help those who truly 
fear persecution, USCIS began to schedule asylum interviews for recent 
applications ahead of older filings, beginning in February of this 
year. Delays in the timely processing of asylum applications are 
detrimental to legitimate asylum seekers. Furthermore, lingering 
backlogs can be exploited and used to undermine National security and 
the integrity of the asylum system. The result is that true victims 
wait years to be processed. Those who file frivolous claims not only 
circumvent the legal immigration system, but they could pose a threat 
to public safety and National security.
    Returning to a ``last in, first out'' interview schedule allows 
USCIS to focus quickly on those applications that should be approved 
while also identifying frivolous, fraudulent, or otherwise non-
meritorious asylum claims earlier and quickly place those individuals 
into removal proceedings. This priority approach is not new. It was 
first established by the asylum reforms of 1995 and was used for 20 
years until 2014. The aim then, as now, was to deter those who might 
try to use a backlog as a means to obtain employment authorization and 
build equities in the United States. During the first 3 months that 
this revised scheduling approach has been in place, the number of new 
affirmative asylum applications received has fallen by approximately 30 
percent from the number of filings received from November 2017 through 
January 2018. While it is still too early to call this a permanent 
trend, USCIS expects that this scheduling change will deter the filing 
of non-meritorious claims.
    Congress can help in closing loopholes for frivolous and baseless 
asylum filings. The extended asylum processing times caused by the 
growing backlog have led to the issuance of more Employment 
Authorization Documents (EADs) and created an incentive (or pull 
factor) for individuals to apply for asylum solely to obtain work 
authorization. The current wait time for an asylum decision in the 
backlog varies between USCIS Asylum offices, but is roughly 2 years or 
longer overall. While the number of mala fide claims is difficult to 
estimate, experience from the 1990's indicates that a significant 
amount of the growth in receipts since fiscal year 2014 may be linked 
to individuals pursuing work authorization and not necessarily asylum 
status. While just less than 55,000 EADs were issued to individuals 
with pending asylum applications in fiscal year 2012, over 277,000 such 
EADs were issued during just the first three quarters of fiscal year 
2017.\1\
---------------------------------------------------------------------------
    \1\ USCIS News Alert (Oct. 12, 2017), ``USCIS Makes Additional Data 
on Employment-Based Visa Programs Available in Support of `Hire 
American' Executive Order''; EADs by Classification and Statutory 
Eligibility, Oct. 1, 2012-June 29, 2017 (https://www.uscis.gov/sites/
default/files/USCIS/Resources/Reports%20and%20Studies/
Immigration%20Forms%20Data/BAHA/eads-by-statutory-eligibility.pdf).
---------------------------------------------------------------------------
    Moreover, approximately 20 percent of the Asylum Division's 
affirmative asylum backlog comprises cases in which, at the time of 
filing, 10 or more years had elapsed after the applicant's last arrival 
in the United States. These applicants appear to be using the asylum 
process to gain access to removal proceedings so that they can then 
apply for cancellation of removal, a form of relief from removal that 
can presently only be sought while in removal proceedings. With the 
present backlog, these individuals can get authorization to work in the 
United States while they wait for their asylum case to be reviewed, 
have an asylum interview scheduled, and receive a decision to refer 
their application to removal proceedings before an immigration judge.
    In order to fully address these loopholes, new legislation is 
needed. In order to deter frivolous filings, individuals who make them 
should face penalties beyond simply having their application denied. 
Under the statute, individuals who are found to have filed frivolous 
asylum applications are permanently barred from receiving any future 
immigration benefits, yet this finding is rarely made because the 
definition of ``frivolous'' is too narrow and the notice requirements 
too unwieldy. Expanding the definition of ``frivolous'' to capture the 
types of abusive claims we are currently seeing and amending notice 
requirements, for instance, would send a strong and clear message that 
individuals are no longer welcome to abuse our asylum processes. USCIS 
stands ready to provide technical assistance, as needed, to the 
Congress as you consider remedies.
    Attention also needs to be given to expedited removal and the 
credible fear screening process--especially as they relate to the 
Southern Border. The simple reality is that those who wish to gain 
access to or remain in the United States know they can likely effect 
that access and then delay their removal by simply saying the ``magic 
words'' of ``fear'' or ``asylum.'' The standard for credible fear 
screenings at the border has been set so low that nearly everyone meets 
it.
    Those with legitimate claims of asylum must be protected; however, 
many of those seeking to enter this country illegally, and the 
smuggling organizations who profit from them, know that a few key words 
are all it takes to keep an alien in the country longer. Unfortunately, 
there is no significant downside to making a false claim of ``credible 
fear''. Additionally, family units who arrive at our border are nearly 
always released from ICE custody into the interior of the United States 
as recent rulings in the Flores consent decree litigation constrain 
ICE's authority to detain an entire family unit. These rulings require 
that children be released from DHS custody within a few days of arrival 
if they are not removed. In fiscal year 2017, approximately 71,500 
members of family units were apprehended at the Southern Border.
    With continued claims of credible fear, and an immigration court 
backlog of more than 650,000 cases, it is clear that we must elevate 
the threshold of proof in credible fear screenings. Aliens who falsely 
claim credible fear in expectation of parole are placing a strain on 
Department resources, and preventing or delaying legitimate asylum 
cases from being adjudicated. DHS and the Department of Justice (DOJ) 
are working together to explore options for addressing this increasing 
threat to the security of our border.
    Current law also prevents the Government from promptly removing 
some unaccompanied alien children (UACs) who arrive in the country 
illegally. Rather than being expeditiously removed to their home 
countries, these minors are instead placed in full removal proceedings 
before immigration judges and, pursuant to Federal law, are referred to 
the U.S. Department of Health and Human Services (HHS) at taxpayer 
expense, and subsequently released to the custody of a sponsor--
sometimes even a family member or friend who often lacks lawful 
immigration status in the United States. As has been reported, violent 
street gangs such as MS-13 have targeted UACs and other Central 
American immigrant youth for recruitment. Dozens of suspected gang 
members arrested in recent successful anti-gang operations, such as ICE 
Homeland Security Investigations' ``Operation Raging Bull,'' were found 
to have originally entered this country as UACs. We must come to terms 
with the effects of UACs on our orderly immigration processes. Without 
reform, border security will remain elusive.
    The significant increase over the last few months in the number of 
family units and UACs coming across the border illegally highlights the 
urgent need for Congress to immediately pass legislation that:
  <bullet> Ensures the expeditious return of UACs and family units who 
        are not granted protection;
  <bullet> Tightens the credible fear standard; and
  <bullet> Closes loopholes that encourage and enable illegal 
        immigration and create a corresponding backlog in the courts.
    The integrity of our entire immigration system is at risk because 
frivolous asylum applications impede our ability to help people who 
really need it. In order to address this, we need legislation that:
  <bullet> Imposes and enforces penalties for the filing of frivolous 
        asylum applications;
  <bullet> Closes any loopholes that allow serious criminals, gang 
        members, or terrorists to receive asylum in our country;
  <bullet> Guarantees the prompt removal of individuals whose claims 
        for protection are denied; and
  <bullet> Makes it easier to terminate asylum for anyone who takes 
        advantage of our generosity by claiming asylum but then returns 
        to their home country absent a material change in circumstances 
        or country conditions, especially when they are engaged in 
        activities that threaten the security of our country, the very 
        Nation that gave them refuge.
    Asylum is about protecting people who are at risk of persecution in 
their home country--that is, singled out for persecution on one of five 
specific statutory bases; it is not about providing a way around the 
regular immigration rules to pick and choose the country where you 
would most like to live.
    We are, and will continue to be, a Nation that provides protection 
to those truly in need. We honor our international legal obligations 
just as we expect other countries to honor theirs. To have border 
security, however, we must have an asylum system with integrity that 
puts the safety and security of the American people first.
    We must work toward a comprehensive border security solution that 
deters illegal immigrants from abusing our laws while ensuring that we 
live up to our National promise of providing safe harbor to those who 
need it. By fixing the asylum system, we can protect true asylum 
seekers while also strengthening our immigration system for generations 
to come.
                               conclusion
    This President has made it clear that we will protect our borders 
and our sovereignty. Secretary Nielsen has called on Congress to work 
with her to quickly pass legislation to close the legal loopholes that 
are being exploited by the smugglers, traffickers, criminals, and those 
who want to ignore or bypass established immigration processes. 
Deficiencies in the law prevent us from securing our borders and 
protecting Americans. Like Secretary Nielsen, I stand ready to work 
with any Member who seeks to support DHS's mission and secure our 
country. I believe that Congress has a very good start on that work, as 
evidenced in H.R. 4760.
    Border security is more than just the much-needed wall and ``boots 
on the ground.'' A system that allows individuals to make dubious 
claims of asylum primarily so that they can live and work in the United 
States undermines all of the time, effort, and resources that go into 
physical security. We at USCIS look forward to continuing to assist 
Congress, working closely with staff from both the Senate and the House 
to provide technical assistance to the language of any legislation that 
will address asylum loopholes and other vulnerabilities.
    Once again, I appreciate the opportunity to be here today. I am 
happy to answer any questions you may have. Thank you.

    Ms. McSally. Thank you, Director Cissna. I now recognize 
myself for 5 minutes for questions.
    OK. So I just want to summarize the big picture here. We 
have heard a lot of numbers. We have heard a lot of 
information, a lot of data. So we have seen a 1,750 percent 
increase, Director Cissna, between fiscal year 2008 and fiscal 
year 2016 you said in asylum claims, correct? 1,750 percent, 
that is a big number.
    Mr. Cissna. Yes.
    Ms. McSally. There is a lot of violence around the world. 
There is a lot of poverty around the world. There is a lot of 
tribulation and troubles from individuals around the world. But 
this increase has gone up 1,750 percent. So the cartels and the 
individuals have figured out, they simply have to say, I have a 
credible fear, or I want to seek asylum and the bar is so low 
it is a possibility of a possibility, 90 percent are released 
into the interior of the United States?
    Mr. Cissna. So the numbers are pretty bad. I mean, right 
now credible fear screening rate, people who get positive 
credible fear screenings last year was 76 percent.
    Ms. McSally. OK, 76 percent.
    Mr. Cissna. But the immigration courts might flip a few 
more digits beyond that, so say it is like around 80 percent.
    Ms. McSally. OK.
    Mr. Cissna. Of that number that get through, the ones that 
when their asylum claims are heard about right now between 22 
percent, 25 percent something like that are actually granted 
asylum.
    Ms. McSally. OK. So, again, paint the picture. Most of them 
say the right words, right? And then how many years later do 
they get a court date on average?
    Mr. Cissna. It could be several years.
    Ms. McSally. OK. What percent actually show up?
    Mr. Cissna. Well, the numbers that we have show that, well, 
something like 50 percent I think never even file an asylum 
claim.
    Ms. McSally. OK.
    Mr. Cissna. And in absentia orders, I don't have that 
readily available.
    Ms. McSally. More than half, right, Director Homan?
    Mr. Cissna. Yes. A high percentage don't show up.
    Ms. McSally. Yes.
    Mr. Homan. Yes, I looked at those numbers this morning, the 
family units of UACs----
    Ms. McSally. Yes.
    Mr. Homan [continuing]. Approximately 80 percent are in 
absentia orders issued by immigration court which means 80 
percent don't show up in court.
    Ms. McSally. So I am just trying to paint the picture here. 
Significant numbers are coming in. They are saying the right 
words because the bar is so low. They are then released into 
the interior of the United States for the court date years in 
the future. The vast majority don't show up for that court 
date. For those who do, only 20 percent, a little over 20 
percent are actually granted asylum?
    Mr. Cissna. Yes.
    Ms. McSally. So, I mean, our system is being used for 
people to be able to just drive a Mack truck through the 
loopholes.
    Mr. Cissna. I think the problem goes back, as I said in my 
oral statement, to the very beginning of this process. The 
whole idea of the credible fear system was to give some 
protection to people who had legitimate fear of persecution in 
their home countries when they were at the border so that they 
wouldn't be expeditiously removed with everybody else.
    But the reality is that the number of people coming to the 
border seeking this type of protection and making these types 
of claims is greatly overwhelming our ability to hold them 
throughout the process. If you can't hold them, you have to let 
them go. If you let them go, you end up with the problem.
    Ms. McSally. Right. Just for everybody's understanding, I 
mean, the asylum law is very specific that you personally are 
going to be persecuted because of your race, religion, 
nationality, membership in a particular social group or 
political opinion. You personally, when you go back to that 
country, not that your country is in poverty, not that your 
country has violence in general, just I just want you to 
elaborate on that.
    Mr. Cissna. That is correct. You have to demonstrate that 
you have fear of persecution, that there is a credible fear 
stage that there is a significant possibility that you will be 
persecuted on those grounds. As I said in my oral remarks, the 
courts have stretched those grounds a lot in the decades since 
and the basis for asylum into our country is very generous. The 
credible fear standard is even more so.
    Ms. McSally. So, Director Cissna, if you are fleeing from a 
country because of this persecution in one of these five 
categories and your life is in danger, as soon as you step foot 
into another country, say, Mexico, wouldn't that be a safe 
place for you to settle?
    Mr. Cissna. Well, what I and Secretary Nielsen and others 
have been saying for a while now is that people who are fleeing 
persecution in their countries should seek refuge in the first 
safe country they come to.
    Ms. McSally. Exactly.
    Mr. Cissna. That is the basic point, yes.
    Ms. McSally. Thank you. Exactly. That is the whole point. 
If you really are legitimately fleeing because you are 
personally being persecuted, then as soon as you are in a safe 
country, you should be processed there. Can you share like what 
Mexico is or is not doing related to this and increasing 
partnership on this topic?
    Mr. Cissna. Well, for the past several years, well, Mexico 
does have an asylum system. It does have a working asylum 
system and we at USCIS have, for several years now, sent people 
to Mexico to help them build their capacity to expand and 
improve their asylum processes and we continue to do that. We 
continue to have discussions with them about that. People do 
ask for asylum and receive asylum in Mexico. As I say, we at 
USCIS are helping them to the degree they want and need help 
from us to accomplish that better.
    Ms. McSally. OK. Great. I am out of time. I am going to 
come back in another round.
    The Chair now recognizes the Ranking Member Mr. Vela.
    Mr. Vela. Thank you, Chairwoman McSally.
    Commissioner Vitiello, family separation is very concerning 
to me. With this new Zero Tolerance Program announced by the 
attorney general, can you please explain the criteria CBP 
personnel are supposed to use to verify family relationships?
    Mr. Vitiello. Essentially, the agents and officers use 
whatever information is available to establish familial 
relationships. Sometimes these people have documents, sometimes 
they don't. When it is in question, when we don't believe that 
there is a familial relationship when a minor is involved, we 
will refer that minor to HHS as an unaccompanied minor.
    As it relates to day-to-day operations, there are typically 
their statements along with documentation and our officer and 
agents work to verify that. When we can't, then we let HHS sort 
the individual as an unaccompanied minor.
    Mr. Vela. Now, I don't know if you can answer this question 
because this actually would be a question best-suited for 
CBPOs, but is the process different for families who present 
themselves at the ports of entry versus those that are 
apprehended by Border Patrol between the ports of entry?
    Mr. Vitiello. Between the ports we are now referring 
anybody that crosses the border illegally. So Border Patrol is 
referring 100 percent of the people that cross the border 
illegally to the Justice Department for criminal prosecution, 
at the ports that is not an illegal act if they come under the 
same conditions. But the verification of family relationships 
is essentially the same in both instances.
    Mr. Vela. So with this new policy in place, at the point 
that you are in a situation where you decide to separate the 
families, where do the minors go?
    Mr. Vitiello. The decision is to prosecute 100 percent. If 
that happens to be a family member, then the HHS would then 
take care of the minor as an unaccompanied child.
    Mr. Vela. But can you tell us because over the past couple 
of weeks we have seen reports of families that have been 
separated but nobody can tell us where those children are 
going. Do you know where they are going?
    Mr. Vitiello. They are referred to Health and Human 
Services to be placed in a shelter.
    Mr. Vela. So you are telling me that I am better off asking 
HHS?
    Mr. Vitiello. Well, yes, they control the system as it 
relates to where the shelters are and which ones they send them 
to, et cetera. It is their work that will reunite families or 
place them with a guardian.
    Mr. Vela. This is probably a question for you, Director 
Cissna. Yesterday, the Department of Justice announced that it 
was asking the Department of Defense to send 21 prosecutors to 
assist in the prosecution of people detained pursuant to the 
new Zero Tolerance Policy. Within a few short weeks, Federal 
courts along the Southern Border are now experiencing 
tremendous backlogs because of this. Border Patrol agents and 
Customs officials do not appear to have the personnel and/or 
resources necessary to process the new detainees including 
minors. There also appears to be an issue with the lack of 
space necessary to house all of these defendants sentenced to 
serve time. What is the administration doing to address these 
concerns?
    Mr. Cissna. I think that is probably better for ICE on the 
detention issue.
    Mr. Homan. As far as the detention capacity, we are well 
aware of that. We are working with the U.S. marshals and DOJ on 
identifying available detention space. I got my staff working 
on that along with the Department and DOJ, so I think it will 
be addressed. We want to make sure we don't get back to catch-
and-release, so we are identifying available beds throughout 
the country that we can use.
    As far as the question on HHS, under the Security Act 2002, 
we are required, both the Border Patrol and ICE, to release 
unaccompanied children to HHS within 72 hours. So we simply 
once they identify within 72 hours a bed some place in the 
country, our job is to get that child to that bed and HHS, it 
is their responsibility to reunite that child some time with 
the parent and make sure that child gets released to a sponsor 
that has beeen vetted.
    Mr. Vela. Three years ago, most of us that are here lived 
through the issue with unaccompanied minors coming into this 
country and to me I just find it ironic that with the new Zero 
Tolerance Policy what we are essentially doing is creating a 
new class of unaccompanied minors. I will save the rest of my 
questions when we come back.
    Although we may not see eye-to-eye on a lot of these 
things, Director Homan, I would like to congratulate you on 
your retirement and thank you for your service as well.
    Mr. Homan. Thank you. As far as your question or your 
comment, if they show up at a port of entry to make their 
asylum claims, they won't be prosecuted and they won't be 
separated. The Department has no policy just to separate 
families for a deterrence issue. I mean, they are separating 
families for two reasons, No. 1, they can't prove the 
relationship. We have had many cases where children have been 
trafficked by people that weren't their parents and we are 
concerned about the child. The other issues are when they are 
prosecuted, then they are separated.
    Mr. Vela. So I just thank you for clarifying that, sir. Are 
you saying that with the new Zero Tolerance Policy that at the 
ports of entry that children are not being separated from 
parents seeking asylum?
    Mr. Homan. Not 100 percent. What I am saying is we separate 
children from parents on two situations. No. 1, they don't have 
evidence that they are actually a parent or legal guardian. As 
I said, we have had cases where children were trafficked by 
people claiming to be parent but weren't, so we have to protect 
those children. The second issue if a parent is prosecuted, 
then we have to separate them until the parent goes to U.S. 
marshals and we have to, the children go to HHS. So it is not a 
policy based on deterrence. It is a policy based on these two 
issues, prosecution and can't establish relationship.
    Mr. Cissna. I will just add, if they choose to use the port 
of entry, that is not against the law so prosecution won't be 
contemplated in those cases.
    Mr. Vela. OK. Well, I am out of time. I yield back.
    Ms. McSally. Thank you.
    The Chair recognizes the Chairman of the full committee, 
Mr. McCaul, from Texas.
    Mr. McCaul. Thank you, Madam Chair.
    Director Homan, let me thank you for your many years of 
stellar service to our Nation. We all congratulate you on your 
retirement and I look forward to working with you in the 
future.
    When you talked about sanctuary cities, it just reminded me 
when I was a young counterterrorism Federal prosecutor after 
9/11 working with the joint terrorism task forces. A lot of 
time we couldn't prove material support to a terrorist, so what 
we would do in many cases was we were able to get them on 
immigration violation and deport them from this country.
    What I worry about what is happening in California, and I 
wrote an article that California is building the wrong wall, is 
that they are building a wall between Federal law enforcement 
and local law enforcement. The idea that we would defy an ICE 
detainer because this is a criminal alien and yet the State has 
decided we are going to defy Federal law enforcement. To me, I 
think the supremacy clause applies and eventually we are going 
to win this is in the courts. But what can you tell me about 
the danger, not only to your agents that have to chase these 
people in the streets, but the danger from a counterterrorism 
standpoint?
    Mr. Homan. Well, there's two issues here and we always get 
wrapped around the immigration issue, right, that a local State 
agency has chosen to arrest somebody, take their freedom, and 
lock them in a jail cell. If we know they are here illegally 
based on some fingerprint submissions, we should have access 
that person so we can enforce our law. They have already chosen 
to arrest them, so apparently they think they are a flight risk 
or public safety threat because they are locking them in a jail 
cell. We should have access to that jail like every other 
Federal agency does. DEA, FBI, they all get access, ICE should 
be no different, so I agree 100 percent on that.
    The other issue that is not talked about so much is how the 
sanctuary cities affect criminal investigations, terrorism 
investigations. We have had law enforcement agencies that have 
left the JTTFs because we have HSI agents who work for ICE on 
their task force.
    As part of the California sanctuary law, we have lost our 
access to the CalGangs databases. It is a California State 
database that has all this information on gang members, 
including MS-13 and numerous gangs. We can no longer access 
that database because of these laws. So it affects greatly 
National security and public safety and the criminal 
investigative aspect of that. You have had cities out there 
that pass policies in their city to not allow to assist ICE in 
any way whatsoever.
    Mr. McCaul. I think that is a point we need to be making as 
well as the Kate Steinle incident; murder. But we should also 
be talking about the National security. I have got a map I want 
to point out. It has to do with special interest alien pathways 
into the United States. This was given to me I think from your 
agency, Director Homan.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Mr. McCaul. DHS was created as a counterterrorism 
department. This is what keeps me up at night, is when you look 
at special interest aliens coming from Pakistan, from Turkey, 
from Syria, from Iraq, from Moscow to Africa into the Western 
Hemisphere with flights on air, sea, and land, and then the 
pathway up into the United States, we know that thousands, it 
is in the thousands of these special interest aliens try to 
make it per year.
    This is why I think closing the legal loopholes is so 
important, because it does no good if they get in and you can't 
deport them. It does no good if you can't prevent them from 
coming in in the first place.
    There is also a program I want you to talk about because I 
would like this committee to authorize this program for you, 
sir, is the bitmap program which deals with biometrics and 
deals with how can we track these individuals that make this 
journey from very dangerous countries of origin into this 
hemisphere, and particularly into the United States.
    Mr. Homan. Well, I agree with you on this chart. That is 
the issue, right? If we learned anything from the 9/11 
Commission, law enforcement needs to be talking together, 
coordinating, sharing information. These sanctuary city laws 
prevent that from happening. So 100 percent agree with you. I 
am glad you brought it up. It is not just an immigration issue, 
it is a public safety National security issue.
    As far as these illicit pathways, that is the reason, as 
you know after 9/11 you are exactly right, immigration 
authorities got most of the people that are involved with 
terrorist activities arrested because the FBI are still working 
on the cases for that.
    As far as bitmap, we are working with our attache offices 
overseas in Central America and South America on identifying 
those routes to United States, many known terrorists that these 
other countries will enroll them in the bitmap, take some 
prints, feeds into our system along with the DOD and gives us a 
shot of who is coming, who is on their way.
    So Panama has been very successful. Panama has a great 
program down there. People that were known terrorists had been 
turned around in Panama, sent back before reaching our shores. 
I like to use then Secretary John Kelly said we would rather 
play the away game, than play the home game. So we want to 
expand bitmap. It is very important that we expand that to 
other parts of the country. It has already proven successful. 
It has already proven people that want to do harm to this 
country had been stopped on the way rather than at the border 
or inside United States. So a significant, significant 
investment needs to be made there.
    Mr. McCaul. Yes, and I couldn't agree more.
    Madam Chair, I look forward to working with you on 
authorizing this report and the program. I yield back.
    Ms. McSally. Thank you, Mr. Chairman.
    The full committee Chairman yields back. The Chair now 
recognizes Mr. Correa from California for 5 minutes.
    Mr. Correa. Thank you, Madam Chair.
    I want to thank our guests today for the good work they are 
doing for this country. Thank you very much. I wanted to focus 
also a bit on the big picture. We talked about 300 percent 
increase referring to what? The Chairperson referred 300 
percent increase in what kind of crossings?
    Mr. Cissna. In the family units and----
    Mr. Correa. Yes.
    Mr. Cissna [continuing]. Unaccompanied children.
    Mr. Correa. What were the actual numbers?
    Mr. Cissna. I can get that to you. I probably have it here, 
but about 240,000 apprehensions so far this year. About a third 
of those would be people not from Mexico who are unaccompanied 
children or part of a family unit.
    Mr. Correa. We talked about a 1,750 percent increase. Was 
that fiscal year 2008 to 2016? Did I get that correct?
    Mr. Cissna. There are two increases that are about 1,750 
percent. One was in the number of pending asylum cases over the 
past 5 years.
    Mr. Correa. Over the 5 years. Not 1 year, 5 years.
    Mr. Cissna. Five years, yes. Then the other one was the 
number of----
    Mr. Correa. What were the actual numbers on that?
    Mr. Cissna. So I have that. Let me see.
    Mr. Correa. If you get that----
    Mr. Cissna. Yes.
    Mr. Correa. While you are getting that for me, I got 
another question.
    Mr. Cissna. Yes.
    Mr. Correa. We talked about cartels, we talked about these 
folks coming over looking for asylum. Are there cartels sending 
them over with drugs? When they get to the border, do these 
folks looking for refugee status? Are they coming in with 
drugs? So they check in to say I want asylum, by the way, they 
have a backpack full of drugs. Is that what happens?
    Mr. Cissna. I am not sure we see that very often. I think 
that is more of a rare occurrence. But I can tell you that most 
if not all----
    Mr. Correa. Does that happen 100 percent of the time, a 
couple of times, 30 percent of the time?
    Mr. Cissna. I would just say that most everyone in this 
situation is being smuggled. The way that the----
    Mr. Correa. So you don't have actual numbers. You don't 
have actual numbers. I would like to get some of those from 
you. I am sorry I got just a couple of minutes left here. The 
other question is you talked about a caravan, 1,000, 1,500 that 
left for the United States. How many of those actually made it 
to the border, to the U.S. border? It sounds like you don't 
have that number either, but I hear it is about 300. What I 
love to do and I will ask, I will request, I will put in a 
question for you that I want to see what Mexico is doing 
because my understanding is there is a major effort at this 
Southern Border of Mexico to address this issue and that they 
are doing quite a bit in cooperating with the United States. It 
is just it is something that I don't have at my fingertips and 
appears that you don't either so I would love to get an answer 
to that.
    Finally, Mr. Homan, if I can, I won't put any words in your 
mouth, but you said illegal immigrants are dangerous?
    Mr. Homan. I don't believe I used those words, no.
    Mr. Correa. I am sorry?
    Mr. Homan. I did not say that. I don't think I did.
    Mr. Correa. OK. Again, because the issue I am having in the 
State of California is I got my farmers asking for more workers 
and they have actually called me from Republican areas saying, 
``Lou, we need more workers on our fields.'' And I told them 
call the administration. I can't do anything. But, as you know, 
ag is one of our top industry not only in California but in 
southern States and it appears that we need those farm hands so 
that is why I am saying we are not thinking of these folks as 
terrorists, are we, or dangerous.
    Mr. Homan. No. The statement I made is entering this 
country illegally is a crime. It is a violation of Federal law.
    Mr. Correa. But yet they are needed at these farms as farm 
workers, correct?
    Mr. Homan. Then I think it is up to the Congress to make 
some changes in the guest worker program whatever you think you 
need, but violating the laws of this country isn't the answer.
    Mr. Correa. But yet they are needed and the pool is 
economic. If I can, let me talk to you about another kind of 
political refugee asylum seeker which those are the folks that 
have a lot of money and they are transferring their money into 
the United States. What is it? Five hundred thousand dollars 
gets you what kind of a visa?
    Mr. Cissna. It is the EB-5 program.
    Mr. Correa. Those people are also fearing for their 
economic lives in some of these countries, correct?
    Mr. Cissna. Perhaps.
    Mr. Correa. Possibly from China and some of the others. So 
do we look at those as welcome or not welcome and what is the 
distinction?
    Mr. Cissna. Well, the EB-5 program is a program established 
by Congress.
    Mr. Correa. They are following the law just like these 
asylum seekers?
    Mr. Cissna. Correct.
    Mr. Correa. Under existing laws.
    Mr. Cissna. Yes, under existing laws there is an asylum 
program and there's a need----
    Mr. Correa. Are these asylum seekers just from Central 
America or they come from all over the world?
    Mr. Cissna. Asylum seekers come from anywhere.
    Mr. Correa. Any other specific areas, Syria, Iraq?
    Mr. Cissna. Syria, China, Venezuela.
    Mr. Correa. China? There is no war in China. What is the 
issue there?
    Mr. Cissna. Well, there could be political persecution. 
Used to be you could be a member of the Falun Gong. Previously, 
it was the one-child policy that drove a lot of refugees from 
China.
    Mr. Correa. Again, gentlemen, I thank you for the great job 
you have done. I will follow up with some questions later on 
with you.
    Madam Chair, I yield.
    Ms. McSally. Gentlemen yields back. The Chair now 
recognizes Mr. Bacon from Nebraska for 5 minutes.
    Mr. Bacon. Thank you, Madam Chair.
    Thank you, gentlemen, for being here today and sharing your 
expertise. I think you have made a compelling case that our 
policies and loopholes undermine our security, undermine our 
law and we need to get that fixed. We can have the best 
physical security in place, but if we are doing catch-and-
release or if we have an asylum policy that is being used as a 
loophole we undermine all those efforts. So I, for one, support 
more physical security, but I know we got to fix these laws so 
that they support each other and that they defend our border 
and give us the rule of law. We want legal immigration, not 
illegal immigration.
    Now, I want to piggyback on what the Chairman of our 
committee have brought up and it is a special interest and only 
pathways to the United States. I think this is an area that 
does not get the visibility that it should get. We know the 
folks are coming here through pathways through South and 
Central America but originating from the Middle East, some 
perhaps are looking for asylum but some are coming here for 
nefarious reasons, suspected semi-terrorists.
    We had Homeland Security Secretary here this past month. I 
asked her about it, so what at the unclassified level can you 
tell us about this and she made the statement at the 
unclassified level that we are tracking roughly 15 suspected 
terrorists a day somewhere in transit coming here. I think the 
American people need to know this. We are not doing a good 
enough job about that. So is there anything you can add at the 
unclassified level about suspected terrorists using these 
pathways and trying to abuse these policies to come to our 
country?
    Mr. Homan. Well, the Secretary is right. Like I said, the 
bitmap program has already identified those who want to harm 
this country on their travel here. This is the whole issue by 
the Southern Border and the President wanting the wall and 
having a true border security.
    Question from the gentleman from California was criminal 
cartels move product. They don't care if it is just illegal 
alien looking for farm work, whether it is drugs, whether it is 
weapons or whether it is a terrorist. They are in the business 
of moving product into United States illegally and that is how 
they make their money.
    So when you talk about sanctuary cities that dangle the 
carrot out that you will get to the city and you can even 
commit a crime you would be protected--very criminal 
organizations that have murdered Border Patrol agents, murdered 
my agents, smuggled guns, smuggled weapons, smuggled 
terrorists. This is same illicit pathways. That is why when we 
talk about border security and border wall and closing these 
loopholes that is why it is so important. As I said earlier, 
this is not an immigration issue. It is National security issue 
because the people that want to harm this country use the same 
pathways, right? They are being bankrolled by the lack of 
strong policy.
    Mr. Bacon. The Homeland Security Secretary, so let me just 
ask point blank. Have we caught suspected terrorists trying to 
enter our country through these pathways?
    Mr. Homan. Well, the detail she gives you is a recognition 
that when someone applies for entry or is encountered by one of 
our officers, they are hitting on the database that the 
Government keeps of known and suspected terrorists so that is 
happening regularly.
    Mr. Bacon. So the answer is yes? We have caught known or 
suspected or interdicted known or suspected terrorists coming 
here. I think we do too often put this as an immigration issue 
which clouds the more fundamental issue of border security and 
terrorism.
    I think and I guess I will close with just this thought. 
Why aren't we doing a better job as homeland security or in 
your areas of communicating this because I feel like it seems 
to be lost. I think if the American people knew of the 
magnitude of terrorists from the Middle East trying to come 
through our Southern Border using these alien pathways to the 
United States in this handout, it would change the discussion. 
It would raise the support levels for what we are trying to do 
to improve our physical security and policies. I think the 
debate becomes easy where we can show that there is actual 
physical terrorist threat trying to come here. I just don't 
know that we are making that case. Can we do better or what is 
your--am I off-base on this?
    Mr. Homan. I can tell you, we are trying. But you know 
what, there is a vast amount in the media that don't want to 
report it.
    Mr. Bacon. Right.
    Mr. Homan. They want to make this a case against 
administration. They want to make this about immigrant families 
trying to better--I can't blame anybody for wanting to be part 
of the greatest country on earth, which is the right way to do 
it, but we are telling a story, promise that that story doesn't 
get past. The wall has been put up by NGO's and these groups 
that don't want American people to hear the truth. That is why 
I am out a lot trying to talk. I know Ron is out talking a lot. 
We are trying to get that story out that this is more than just 
immigration. We are talking about our country's sovereignty. We 
are talking about National security of this country.
    Mr. Bacon. I think some folks perceive this as a 
hypothetical issue versus a real issue. I think the more real 
we make it with tangible names, tangible pictures of faces of 
folks who come here who had terrorist designs on our country, I 
think this debate gets easier.
    Thank you. I yield back.
    Ms. McSally. Gentleman yields back. The Chair now 
recognizes Ms. Barragan from California for 5 minutes.
    Ms. Barragan. Thank you, Madam Chairman. I am going to go 
ahead and my colleague just said he wanted to make this more 
real. I want to introduce into the record a statement by Olivia 
Caseres, a mother who participated in the caravan during the 
fall of 2017 into the record. She is from--may it go into the 
record?
    Ms. McSally. Without objection.
    [The information follows:]
            English Translation of Letter by Olivia Caseres
    I am Olivia, I am 29 years old, I am Salvadoran. I am a young 
entrepreneur who was on my way to starting my own small business 
together with my life partner Jose, of 30 years of age, a graduate with 
a degree in Journalism and Communication. Due to lack of opportunities 
we were forced to try to succeed on our own. But our life changed due 
to the insecurity that reigns in our country and we were forced to 
leave everything behind. We joined the caravan in October of 2017. We 
found in it protection and support since Mexico is also very insecure, 
full of dangers for migrants, and coming supported with other migrants 
like us gave us to a certain extent a bit of safety. The path isn't 
easy, especially not for parents like us who were coming with our 
children. It is very dangerous but we know and we are aware that we do 
it to save their lives. All we are looking for is a safe place for them 
to grow and be good people.
    In my experience, turning ourselves into immigration, presenting 
ourselves at the port of entry to request asylum, is very hard. The 
officers tend to intimidate you and I think that our only crime is to 
present ourselves and ask for protection. PROTECTION that in our 
countries isn't there, SECURITY that doesn't exist. And in the 
detention center the treatment is as if we were criminals. The food is 
horrible, we are arranged on the floor, one nearly on top of the other.
    Now I am here at my aunt & uncle's. They give me room and board and 
basic necessities that my children have. With the separation of 
children, in my experience, being separated for 85 days from my 15-
month-old baby, who was torn from the arms of his father on November 
16, 2017. It has not been the least bit easy to get over that and less 
so to face the consequences that the separation from his father has 
caused 4-year-old Andree. Facing a child who is angry and misbehaved, 
who I constantly ask why he behaves and acts this way, and his answer 
is BECAUSE I MISS DAD. He says he will go back to being the boy he was 
before when his dad is back with us. 16-month-old Mateo because a 
completely different child. He is afraid of people and only wants to be 
with mommy. At night his crying is full of fear. This makes it clear 
that separation affects children psychologically, regardless of their 
age the changes are drastic and many times irreversible. And indefinite 
detention in the [detention] centers I feel is even more cruel because 
our only crime is looking for security and to save our lives and give 
our children a safe life. Stop this inhumane and cruel treatment we are 
being subjected to for the simple act of saving our lives.
            Olivia Caceres /signed/.
    I, Alexander Mensing, do swear and confirm that I am fluent in the 
Spanish and English languages and that the foregoing is a true and 
accurate English translation of the Spanish-language original to the 
best of my knowledge.
            Alexander Mensing, May 20, 2018.

    Ms. Barragan. So Olivia is from El Salvador, one of the 
deadliest countries that is not in a war zone and she talks 
about how difficult it is to turn yourself in. She talks about 
what it is like to be intimidated by agents and being separated 
from her child. For 85 days, her 15-month-old baby had been 
separated and that her child was never the same and has come 
back. Those are real stories. That is what is happening. Now, 
we love to talk about this issue about the MS-13 gangs.
    We love to paint immigrants as criminals. That is not the 
complete facts. That is very offensive for me to see continuing 
to happen. It is continuing to message this. This anti-
immigrant agenda. There are many, lots of good immigrants.
    Then I hear this rhetoric, more DACA-like people. Guess 
what? DACA-like people are the people we need in this country. 
They have served this country. They have gone to college. They 
produce and they contribute to the economy.
    So to put them into the same category is completely 
offensive. Now, I happen to know about some of these people who 
come over and seek asylum. Why? Because I represented a family, 
an unaccompanied minor when I was an attorney on a pro bono 
level and I had to go find his mom who was also in detention.
    Now, it is extremely hard to get asylum. It is very hard to 
get asylum. The standard is very hard and it is very high. Now, 
I had unlimited resources at a big law firm. I could hire 
experts. Even then I couldn't get asylum. Was it a fraud? No. 
Did she and they get protections? Yes, under a different 
category. It took years. But there are people who come to this 
country because they are fleeing the violence.
    In my particular case, they already killed one of her sons. 
Guess what? When one of your children is killed and you have 
one left, you are going to run. You are going to try to seek 
safe haven.
    So it makes me sick to my stomach to keep hearing over and 
over again, painting the broad stroke and the picture as though 
these are folks who are coming here to do harm. So, it is just 
unbelievable to me how this rhetoric continues and to see it 
continue in a campaign season just gets even worse and worse. 
Just because you don't get asylum doesn't mean that it is a 
fraud. I think that is just so important for me to state.
    Now, I want to move on to the issue of family separation. 
According to the New York Times more than 700 children had to 
be taken from adults claiming to be their parents since 
October, including more than 100 children under the age of 4.
    Secretary Nielsen disputed this figure at a May 15 Senate 
Homeland hearing. She said that the 700 children figure was an 
HHS number and not a DHS figure. Does anybody on this panel 
know what the DHS figure is?
    Mr. Vitiello. We can for the record get back to you with 
the actual number of people who were in CBP custody. It was 
either unable to determine whether there was a familial 
relationship that we could prove and were comfortable with or 
somebody was prosecuted having crossed the border illegally and 
then that caused the family separation. We can get back to you 
and give you the exact number of that.
    Ms. Barragan. OK. Let me tell you, it is hard for some of 
these families, when they are fleeing violence, and they are 
leaving their country, they are not exactly saying, ``Let me go 
and look for documentation so that I can prove this is my 
child.''
    I had a hard time in my own case having to find people 
there on the ground to get the documents that we needed to make 
a case, right? People are leaving because they are in distress, 
because they are facing violence and they are fearful, right?
    It is not generally something that they are thinking about 
before they take off. How do I prove this is my child? I will 
tell you right now if I had to go find something to prove my 
relationship with my mother, it would probably take me a little 
while.
    So, I understand how difficult this is. Can you tell me how 
we are counting and tracking children that are separated from 
children?
    Mr. Vitiello. So everybody that is taken into custody goes 
through like sort-of a booking procedure, right? We get the 
biographical information. So all of that is in the 
documentation systems at CBP.
    So that is how we try to establish whether they are related 
or not using those documents. But that all becomes part of 
their record. Because as they come that part of that processing 
is referring them for a removal hearing.
    Ms. Barragan. Right. Thank you. I yield back.
    Mr. Homan. Can I respond to the speech that was made?
    Ms. McSally. Absolutely.
    Mr. Homan. First of all, no one on this panel is anti-
immigrant. We are law enforcement officers who are enforcing 
law that you all enacted. So to sit there and say that we are 
anti-immigrants is wrong.
    We are enforcing laws. If you think it is OK to enter this 
country illegally and shouldn't be arrested that is just wrong. 
The laws clearly say when you enter the country illegally, it 
is a crime.
    No one is up here saying all illegal aliens are criminals, 
a certain percentage of them are criminals. They commit yet 
another offense after they are here. I have said many times I 
certainly understand the plight of these people. I feel bad for 
some of these people. But I have a job to do. I have to enforce 
law and uphold the oath that I took to enact the laws enacted 
by you, Congress.
    Ms. McSally. Thank you, Director Homan.
    The gentlelady's time has expired. The Chair now 
recognizes, Mr. Rogers from Alabama for 5 minutes.
    Mr. Rogers. Thank you, Madam Chair, and thank you, all, for 
being here and thank you for your service to our country. I 
understand that and you all may have talked about this in your 
opening statements. I was a little late, I apologize for that, 
that in March a nearly 1,500-person caravans, mostly Hondurans, 
started on a mission to make a 2,000-mile trek to our border 
that was organized by some sort of radical advocacy group.
    Was that accurate? The characterization of that caravan? 
They came through Mexico to get to our Southwest Border and 
under the pretense that they were in danger. Was there evidence 
that they were in danger once they were in Mexico that you all 
are aware of? Do you know how many of that group made it to the 
port of San Isidro?
    Mr. Vitiello. Yes, my staff gave me the number. Congressman 
Correa had the same question. Our records indicate that we 
arrested crossing illegally between the ports of entry 122 
people who claimed to be part of the caravan and then 333 of 
them presented themselves at the port of entry and claimed 
asylum.
    Mr. Rogers. Do you know if any of those individuals in that 
caravan petitioned Mexico for asylum?
    Mr. Vitiello. In discussions with Mexico, they did resettle 
some of the original group.
    Mr. Rogers. Do you know if any of that roughly 500 that you 
just described tried to stop and stay in Mexico?
    Mr. Vitiello. I don't know.
    Mr. Rogers. Director Cissna, do you know how many of these 
immigrants have received an initial determination of credible 
fear in the United States?
    Mr. Cissna. Yes. USCIS received, referred to us from ICE so 
far, a total of 327 cases of people that we think were part of 
this so-called caravan, at least they self-identified or we had 
evidence that they were.
    Of those 327, we have completed 216 of these credible fear 
screenings. Of that, 205 got positive screenings.
    Mr. Rogers. Amazing. Do you have any estimate, Mr. 
Vitiello, of how many immigrants in that caravan may have 
slipped through and are now in the country that we just don't 
have a handle on?
    Mr. Vitiello. I don't know that number.
    Mr. Rogers. OK. I know--I am sorry? Back in 2010, President 
Obama ordered the National Guard down to the border in a 
support capacity, wasn't whole lot said about it but recently 
when President Trump did the same thing, there was a big fuss 
made about it.
    What exactly is the role of the National Guard when they 
are working at the border in concert with CBP?
    Mr. Vitiello. Much like the previous deployments that we 
got great assistance from the National Guard, we are 
specifically asking for a number of things. The aviation 
support is some of the biggest percentage of what they will 
give us will be in that.
    There are also a number of roles in sector headquarters and 
at stations helping us watch the screens that the camera feeds 
come into the comp centers, helping us dispatch. We are looking 
at other roles for them to play.
    But it is essentially that kind of support that allows us 
to then redeploy the agents that may have to do that work. So 
it gives us a bit more capacity in the locations where they are 
doing that work instead of Border Patrol agents.
    Mr. Rogers. Mr. Vitiello, do you believe a physical border 
wall is effective in stemming the flow of illegal immigrants 
into our country?
    Mr. Vitiello. It has been very effective and we expect it 
to continue to be.
    Mr. Rogers. Do you believe that in addition to a physical 
wall, security systems that support that wall are effective in 
deterring illegal immigration into our country?
    Mr. Vitiello. When the President directed us to make those 
plans, all of the estimates and all of the action planning that 
we have done is in fact that, it is a system that brings a 
number of capabilities, impedance and denial by the wall 
itself, access and mobility so roadways and avenues toward the 
border get there conveniently.
    A number of agents are part of the request that we put 
forward. You have to have all three of those things--personnel, 
technology, and infrastructure to make it successful.
    Mr. Rogers. At present, does CBP have the resources 
physically and financially to secure our Southwest Border?
    Mr. Vitiello. Across the board, no. But we are using all of 
the money that the 2018 appropriation gave us to improve 
conditions as it relates to those three--personnel, technology, 
and infrastructure.
    Mr. Rogers. It seems to me that this caravan that got so 
much publicity was a manufactured event to try to exploit our 
Southwest Border. Would that be a fair characterization given 
that those people for weeks were traveling and once they were 
out of Honduras seemed to be out of harm's way?
    Mr. Vitiello. It does highlight the discussion about 
loopholes. These folks, a number of them knew that when they 
made that claim for asylum that they were going to be released 
into the country.
    Mr. Rogers. Yes. So unfortunate.
    Thank you, Madam Chair. I yield back.
    Ms. McSally. The gentleman yields back. The Chair now 
recognizes, Mrs. Demings from Florida for 5 minutes.
    Mrs. Demings. Thank you so much, Madam Chairwoman, and 
thank you to our witnesses for being here. It is good to see 
you again.
    Commissioner, I would like to address how unaccompanied 
minors, how they have reasonable--how reasonable fear 
interviews are conducted. As a former social worker, a former 
law enforcement officer, and a former crimes against children 
detective, I have seen children who experience confusion, fear, 
sometimes they are even silent after experiencing trauma.
    I am sure that we all here understand these challenges and 
want to make sure that CBP agents have training and the 
resources necessary to screen unaccompanied minors with the 
care and consideration that every child certainly deserves.
    What is the status of CBP's efforts to address and 
implement GAO's 2015 recommendations for Border Patrol agents 
and OFO officers to screen unaccompanied minors?
    Mr. Vitiello. We have made a number of improvements since 
2014 and have responded to GAO's requests and agreed with a lot 
of their findings. There is a number of training curricula out 
there for agents to use in the interview setting when they are 
with family units and unaccompanied minors.
    So there is an on-line course that agents have to take that 
is mandatory. There is some specific training and then the 
skills that agents use. So, we try to make sure that the people 
who are doing that interview and those processes are trained 
and have the heart to do it.
    Most of our work force, all of our work force speaks 
Spanish, more than half of them are native speakers if you 
will, they are Latino or Hispanic people. Then a lot of them 
are families. So, we understand from that human perspective the 
situation that these children are in and do everything we can 
to make them feel comfortable.
    We have made a number of improvements in the enforcement 
systems to record when people are fed, when their interviews 
are taking place, whether they got a chance to. How long they 
have been in our custody.
    So, we have improved the systems and the accountability 
within the systems and then invested into some facilities that 
are specifically designed for this population.
    Mrs. Demings. Since 2014, how would you critique the 
success of the training that you do have in place? How do you 
feel it is working? What adjustments, if any, have you made 
since then?
    Mr. Vitiello. We have gotten better. The system adjustments 
and the things that we have done to make sure that those 
facilities, I mean, they are Border Patrol stations. It is 
where people are getting arrested and interviewed before they 
move on through the system.
    So, we try to understand that this population is a bit 
different than the larger population. I think we have done a 
good job in making those adjustments.
    Mrs. Demings. OK. Thank you.
    Director Homan, under what circumstances does ICE detain or 
otherwise assume custody of individuals apprehended at or near 
the Southwest Border? If you talked about that earlier I am 
sorry, I was late, so you could just----
    Mr. Homan. ICE has appropriated for the detention of those 
in the country illegally. So everybody that Border Patrol 
apprehends, if they do not immediately remove them then we will 
get custody of them and we will detain them until they have the 
hearing.
    Mrs. Demings. OK. And----
    Mr. Homan. That is on a case-by-case basis. We don't detain 
everybody. It is quite a risk and danger to the community if 
Border Patrol process and per expedited removal processing, 
they are mandatory detained, so we will detain them.
    Mrs. Demings. OK. Under what circumstances does ICE refer 
individuals who are apprehended at or near the border to DOJ 
for prosecution?
    Mr. Cissna. We do that.
    Mr. Homan. Our Border Patrol does that as part of the zero 
tolerance. We will present people for prosecutions if we 
criminally arrest them. When they are charged with a crime we 
will present them, but as far as zero tolerance, the Border 
Patrol is doing that work.
    Mrs. Demings. OK. Did you want to add to that?
    Mr. Vitiello. So based on the attempt to end catch-and-
release, Justice Department put out word through their system, 
and then the Secretary followed that up with direction to CBP 
to refer all border crossers in between the ports of entry. 
Anybody that enters the country illegally will be referred for 
prosecution.
    Mrs. Demings. OK. Thank you.
    Chairwoman, I yield back.
    Ms. McSally. The gentlelady yields back.
    Now we are going to start the second round here.
    Director Cissna, I want to go over the numbers again of the 
people in the caravan. You said 370, sorry, 327 were referred 
for asylum processing, I think you said, 216 were screened and 
205 received a positive screening?
    Mr. Cissna. That is correct. So far there----
    Ms. McSally. So far?
    Mr. Cissna. Yes. So there may be more cases coming.
    Ms. McSally. OK.
    Mr. Cissna. But that is what we have so far.
    Ms. McSally. So of the 216 screened, 94.9 percent because 
of this very low bar of proving a possibility of a possibility 
have made it through. Where are they right now? Have they been 
released into the interior of the United States?
    Mr. Cissna. I can't account for all of them. I would have 
to ask my colleague at ICE, but what I can say is that the 
issue here is once they are screened, once they have the 
credible fear screening and it is positive--of course it is 
negative and there were a handful that were negative, they will 
get removed if the IJ upholds the decision.
    But if it is positive the idea is that they would be sent 
to an immigration judge who would then determine with finality 
whether they are going to get asylum or not. If these are 
family units, as you may know, because of the Flores settlement 
agreement, we may have to release them within 20 days. There 
may not be enough time to get to the immigration judge before 
we have to let them go.
    Ms. McSally. So that brings this to the next point, in your 
testimony you talked about--which I totally support last-in-
first-out, because if you put them to the end of the line 2 
years from now, you are just creating a whole other problem 
which is inhumane in of itself as people are then settling 
down.
    So if you are doing the last-in-first-out, what is the time 
frame right now?
    Mr. Cissna. Well the last-in-first-out refers to regular 
asylum applications. This is the 318,000 cases that we have 
here.
    Ms. McSally. OK.
    Mr. Cissna. But it is connected to the credible fear thing. 
Because of the surge in credible fear work, we have had to 
divert people from regular asylum work to do all this stuff at 
the border.
    One of the results of that is that the backlog for regular 
asylum went up and up and up and up. So the only way that we 
can--one of the best ways we can think to address that enormous 
multi-hundred-thousand-person backlog is to do last-in-first-
out by concentrating on the most recent cases, weeding out 
quickly and deporting the people who don't merit the benefit 
and then moving on to the other cases.
    Ms. McSally. All right. Well, please keep us posted on how 
these cases progress. I just want to make it clear again, you 
are doing everything you can with the administration in order 
to close these loopholes, but there are legal things that we 
have to do Congressionally in order to help you.
    But just to be clear, 100 percent prosecution between the 
ports of entry, you are going to be prosecuted is the new 
policy. However, if you present yourself at a port of entry and 
say I have a credible fear, you will have no prosecution and 
these loopholes will apply.
    So why isn't everybody doing that? This is not a commercial 
message to them to start doing that. It seems like the cartels 
are smart and the people are smart. They figure out how to take 
advantage of our loopholes.
    So why don't they just all line up at the ports of entry? I 
am very concerned with the backlog then with the legitimate 
traffic. We have talked about the manning there being bogged 
down.
    What the heck is preventing us from, I know they are on 
U.S. soil then from sort-of backing up and just working with 
Mexico and saying ``Turn around, you are in Mexico. If you have 
a credible fear, work with them.''?
    Mr. Vitiello. We are in discussions for that exactly. 
Mexico has done some as it relates to the caravan. They do 
quite a bit for us on the Southern Border, but obviously there 
is a lot more to do. There is a lot more work to do on both 
sides. So, yes, we would prefer that people don't make the 
journey at all, but Safe Third is a way for this to get solved. 
We think that the, 100 percent----
    Ms. McSally. To clarify you mean Safe Third Country where 
they get--they do their claims in Mexico.
    Mr. Vitiello. Correct.
    Ms. McSally. Yes.
    Mr. Vitiello. Correct. The 100 percent prosecution that may 
drive more traffic to the port of entry, but it is a safer 
condition. They don't have to go into the hands of a smuggler 
to be in that situation. We think that is better for everyone.
    Ms. McSally. Is there anything we can do though to put some 
staff sort-of right at the actual international boundary and to 
work with Mexico right there, so that we are not like having to 
process all of them without us passing an act of Congress?
    Mr. Vitiello. So what we are trying to do now is regulate 
how many people come to the port and where they come. So, we 
are in discussions with them. That is by national agreement. We 
have several agreements with Mexico on how to repatriate people 
when people will refuse at the port and those kinds of things. 
So we are having those discussions with them now. Again, bottom 
line is we really don't want people to make this journey.
    Ms. McSally. Exactly.
    Director Cissna, two more questions. For those who are 
claiming a false asylum claim, you talk in your written 
testimony about how there is no teeth to that. So can you talk 
a little bit about that?
    Also in your written testimony you talk about you are 
concerned about people filing now, realizing this loophole and 
they have been in the interior of the United States now for 
maybe up to 10 years, but they are realizing if they say they 
have a credible fear it gives them a work permit, and this is 
now a workaround for them to go from being illegal to being 
legal using this loophole?
    Mr. Cissna. Yes, there are many such loopholes. The one you 
just referred to is, this is for regular asylum cases. It is 
well-known that if you file for asylum and 6 months go by and 
we haven't heard your case, you get a work permit.
    So, a lot of people we believe do this on purpose because 
they know that the backlog is so huge that we will never get to 
their case.
    Ms. McSally. Right.
    Mr. Cissna. They get a work permit and they can wander 
around, working freely in the economy for as long as it takes 
to get their case. Now, many of those people have legitimate 
claims and many don't. The people who don't clog up the system 
for the people who do, making the granting of their correct 
benefit delayed.
    Ms. McSally. So for those who don't have a legitimate 
claim, they have been in the country illegally for a long time. 
They have now have identified a loophole. They can just apply, 
say they have a credible fear, apply, and within 6 months they 
now have a legal work permit.
    Mr. Cissna. Yes, and some people in fact, apply for asylum 
on purpose knowing they don't have a good case because not 
because so much they want the EAD, the Employment Authorization 
Document.
    They intentionally want to get thrown into immigration 
court. They want that because there are certain avenues of 
relief they can get in immigration court that they think that 
they can get, one is called cancelation of removal.
    So, they file these bogus claims on purpose, intentionally 
to get into court. That also clogs up our system. So, we are 
wrestling with that as well. Trying to get through those cases 
as quickly as we can.
    Ms. McSally. OK. Unless you want over, so I am going to go 
over a little bit more. But just on the no teeth to the false 
asylum claims, can you just speak to that?
    Mr. Cissna. Well, if you file a false claim, usually the 
penalties, you receive a notice to appear in the immigration 
court you will get deported. What we would like at DHS that we 
proposed is that there will be more teeth. There will be more 
penalties put on to put on to fraudulent claims.
    We also want the definition of what constitutes a 
fraudulent or frivolous claim. Doesn't necessarily have to be 
fraudulent, frivolous claim as well. If that were better 
defined, we could weed out with greater efficacy these bad 
cases that clog up the system for legitimate asylum seekers.
    Ms. McSally. Thanks. I just want to mention that tightening 
that up is in our bill, the Securing America's Future Act.
    Mr. Cissna. That is right.
    Ms. McSally. Thank you.
    Mr. Homan. If I can add to that, ma'am. One thing ICE is in 
the process of doing, we are going to step up our enforcement 
against family units that have final orders for removal. They 
have had their due process and have been ordered to remove by 
the immigration judge.
    Of course I expect a lot of letters saying, why are we 
targeting families and not criminals? But if they are given 
their due process and the Federal judge makes the decision, if 
we don't execute those decisions, there is no integrity in the 
system. So you are going to see a lot more enforcement here in 
the very near future on that.
    Ms. McSally. Thanks.
    The Chair now recognizes Mr. Vela for 5 minutes.
    Mr. Vela. Thank you, Madam Chairwoman.
    I ask for unanimous consent to enter statements from the 
Church World Service, Amnesty International, the National 
Immigration Forum, the American Immigration Council, and the 
National Domestic Workers Alliance into the record.
    Ms. McSally. Without objection.
    [The information follows:]
                Statement of Church World Service (CWS)
                              May 22, 2018
    As a 72-year old humanitarian organization representing 37 
Protestant, Anglican, and Orthodox communions and 22 refugee 
resettlement offices across the country, Church World Service (CWS) 
urges the committee to affirm the right of all people to seek asylum 
and protections at the U.S. border. Children, families, women, and men 
are fleeing violence, gang conscription, human trafficking, and sexual 
exploitation in the Northern Triangle. Since 2005, in Honduras alone, 
murders of women and girls have increased by 346 percent, and murders 
of men and boys have grown by 292 percent.\1\ The U.S. Government has 
failed to recognize these trends as a refugee and humanitarian issue. 
Ahead of the committee's hearing regarding the Pueblo Sin Fronteras 
caravan of 1,100 people fleeing violence in Central America, CWS urges 
Congress and the administration to recognize and uphold our moral and 
legal \2\ obligations to welcome people seeking protection from 
persecution and violence.
---------------------------------------------------------------------------
    \1\ Observatory of Citizen Security, La Violencia Contra Las 
Mujeres. 2012. http://
www.observatoriodeseguridadciudadanadelasmujeres.org/materiales/
INFORME_VCM_C.A.- .pdf; Washington Office of Latin America, Three Myths 
about Central American Migration to the United States. 2014. http://
www.wola.org/commentary/3_myths_about_central_ameri- 
can_migration_to_the_us.
    \2\ Article 14, The Universal Declaration of Human Rights. 
www.un.org/en/documents/udhr/index.shtml; U.S. Code Title 8: Aliens and 
Nationality, Chapter 12: Immigration and Nationality, Section 1158: 
Asylum. http://uscode.house.gov.
---------------------------------------------------------------------------
    The United States already has robust border security measures in 
place, spending more than $18 billion on immigration enforcement per 
year, more than all other Federal law enforcement agencies combined.\3\ 
This includes drones, mobile surveillance systems, video surveillance 
towers, 11,000 underground sensors, 700 miles of fencing, Blackhawk 
helicopters, and 18,127 Border Patrol agents at the Southern Border 
alone. The United States also has a rigid system for applying for 
asylum. International \4\ and domestic \5\ immigration laws have 
established numerous procedures to ensure the integrity of the U.S. 
asylum system, as well as important safeguards to prevent individuals 
from being returned into harm's way. Arriving asylum seekers are 
subject to mandatory biographic and biometric checks reviewed against 
various Federal databases by well-trained fraud detection officers.
---------------------------------------------------------------------------
    \3\ Immigration Enforcement in the United States: The Rise of a 
Formidable Machinery. The Migration Policy Institute. http://
www.migrationpolicy.org/pubs/enforcementpillars.pdf.
    \4\ The Convention on the Rights of the Child, Articles 2, 3, 6 and 
22. www.ohchr.org/en/professionalinterest/pages/crc.aspx; The Universal 
Declaration of Human Rights, Article 14. www.un.org/en/documents/udhr/
index.shtml; United Nations General Assembly, Declaration on 
Territorial Asylum, 14 December 1967, A/RES/2312(XXII). 
www.refworld.org/docid/3b00f05a2c.html; United Nations High 
Commissioner for Refugees, A Framework for the Protection of Children 
www.unhcr.org/50f6cf0b9.html; United Nations High Commissioner for 
Refugees, Convention and Protocol Relating to the Status of Refugees. 
www.unhcr.org/3b66c2aa10.html.
    \5\ Immigration and Nationality Act  208, 8 U.S.C.  1157.
---------------------------------------------------------------------------
    Upon arriving at the U.S. border, asylum seekers are placed in 
immigration detention pending a determination by an asylum officer 
regarding whether they have a credible fear of persecution as a result 
of their race, religion, nationality, political opinion, or membership 
in a particular social group. Those determined to lack a credible fear 
of persecution are subject to removal without further review. 
Individuals found to have a credible fear of persecution may be subject 
to detention while they await further consideration of their asylum 
claim by an immigration judge, or they may be released on a case-by-
case basis by an Immigration and Customs Enforcement (ICE) 
determination that they do not pose a security or flight risk. Current 
law strictly prohibits granting asylum to any person who has engaged in 
terrorist activity or otherwise poses a threat to the security of the 
United States.
    Due to the high standards and burden of proof, as well as the rigid 
process of the U.S. asylum system, the Department of Homeland Security 
(DHS) denies protection to many asylum seekers who are fleeing 
persecution. The DHS Office of Inspector General released a report in 
May 2015 that found that in some areas, Border Patrol refers 
individuals for criminal prosecution despite the fact that they have 
expressed fear of persecution.\6\ Border Patrol officials themselves 
indicated that the process for referral to prosecution did not take 
into account expressions of fear of persecution; individuals go through 
the U.S. court system and only after serving their prison sentences can 
they re-express a fear of persecution and then meet with an asylum 
officer to have their case heard. These practices violate existing U.S. 
law and treaty obligations and prevents legitimate and viable claims 
from moving forward.
---------------------------------------------------------------------------
    \6\ DHS Office of Inspector General, Streamline: Measuring Its 
Effect on Illegal Border Crossing, OIG-15-95, 15 May 2015. https://
www.oig.dhs.gov/assets/Mgmt/2015/OIG_15-95_May15.pdf.
---------------------------------------------------------------------------
    In addition to preventing vulnerable populations from being 
considered for protection in the United States, DHS has also failed to 
address its existing asylum backlog, with about 223,433 cases still 
awaiting adjudication at the end of 2016. There are approximately 
72,000 asylum-seekers in detention, including families and children, in 
jail-like conditions with pending cases. A recent report by Human 
Rights First documents cases of asylum-seekers being turned away at 
ports of entry and details complaints that CBP officers are coercing 
individuals, including asylum seekers, to withdraw their applications 
for admission. Life-saving programs such as the Central American Minors 
(CAM) program have been terminated, and there are approximately 6,000 
children who have had their applications deleted, not even receiving an 
interview.
    CWS encourages Congress to prioritize the protection of vulnerable 
individuals. Real solutions must address root causes, rather than 
escalating enforcement and preventing individuals from seeking safety. 
CWS is committed to working with Congress and the administration to 
develop sustainable solutions to enhance the stability of the region 
and the protection of vulnerable populations.
                                 ______
                                 
                   Letter from Amnesty International
                                      May 21, 2018.
Rep. Martha McSally,
Chair, Homeland Security Committee, Border Security Subcommittee, 
        Washington, DC.
Rep. Filemon Vela,
Ranking Member, Homeland Security Committee, Border Security 
        Subcommittee, Washington, DC.
Re: May 22 hearing on ``Stopping the Daily Border Carvan: Time to Build 
a Policy Wall''

    Dear Chairwoman McSally, Ranking Member Vela, and Members of the 
Subcommittee: On behalf of Amnesty International (``AI'')\1\ and our 
more than two million members and supporters in the United States 
(U.S.), we hereby submit this statement for the record. AI is an 
international human rights organization with major offices around the 
world, including in the U.S. and Mexico. One of AI's top global 
priorities is refugee protection. Within the Americas, AI's top refugee 
focus is on the Northern Triangle region of Central America (Honduras, 
El Salvador, Guatemala), where we have researched the underlying causes 
that have led to large numbers of people fleeing the Northern Triangle 
region in search of protection. AI has also researched the experiences 
of refugees in Mexico and the experiences of people requesting 
protection at the U.S. border.
---------------------------------------------------------------------------
    \1\ Amnesty International was awarded the Nobel Peace Prize in 
1977.
---------------------------------------------------------------------------
    In April and May 2018 AI researchers conducted a multi-week 
research mission along the entire U.S.-Mexico border, from the Pacific 
Ocean to the Gulf of Mexico. Our team documented not only the 
situations of asylum seekers who sought to present themselves at U.S. 
ports of entry, but also the conduct of U.S. border and immigration 
authorities in facilitating and processing their asylum claims under 
U.S. law.
    AI researchers met with dozens of asylum seekers along the U.S.-
Mexico border, including in all four U.S. border states. AI interviewed 
many of those asylum seekers in detention at Immigration and Customs 
Enforcement (``ICE'') facilities.
    Despite numerous requests by AI, Customs and Border Protection 
(``CBP'') officials declined to meet with AI researchers at ports of 
entry (``POEs'') or CBP field offices in California, Arizona, and 
Texas. Although AI researchers requested to meet with CBP leadership in 
San Diego in advance of the caravan, at both their San Diego Field 
Office and at the POE itself, officials declined those requests. They 
also declined to respond to emails requesting more information about 
CBP's capacity to receive asylum seekers, and its preparation for the 
reception of the caravan.
 the preliminary findings of amnesty international's research mission 
indicate violations of both u.s. and international law by department of 
  homeland security (``dhs'') agencies, in their treatment of asylum 
  seekers (at borders and in detention) and in the reception of their 
                             asylum claims
    CBP is turning away large groups of asylum seekers at POEs along 
the Southern Border, thereby forcing asylum seekers to wait in perilous 
situations on the Mexico side of the border, where some have been 
subjected to further human rights violations.
    On April 29 and 30 CBP closed its doors entirely to approximately 
200 asylum seekers as they arrived in a ``caravan'' in Tijuana, to 
present themselves at the San Ysidro POE. That mass turn-away occurred 
mere minutes after a press conference announcing their intention to 
seek asylum at the POE. Most of those asylum seekers were families from 
the Northern Triangle of Central America; half of them were children, 
and approximately 15 percent of them were transgender individuals.
    The announcement by CBP on April 29 that it would not admit any of 
those asylum seekers came days after DHS Secretary Nielsen announced 
that DHS was deploying additional asylum officers and other personnel 
to swiftly adjudicate the claims of those very same people from the 
caravan who were seeking asylum. Based on Secretary Nielsen's own 
statement, and that the administration had been tracking the progress 
of the caravan through Mexico for a month, DHS clearly had the capacity 
to admit those asylum seekers in need of international protection at 
the U.S. border.
    AI researchers documented, in real time, the negative effects 
caused by CBP's failure to process the applications of asylum seekers 
who presented themselves at the San Ysidro POE. AI researchers spoke 
with the coordinator of a group of 32 Central American trans asylum 
seekers from the caravan, at an LGBT shelter in Tijuana where they were 
staying after having been repeatedly turned away by CBP personnel at 
the San Ysidro POE between April 29 and May 1. On the evening after 
first being turned away by CBP on April 29, two of the trans women 
asylum seekers from the group were detained by municipal law 
enforcement authorities in Tijuana. One of those women informed AI on 
May 2 that the other had been beaten by municipal police when detained 
and then could not be located after she was released.
    Asylum seekers are particularly vulnerable in Mexican border areas, 
including to abuse by law enforcement authorities or criminals due to 
their often-irregular status or otherwise precarious situations. The 
longer they wait to present their asylum claims to CBP, the greater 
they are at risk of violence, deportation back to their countries of 
origin, or other harm. On May 6, a group of men with guns attacked and 
robbed the shelter where 11 LGBT asylum seekers were staying (including 
minors, and trans women from the caravan), setting the door on fire. 
According to the shelter's legal representative and the coordinator of 
the group of trans asylum seekers, the men returned a few hours later 
shouting homophobic slurs at the asylum seekers, and threatened to kill 
them if they did not leave the neighborhood. Following those death 
threats, the trans asylum seekers returned with an immigration lawyer 
to the San Ysidro POE to request asylum and were once again turned away 
by CBP.
    CBP's repeated turn-backs of asylum seekers in the caravan 
subjected these people to additional human rights violations while they 
waited in Mexico--in short, pushing vulnerable asylum seekers further 
into harm's way.
    The unlawful rejection of asylum claims by CBP is not a new 
phenomenon. AI has documented similar turn-aways of asylum-seeking 
families and unaccompanied minors for months prior to the recent 
caravan. A shelter coordinator in Tijuana informed AI that CBP had 
turned away approximately 20 of the unaccompanied minors whom his 
shelter hosted in 2017, without allowing them to claim asylum at the 
U.S. border, and at least 5 already in 2018. The shelter coordinator 
said that most of those unaccompanied minors were Mexican nationals who 
had fled from Guerrero and Michoan, two of Mexico's most violent 
states. AI spoke with one of those Mexican children at the shelter in 
January 2018 after she was turned away; the shelter coordinator 
informed AI on April 30 that the minor was only later received by CBP 
when accompanied by a lawyer to the POE. Prior to the caravan's arrival 
in April 2018, another shelter in Tijuana informed AI researchers that 
CBP turned away half of a group of 50 Mexican women seeking asylum at 
the San Ysidro POE. The shelter reported that CBP personnel at the San 
Ysidro POE had on several Sundays in 2018 declined to admit any asylum 
seekers at all.
     mexico is not a uniformly safe country for all asylum seekers
    The Trump administration is reportedly seeking to negotiate a 
``safe third country agreement'' (``STCA'') with Mexico, like the 
existing STCA with Canada, to make it a first country of refuge for 
asylum seekers. In two recent statements, DHS insisted that any asylum 
seekers in the caravan should seek refuge in Mexico, rather than in the 
United States: ``Individuals of the `caravan' seeking asylum or other 
similar claims should seek protections in the first safe country they 
enter, including Mexico.''
    However, AI has concluded, based on our research, that Mexico 
cannot be considered a uniformly safe country for all asylum seekers. 
AI has identified an alarming pattern of Mexican immigration officials 
forcibly returning Central American asylum seekers to their home 
countries, where their lives are potentially at risk. While Mexico no 
doubt also has a responsibility to protect refugees, the U.S. cannot 
shirk its legal obligation to protect refugees. U.S. authorities must 
provide individualized and fair assessments of asylum claims presented 
by people seeking protection at its borders and in its territory.
    In a January 2018 report, AI found that Mexican migration 
authorities (``INM'') routinely turn away thousands of people from 
Honduras, El Salvador, and Guatemala to their home countries without 
considering the risks to their lives and security upon return, in many 
cases violating international and domestic Mexican law by doing so. In 
a survey of 297 people who were detained by INM, AI found that 75 
percent of those people detained by INM were not informed of their 
right to seek asylum in Mexico, despite the fact that Mexican law 
expressly requires this and public officials assured AI that the 
requirement is complied with. Even more alarming, AI found that INM 
forcibly deported 40 percent of those people to their home countries, 
despite the fact that they explicitly sought asylum in Mexico or 
expressed fear for their lives in their country of origin.
    As Mexico does not always protect asylum seekers' rights, Mexico 
cannot be considered or treated as uniformly safe country for all 
asylum seekers. As such, anyone seeking asylum in the United States 
must have her or his claim received and assessed fairly and impartially 
on the merits. Without an individualized assessment of each asylum 
seeker's claim, there is a heightened risk of refoulement to ill-
treatment, persecution, or other irreparable harm, in violation of 
national and international law.\2\
---------------------------------------------------------------------------
    \2\ See the Amnesty International report, No Safe Refuge (2016); 
available at: https://www.amnesty.org/en/documents/eur44/3825/2016/en/ 
(at pp. 6-7).
---------------------------------------------------------------------------
u.s. authorities must protect asylum-seeking families and children from 
           persecution--not turn them back to potential harm
    Based on the aforementioned preliminary findings of AI's recent 
research mission along the southern U.S. border, DHS must stop turning 
back asylum seekers, and the U.S. Government should not consider Mexico 
to be a uniformly safe country to receive all asylum requests for 
international protection.
    The global system established to protect women, men, and children 
from harm is not a ``legal loophole.'' All countries are able to impose 
necessary and proportionate legal restrictions on entry into their 
countries, in order to achieve legitimate aims. However, governments 
are also prohibited under international law from forcibly returning 
people in need of international protection to any country where they 
would be at risk of persecution or other serious human rights 
violations. International law likewise prohibits governments from 
deporting such individuals at risk to a third country that may 
subsequently deport them to the country where they are at risk of 
serious harm.
    While apprehensions and ``inadmissibles'' at the southern U.S. 
border have been at near-record lows over the last year, global refugee 
numbers are at their highest levels since World War Two. This is a 
moment when the United States should be shielding people seeking asylum 
from persecution and violence, not pushing them back into harm's way.
the crisis does not lie with the caravan, but with the u.s. immigration 
      courts which have long been under-funded and under-resourced
    Many of the asylum seekers arriving at the southern U.S. border are 
children and families from the Northern Triangle of Central America. 
According to the U.N. Refugee Agency, many of the children fleeing the 
Northern Triangle region have strong protection claims. Those arriving 
to the United States are requesting relief through the long-established 
legal procedures to review asylum claims, in line with U.S. obligations 
under international refugee law and human rights law. Many asylum 
seekers are presenting themselves to border agents in order to 
affirmatively request asylum, and are not seeking to evade authorities.
    All arriving asylum seekers are subject to a well-established legal 
regime and institutional process established by DHS and the Justice 
Department to assess individual asylum claims. DHS asylum officers are 
well-versed in interviewing individuals who have suffered trauma, and 
have specific knowledge of country conditions and training on 
evaluating witness credibility. A secondary level of review involves an 
immigration judge who examines witness testimony, documentary evidence, 
and State Department country conditions in evaluating the individual 
asylum claim.
    The asylum process is extensive and rigorous, and is designed to 
ensure that those with strong refugee claims are not deported to 
conditions of persecution or torture, in accordance with U.S. legal 
obligations under the Refugee Convention and Convention Against 
Torture. However, due to a long-standing shortage of immigration 
judges, the asylum process in some cases takes years to conclude.
    DHS has stated that the objective of indefinitely detaining asylum 
seekers is to deter them from entering the United States in search of 
safety. The President's recent deployment of the National Guard to the 
Southern Border is also part of the administration's plan to deter, 
detain, and punish people seeking protection, in violation of U.S. 
obligations under international law and standards.
    In sum, there is indeed a crisis, but it is not a border security 
crisis embodied by caravans of children and families traveling through 
Mexico. The crisis lies with the U.S. immigration courts, which have 
been under-resourced for years and are thus unable to adjudicate asylum 
claims in a timely manner. That funding crisis, fortunately, can be 
readily addressed by Congress which controls the power of the purse.
             amnesty international's policy recommendations
    To Congress:
  <bullet> Exercise oversight of DHS, CBP, and ICE to ensure that turn-
        backs of asylum seekers are halted and all people who present 
        themselves at POEs are given the opportunity to seek asylum.
  <bullet> Press the administration to halt negotiations with Mexico as 
        a potential Safe Third Country for asylum.
  <bullet> Dramatically increase funding for immigration judge teams 
        and DHS asylum officers, to reduce the multi-year backlogs.
  <bullet> Decline to fund the President's expansion of Border Patrol, 
        and continuation of CBP operations--absent rigorous external 
        oversight of CBP and Border Patrol.
  <bullet> Decline to fund DHS's expansion of immigration detention, 
        which sweeps in children and asylum seekers.
    To the Trump administration:
  <bullet> Halt CBP turn-backs of asylum seekers. As required by 
        international law, CBP must provide a fair and accessible 
        asylum process for all people seeking international protection 
        in the United States.
  <bullet> Halt negotiations with Mexico to designate it as a Safe 
        Third Country for all asylum seekers, as Mexico is not always 
        safe for asylum seekers passing through the country.
  <bullet> Discontinue plans outlined in the Border Security Executive 
        Order to return arriving asylum seekers to Mexico to await 
        their asylum proceedings, in violation of international law.
  <bullet> End detention of all children, whether unaccompanied or in 
        family units. Locking up children is never in their best 
        interest.
  <bullet> Implement policies to limit the detention of people seeking 
        asylum, to only when it is determined to be necessary and 
        proportionate to a legitimate purpose, based on an assessment 
        of the individual's particular circumstances.
    For more information, please contact Joanne Lin.
            Sincerely,
                                                Joanne Lin,
       National Director, Advocacy and Government Affairs, Amnesty 
                                                 International USA.
                                             Brian Griffey,
                Regional Researcher/Advisor, Amnesty International.
                                 ______
                                 
              Statement of the National Immigration Forum
                              May 22, 2018
    The National Immigration Forum (the Forum) advocates for the value 
of immigrants and immigration to the Nation. Founded in 1982, the Forum 
plays a leading role in the National debate about immigration, knitting 
together innovative alliances across diverse faith, law enforcement, 
veterans, and business constituencies in communities across the 
country. Coming together under the Forum's leadership, these alliances 
develop and advocate for legislative and administrative policy 
positions. Through our policy expertise and work with diverse 
constituencies, the Forum works to uphold America's long-standing 
tradition as a Nation of immigrants and build public support for 
comprehensive immigration reform, sound border security policies, 
balanced enforcement of immigration laws, and ensuring that new 
Americans have the opportunities, skills, and status to reach their 
full potential.
                              introduction
    The National Immigration Forum thanks the subcommittee for the 
opportunity to provide its views on the matter of border security 
policies along the Southwest Border. The Forum fully supports policies 
that promote safety and security along the border, as well as that 
facilitate trade, tourism, and the economic health of the United 
States. We also thank the dedicated men and women of U.S. Customs and 
Border Protection (CBP) who work every day to keep our Nation's borders 
secure and facilitate commerce and travel into the United States. We 
acknowledge and appreciate the complexity and importance of their 
mission, which is charged every day with overseeing customs, travel, 
immigration, and border security responsibilities.
    We know that creating a secure border takes more than just 
investing resources on one or a few components of CBP's approach to 
border management. We also have concerns about altering U.S. laws to 
make it more difficult for migrants, mostly women and children, to 
receive asylum. We urge the Members of the subcommittee to address the 
on-going need to invest in a comprehensive approach to ensure our 
Nation's security at the border and in policies that are humane, 
transparent, and encourage commerce. We also urge the subcommittee to 
consider the impact these policies have on tens of millions of 
individuals, including Americans living along the Southwest Border.
    Congress should also fix our broken and out-of-date immigration 
system. Leading National security officials agree that having a 21st-
Century immigration system that promotes safety and security, benefits 
American workers and our economy, and provides earned legalization for 
otherwise law-abiding undocumented immigrants living in the United 
States would have the most significant impact in promoting security at 
our borders.\1\ We must choose policies that keep us safe, while 
staying true to our principles as a Nation of immigrants. Congress can 
find a common-sense, humane solution that boosts security while 
protecting economic innovation.
---------------------------------------------------------------------------
    \1\ Tom Ridge, former Secretary of the Department of Homeland 
Security (DHS), stated, ``I think [a comprehensive immigration 
approach] will add more to border security than any number of fences we 
can put across the border.'' Chertoff, Michael, Janet Napolitano, and 
Tom Ridge, ``8th Anniversary of the Department of Homeland Security 
(DHS) Roundtable,'' interview by Andrea Mitchell, Georgetown University 
(March 2, 2011): https://www.dhs.gov/news/2011/03/02/8th-anniversary-
roundtable-transcript.
---------------------------------------------------------------------------
           the southwest border has more resources than ever
    America's Southwest Border has never been more secure. The United 
States has built nearly 700 miles of physical barriers along the 
Southwest Border, with the rugged terrain and the Rio Grande acting as 
natural barriers in other areas.\2\ To complement these physical 
barriers, the Border Patrol stationed 16,605 agents in the Southwest 
Border in fiscal year 2017--nearly double the number compared to fiscal 
year 2000.\3\ Between fiscal year 2000 and fiscal year 2017, Congress 
increased the Border Patrol's budget approximately 380 percent from 
about $1 billion to nearly $3.8 billion.\4\ At the same time, the 
average annual number of apprehensions made by each Border Patrol agent 
dropped from 191 in fiscal year 2000 to 18 in fiscal year 2017--under 2 
apprehensions per month.\5\ The most recent data available shows each 
Border Patrol agent along the Southwest Border apprehended on average 
about 2.3 migrants in April 2018, a small increase above fiscal year 
2017, but far below fiscal year 2000 levels.\6\
---------------------------------------------------------------------------
    \2\ ``U.S. Border Patrol Mileage of Pedestrian and Vehicle Fencing 
by State,'' U.S. Customs and Border Protection (September 22, 2017): 
https://www.cbp.gov/document/stats/us-border-patrol-mileage-pedestrian-
and-vehicle-fencing-state.
    \3\ ``U.S. Border Patrol Fiscal Year Staffing Statistics (Fiscal 
Year 1992-Fiscal Year 2017),'' U.S. Customs and Border Protection 
(December 12, 2017): https://www.cbp.gov/document/stats/us-border-
patrol-fiscal-year-staffing-statistics-fy-1992-fy-2017.
    \4\ ``Enacted Border Patrol Program Budget by Fiscal Year,'' U.S. 
Border Patrol (December 2017): https://www.cbp.gov/sites/default/files/
assets/documents/2017-Dec/BP%20Budget%- 20History%201990-2017.pdf.
    \5\ During fiscal years 2000 and 2017, the Border Patrol 
apprehended an estimated 1.6 million migrants and 304,000 migrants 
crossing the Southwest Border between ports of entry, respectively. The 
Border Patrol stationed 8,580 Border Patrol agents along the Southwest 
Border in fiscal year 2000 and 16,605 agents in fiscal year 2017. We 
divide the number of apprehensions by the number of Border Patrol 
agents, which yields an average of 191 apprehensions per Border Patrol 
agent in fiscal year 2000 and 18 apprehensions per Border Patrol agent 
in fiscal year 2017. ``Southwest Border Sectors Total Illegal Alien 
Apprehensions by Fiscal Year,'' U.S. Border Patrol (December 2017): 
https://www.cbp.gov/sites/default/files/assets/documents/2017-Dec/
BP%20Southwest%20Border%20Sector%20Apps%20FY1960%20%20FY2017.pdf; 
``U.S. Border Patrol Fiscal Year Staffing Statistics (Fiscal Year 1992-
Fiscal Year 2017),'' supra note 3.
    \6\ During the month of April 2018, the Border Patrol apprehended 
38,234 migrants crossing the Southwest Border between ports of entry. 
Divided by the 16,605 Border Patrol agents stationed in the Southwest 
Border in fiscal year 2017, this yields an average of 2.3 apprehensions 
per Border Patrol agent in April 2018. ``Southwest Border Migration FY 
2018,'' U.S. Customs and Border Protection (Last Updated May 3, 2018): 
https://www.cbp.gov/newsroom/stats/sw-border-migration.
---------------------------------------------------------------------------
    Moving forward, Congress should carefully determine which uses of 
American taxpayer funds are most appropriate. We support building 
physical barriers along the Southwest Border where the Department of 
Homeland Security (DHS), with the input of border security experts, 
local communities, and border residents determines it is appropriate. 
We also encourage Congress to invest on expanding the use of technology 
along the border, which CBP already relies on and often serves as a 
better force multiplier than a fence.
    The Forum believes that investing in additional Border Patrol 
agents is not the most appropriate use of American taxpayer funds. 
Given the decline in the average number of apprehensions per Border 
Patrol agent over the last 15 years, as well as the agency's struggle 
to hire an additional 1,933 agent positions with funds already 
obligated by Congress in fiscal year 2017, the Forum believes that 
border security funding is best applied elsewhere.\7\
---------------------------------------------------------------------------
    \7\ The Border Patrol is mandated by Congress to maintain an 
active-duty presence of 21,370 agents, but did not meet that staffing 
goal in fiscal year 2017 due to recruiting and hiring difficulties. 
``U.S. Border Patrol Fiscal Year Staffing Statistics (Fiscal Year 1992-
Fiscal Year 2017),'' supra note 3.
---------------------------------------------------------------------------
    Congress should invest in the CBP Office of Field Operations (OFO), 
which oversees the flow of commerce and immigrants at all 328 ports of 
entry. CBP found in 2014 that adding a single CBP OFO officer to a port 
of entry would result in annual benefits of a $2 million increase in 
our country's Gross Domestic Product (GDP), $640,000 saved in 
opportunity costs, and 33 jobs added to the economy, because it would 
help speed the flow of commerce.\8\ Investments in CBP OFO also help 
curtail major drug traffickers, with CBP statistics showing that 81 
percent of hard drugs caught along the border between fiscal year 2012 
and fiscal year 2016 were caught at ports of entry.\9\ Yet, OFO 
currently has a staffing shortage of at least 3,811 CBP OFO officers, 
representing a vulnerability in our country's border security.\10\ 
Investments to increase personnel levels at ports of entry would help 
better manage the flow of commerce and increase public safety, 
particularly amidst the opioid epidemic.
---------------------------------------------------------------------------
    \8\ ``Resource Optimization at Ports of Entry: Fiscal Year 2014 
Report to Congress,'' U.S. Customs and Border Protection (March 10, 
2014), 13: https://www.cbp.gov/sites/default/files/documents/
Resource%20Optimization%20Model%20FY%202014%20Public%2004-24-14.pdf.
    \9\ Prendergast, Curt, ``Most Hard Drugs Smuggled Through Legal 
Border Crossings,'' Tucson.com--Arizona Daily Star (May 6, 2017): 
http://tucson.com/news/local/border/most-hard-drugs-smuggled-through-
legal-border-crossings/article_46653d40-7f63-5102-bb38-38da58c06- 
a76.html.
    \10\ ``U.S. Customs and Border Protection's Workload Staffing 
Model,'' Office of Inspector General, Department of Homeland Security 
(July 2014): 4 and 6, https://www.oig.dhs.gov/assets/Mgmt/2014/OIG_14-
117_Jul14.pdf.
---------------------------------------------------------------------------
    Another investment to ensure safety at our borders is to fund a 
Federal program to eradicate the invasive and nonnative carrizo cane 
and salt cedar plants along the Rio Grande Valley in Texas. This effort 
would provide the Border Patrol with greater visibility and access to 
the Rio Grande.\11\ Finally, we encourage Congress to invest in funds 
to implement the use of body-worn camera technology at CBP. The 
evidence indicates that body-worn cameras lead, in one study, to 88 
percent fewer complaints against officers and fewer assaults, creating 
a win-win solution for the public and law enforcement.\12\ It is 
indisputable that the Southwest Border has never had as many resources 
as it does today. The data suggest that it has never been more secure. 
We support continued investment in thoughtful and effective border 
security policies that increase safety and facilitate trade, while 
improving border management.
---------------------------------------------------------------------------
    \11\ Nixon, Dennis E., ``Common Sense Border Security: Thoughts 
from Dennis E. Nixon,'' (January 2017): https://www.ibc.com/en-us/
Newsroom/Documents/Common%20Sense%20Border%- 
20Security%20Solutions.pdf.
    \12\ Lopez, James, Jacinta S. Ma and Josh Breisblatt, ``Body 
Cameras and CBP: Promoting Security, Transparency and Accountability at 
Our Nation's Borders,'' National Immigration Forum (November 6, 2015): 
11 and 12. http://immigrationforum.org/wp-content/uploads/2015/11/Body-
Cameras-and-CBP-Report-11062015.pdf.
---------------------------------------------------------------------------
             border crossings are at near-record low levels
    The number of apprehensions along the Southwest Border between 
ports of entry has dropped from an all-time high of 1.6 million 
apprehensions in fiscal year 2000 to fewer than 304,000 in fiscal year 
2017.\13\ This reduction represents an 81 percent decrease and is the 
lowest number of apprehensions since fiscal year 1971, more than 40 
years ago.\14\ Between fiscal year 2016 and fiscal year 2017, border 
apprehensions fell about 25 percent, from nearly 409,000 apprehensions 
to less than 304,000.\15\ The Trump administration lauded this 
reduction by stating it ``undeniably prove[s] the effectiveness of 
President Trump's commitment to securing our borders.''\16\
---------------------------------------------------------------------------
    \13\ ``Southwest Border Sectors Total Illegal Alien Apprehensions 
by Fiscal Year,'' supra note 5.
    \14\ Ibid.
    \15\ Ibid.
    \16\ Kopan, Tal, ``Trump Admin Grapples with Rise in Border 
Crossing Numbers it Once Touted,'' CNN (January 10, 2018): https://
www.cnn.com/2018/01/10/politics/border-crossings-up-trump-effect/
index.html.
---------------------------------------------------------------------------
    More recently, the Trump administration has cited the number of 
border apprehensions in April 2018 to justify the administration's 
border security policies, including policies that will lead to 
separating parents from their children.\17\ CBP notes that border 
apprehensions between and at ports of entry in April 2018 increased 223 
percent compared to April 2017.\18\ Yet, this figure obscures that the 
number of border apprehensions so far in fiscal year 2018 remains on 
par with the number of apprehensions in the same period of fiscal year 
2017 and 6 percent below the same period of fiscal year 2016.\19\ In 
addition, the number of apprehensions in April 2018 is not unusually 
high, only 5 percent above April 2016 and 14 percent below April 
2014.\20\ Overall, the number of people attempting to enter the United 
States continues to trend downwards compared to the all-time high 
levels in the early 2000's.
---------------------------------------------------------------------------
    \17\ Kopan, Tal, ``DHS Secretary Defends Separating Families at the 
Border,'' CNN (May 15, 2018): https://www.cnn.com/2018/05/15/politics/
dhs-separating-families-secretary-nielsen-hearing/index.html; 
``Authorities and Resources Needed to Protect and Secure the United 
States,'' U.S. Senate Committee on Homeland Security and Governmental 
Affairs (May 15, 2018): https://www.hsgac.senate.gov/hearings/
authorities-and-resources-needed-to-protect-and-secure-the-united-
states.
    \18\ Calculations made by the National Immigration Forum. 
``Southwest Border Migration Fiscal Year 2018,'' supra note 6.
    \19\ Ibid.
    \20\ Ibid.

                                       SOUTHWEST BORDER APPREHENSIONS \21\
----------------------------------------------------------------------------------------------------------------
    Fiscal Year-to-Date  Apprehensions                                      April Apprehensions
----------------------------------------------------------------------------------------------------------------
Fiscal Year 2018.........................  288,066....................  April 2018.................       50,924
Fiscal Year 2017.........................  286,853....................  April 2017.................       15,766
Fiscal Year 2016.........................  306,578....................  April 2016.................       48,502
Fiscal Year 2015.........................  243,339....................  April 2015.................       38,296
Fiscal Year 2014.........................  311,312....................  April 2014.................       59,119
Fiscal Year 2013.........................  278,947....................  April 2013.................       54,761
----------------------------------------------------------------------------------------------------------------
\21\ Ibid.

    Moreover, as the number of people crossing the border declines, the 
amount spent by the Border Patrol per apprehension at the border 
increases. The Border Patrol spent on average $630 per apprehension in 
fiscal year 2000, compared to $12,500 per apprehension in fiscal year 
2017--an increase of almost 2,000 percent.\22\ As the overall trend of 
illicit crossings along the Southwest Border goes down, we must invest 
in border security policies where the American taxpayer gets the best 
return, including border technology and CBP OFO officers.
---------------------------------------------------------------------------
    \22\ Calculations made by the National Immigration Forum. ``Enacted 
Border Patrol Program Budget by Fiscal Year,'' supra note 4; 
``Southwest Border Sectors Total Illegal Alien Apprehensions by Fiscal 
Year,'' supra note 5.
---------------------------------------------------------------------------
          separating parents from children is deeply troubling
    The Trump administration's decision to implement a new ``zero-
tolerance'' policy to criminally prosecute all migrants crossing the 
Southwest Border between ports of entry without authorization, 
including parents accompanied by their children, is deeply troubling 
and will lead to the separation of thousands of families. As a country, 
we should not separate parents and children--in some cases parents and 
infants--in an attempt to deter people who are fleeing violence from 
legally seeking asylum or working for a better life in the United 
States. Such a policy is short-sighted, cruel to families, harmful to 
children, and wholly contrary to American values.
    Criticism about the Department of Justice's policy comes from many 
corners, including those who promote the Christian value of family 
unity. The U.S. Conference of Catholic Bishops noted that separating 
parents and children ``would be extremely detrimental to basic child 
welfare principles'' and ``ineffective to the goals of deterrence and 
safety.''\23\ Sam Rodriguez, president of the National Hispanic 
Christian Leadership Conference, stated that the practice could 
``inadvertently [incentivize] a family to break apart.''\24\ Others, 
like Erick Erickson, conservative radio host and blogger, expressed 
concern about the ``potential abuse of children separated from their 
parents'' and urged the Trump administration to reconsider.\25\ 
Conservative columnists Jennifer Rubin and Michael Gerson characterized 
the policy as ``undo[ing] America's reputation as a decent country'' 
and a ``betrayal of American values,'' respectively.\26\
---------------------------------------------------------------------------
    \23\ ``Separating Families at the Border: A Costly Practice,'' 
United States Conference of Catholic Bishops: https://
justiceforimmigrants.org/what-we-are-working-on/immigrant-detention/
separating-families-at-the-border-a-costly practice/.
    \24\ Shellnutt, Kate, ``Families Who Cross the Border Together 
Won't Stay Together,'' Christianity Today (May 11, 2018): https://
www.christianitytoday.com/news/2018/may/families-cross-border-separate-
immigration-central-america.html.
    \25\ @EWErickson, ``In theory I'm not opposed to strong deterrents 
to discourage illegal immigration. In practice, I am gravely concerned 
about the potential abuse of children separated from their parents and 
think the gov't needs to rethink this,'' Twitter (May 13, 2018): 
https://twitter.com/ewerickson/status/995706812769939457?s=11.
    \26\ @JRubinBlogger, ``This admin plans to undo America's 
reputation as a decent country. ``When adults are prosecuted and 
jailed, their children will be separated from them,  . . . The DHS says 
700 children have been separated from their parents.'' Twitter (May 8, 
2018): https://twitter.com/JRubinBlogger/status/993829981192118273; 
Michael Gerson, ``America's President is the Bully of Children,'' 
Washington Post (May 14, 2018): https://www.washingtonpost.com/
opinions/americas-president-is-the-bully-of-children/2018/05/14/
178c941c-579c-11e8-8836-a4a123c359ab_story.html?utm_term=.69e9a923b6f2.
---------------------------------------------------------------------------
    Experts from more than 200 National and State organizations 
involved in the fields of child welfare, juvenile justice, and child 
health, development, and safety pointed out that separating parents and 
children will compound the trauma many migrant children face and ``the 
time it would take them to recover and return to a trajectory of good 
health and normal development.''\27\ In one recent case, DHS separated 
a woman from her 7-year-old daughter for a period of 4 months before 
they were reunited.\28\
---------------------------------------------------------------------------
    \27\ ``Urgent Appeal from Experts in Child Welfare, Juvenile 
Justice and Child Development to Halt Any Plans to Separate Children 
from Parents at the Border,'' Electronic Mail to U.S. Department of 
Homeland Security (DHS) Secretary Kristjen M. Nielsen (January 23, 
2018): https://www.aclu.org/sites/default/files/field_document/
2018_01_23_child_welfare_- 
juvenile_justice_opposition_to_parent_child_sep.pdf.
    \28\ Rosenberg, Mica, ``Asylum Seeker in Detention Sues U.S. 
Administration Over Family Separation,'' Reuters  (February 26, 2018): 
https://www.reuters.com/article/us-usa-immigration-children/asylum-
seeker-in-detention-sues-u-s-administration-over-family-separation-
idUSKCN1GA- 279.
---------------------------------------------------------------------------
    Once separated from their parents, the children will be treated as 
unaccompanied alien children (UACs), the same as if they had arrived in 
the United States without an adult. They will be placed in the custody 
of the Department of Health and Human Services' (HHS) Office of Refugee 
Resettlement (ORR) and, after a time, placed with a sponsor while their 
cases are considered by immigration courts. HHS recently disclosed that 
ORR has lost track of nearly 1,500 children placed with sponsors in the 
United States, increasing our concern that implementing a policy to 
separate parents and children will have dire consequences for the 
children.\29\ ORR data also showed that more than 700 children have 
already been separated from adults claiming to be their parents since 
October 2017, including more than 100 children under the age of 4.\30\
---------------------------------------------------------------------------
    \29\ Burke, Garance, ``Federal Officials Lose Track of Nearly 1,500 
Migrant Children,'' PBS News Hours (April 26, 2018): https://
www.pbs.org/newshour/nation/Federal-officials-lose-track-of-nearly-
1500-migrant-children.
    \30\ Dickerson, Caitlin, ``Hundreds of Immigrant Children Have Been 
Taken From Parents at U.S. Border,'' The New York Times (April 20, 
2018): https://www.nytimes.com/2018/04/20/us/immigrant-children-
separation-ice.html.
---------------------------------------------------------------------------
    Finally, the threat of separating parents and children will not 
deter a parent whose children's lives are at risk living every day in 
countries where gangs, drug cartels, and transnational criminal 
organizations prey upon families. The three neighboring Northern 
Triangle countries of Honduras, Guatemala, and El Salvador consistently 
rank among the most violent countries in the world.\31\ El Salvador, 
Guatemala, Honduras still have the world's highest murder rates and 
significantly higher homicide rates than neighboring Costa Rica, 
Nicaragua, and Panama.\32\ Separating parents and children is unlikely 
to deter them from making the journey to the United States.
---------------------------------------------------------------------------
    \31\ Gagne, David, ``InSight Crime's 2016 Homicide Round-up,'' 
Insight Crime (January 16, 2017): https://www.insightcrime.org/news/
analysis/insight-crime-2016-homicide-round-up/.
    \32\ Cara Labrador, Rocio and Danielle Renwick, ``Central America's 
Violent Northern Triangle,'' Council on Foreign Relations (January 18, 
2018): https://www.cfr.org/backgrounder/central-americas-violent-
northern-triangle.
---------------------------------------------------------------------------
    A policy that seeks to break up families is troubling and 
problematic both for the parents and children who will suffer great 
harm and the U.S. communities whose burden it will be to care for these 
displaced and broken children. Rather than pull families apart, we 
should aim to protect them. We should allow families to participate in 
existing alternatives to detention programs that are effective and less 
expensive that detaining them.
            asylum seekers are not in violation of u.s. law
    Migrants who reach the Southwest Border and petition for asylum at 
a port of entry or between ports of entry are engaging in a process 
that is in accordance with U.S. laws and international treaties, 
primarily the Refugee Act of 1980 and the United Nations 1967 
Protocol.\33\ The United States has a legal obligation to provide 
protection to those who are unable or unwilling to return to their home 
country due to past persecution or a well-founded fear of being 
persecuted in the future ``on account of race, religion, nationality, 
and/or membership in a particular social group or political 
opinion.''\34\ The way we treat asylum seekers as a Nation is proof 
that we can be a country of laws and grace. On the contrary, changing 
laws to make it more difficult for people to receive asylum would defy 
American values and extinguish a flame of hope for thousands of 
persecuted people, including women and children. We must allow asylum 
seekers fleeing violence and persecution to make their case under 
current law.
---------------------------------------------------------------------------
    \33\ ``Asylum in the United States,'' American Immigration Council 
(May 14, 2018): https://www.americanimmigrationcouncil.org/research/
asylum-united-states.
    \34\ ``Refugees & Asylum,'' U.S. Citizenship and Immigration 
Services (Last Updated November 12, 2015): https://www.uscis.gov/
humanitarian/refugees-asylum.
---------------------------------------------------------------------------
    Grants of asylum in the United States are not easy to obtain. 
Asylum seekers who tell a CBP officer or agent along the Southwest 
Border that they fear returning to their home country are referred for 
a credible fear interview and have the burden of proving that they have 
a ``significant possibility'' of establishing eligibility for asylum. 
If the asylum officer determines that the asylum seeker has a credible 
case, the asylum seeker is referred to an immigration court to prove 
their case before an immigration judge, who makes the final 
decision.\35\ In fiscal year 2016, an estimated 8,700 people were 
granted ``defensive asylum'' in the United States, which governs the 
asylum process for migrants who arrived in the United States without 
authorization, including those who arrived as part of a caravan.\36\ 
That same year, 101,000 people made defensive asylum claims in the 
United States--in effect, less than 1 in 10 were granted asylum.\37\ 
Under current law, America's asylum process is a long-standing, legal, 
and humanitarian effort that is difficult and includes numerous 
safeguards against fraud. It provides an opportunity for asylum seekers 
with valid claims to find safe haven in the United States.
---------------------------------------------------------------------------
    \35\ ``Asylum in the United States,'' supra note 34.
    \36\ ``Table 16. Individuals Granted Asylum Affirmatively or 
Defensively: Fiscal Years 1990 to 2016,'' 2016 Yearbook of Immigration 
Statistics, U.S. Department of Homeland Security (Last Updated January 
8, 2018): https://www.dhs.gov/immigration-statistics/yearbook/2016/
table16.
    \37\ ``Fiscal Year 2016 ICE Enforcement and Removal Operations 
Report,'' U.S. Immigration and Customs Enforcement, 10: https://
www.ice.gov/sites/default/files/documents/Report/2016/removal-stats-
2016.pdf.
---------------------------------------------------------------------------
    We must also recognize that Central American migrants traveling to 
the United States to request asylum are for the mostly women and 
children fleeing persecution and violence at home. The overwhelming 
majority of these migrants pose no danger to the American people. 
Although the journey north is very dangerous, the migrants see it as a 
better and safer option than staying countries where they face threats 
from local gangs and other groups. As a Nation, we must respond to 
these humanitarian situations with compassion and common sense, not by 
closing the policy door on people with valid asylum claims.
                               conclusion
    The National Immigration Forum looks forward to working with the 
subcommittee for the opportunity to provide its views on the matter of 
current immigration and border security policies along the Southwest 
Border. We thank the subcommittee for holding this hearing and 
considering policies to secure our borders while facilitating trade, 
tourism, and the economic health of the United States. We encourage the 
subcommittee to recognize that the overall trend of border 
apprehensions along the Southwest Border is going down, especially when 
compared to the all-time high number of apprehensions in fiscal year 
2000. We also note that separating parents and children is a troubling 
policy that will not serve as a deterrent and is contrary to American 
values, including the values of family unity and child protection. We 
also recognize that migrants traveling to the United States to request 
asylum are engaging in a process that is in accordance with U.S. laws.
    Moving forward, we encourage Congress to focus on border security 
investments in areas where the American taxpayer gets the best return--
such as increasing CBP OFO officers at ports of entry, not Border 
Patrol agents in areas where the average number of apprehensions has 
already fallen precipitously.
    We urge Congress to override policies that encourage the separation 
of parents and children, such as the administration's recently 
announced ``zero-tolerance'' policy that will charge parents 
criminally.
    Finally, we discourage Congress from making it more difficult for 
migrants to request asylum in accordance with existing U.S. law. 
Migrants with valid asylum claims should be able to make their case for 
protections that they are afforded under existing laws.
                                 ______
                                 
             Statement of the American Immigration Council
                              May 22, 2018
    The American Immigration Council (``Council'') is a non-profit 
organization which for over 30 years has been dedicated to increasing 
public understanding of immigration law and policy and the role of 
immigration in American society. We write to share our analysis and 
research regarding the Nation's asylum system and the United States' 
obligations, as well as our deep concern around the administration's 
family separation policies and increased prosecution of migrants for 
entry-related offenses.
    This month, the Department of Justice (DOJ) and Department of 
Homeland Security (DHS) have implemented a ``zero tolerance'' policy 
for those who cross the Southern Border without authorization.\1\ This 
policy means DHS is referring all migrants who cross the border without 
authorization for criminal prosecution and DOJ has been directed to 
accept as many of these referrals as practicable.\2\ If these migrants 
arrive with children, the families will be separated when the parent(s) 
is referred for prosecution. The result will be a de-facto policy of 
family separation.
---------------------------------------------------------------------------
    \1\ Office of Public Affairs, ``Attorney General Announces Zero-
Tolerance Policy for Criminal Illegal Entry,'' Department of Justice, 
April 6, 2018, https://www.justice.gov/opa/pr/attorney-general-
announces-zero-tolerance-policy-criminal-illegal-entry; ``Secretary 
Nielsen Statement on Arrival of Central American `Caravan,' '' 
Department of Homeland Security, April 25, 2018, https://www.dhs.gov/
news2018/04/25/secretary-nielsen-statement-arrival-central-american-
caravan.
    \2\ Ibid.
---------------------------------------------------------------------------
    Further, with high levels of violence in parts of Central America, 
migration patterns have shifted in recent years, with more migrants 
seeking protection in the United States. Despite domestic and 
international legal obligations to protect migrants fleeing persecution 
and torture, the U.S. Government nonetheless subjects individuals 
fleeing such harm to criminal proceedings, which violates international 
law.\3\
---------------------------------------------------------------------------
    \3\ ``Prosecuting Migrants for Coming to the United States,'' 
American Immigration Council, May 1, 2018, https://
www.americanimmigrationcouncil.org/research/immigration-prosecutions.
---------------------------------------------------------------------------
    Below are resources from the Council that seek to further explain 
these disturbing new policies and the United States' responsibilities.
                           family separation
    In December 2017, the Council, in collaboration with other 
organizations, filed a complaint with the DHS Office for Civil Rights 
and Civil Liberties (CRCL) and Office of the Inspector General (OIG) on 
behalf of numerous asylum-seeking families who were separated at the 
U.S.-Mexico border. The complaint lifted up the cases of 15 
individuals--including toddlers--who were separated from their family 
members shortly after their arrival at the U.S. border, and which 
served to illustrate an increasing trend of family separation at our 
Southern Border.\4\
---------------------------------------------------------------------------
    \4\ American Immigration Council, et al., ``Complaint Documents 15 
Cases of Family Separation at the Border,'' American Immigration 
Council, December 11, 2017, https://www.americanimmigrationcouncil.org/
advocacy/family-separation-at-the-border.
---------------------------------------------------------------------------
    Forcibly separating families at the U.S.-Mexico border is an 
illegal and amoral practice. The United States should honor its legacy 
of providing safe haven to those fleeing violence and its commitment to 
the fundamental value of family unity and reunification.
                        immigration prosecutions
    Over the last two decades, the Federal Government increasingly has 
utilized the criminal courts to punish people for immigration 
violations. Particularly on the Southwest Border, Federal officials are 
vigorously prosecuting migrants either for entering the United States 
without permission or for reentering the country without permission 
after a prior deportation or removal order. Tens of thousands of 
migrants are subjected to criminal prosecution for these crimes every 
year.\5\
---------------------------------------------------------------------------
    \5\ Transactional Records Access Clearinghouse, ``Immigration 
Prosecutions for February 2018,'' March 26, 2018, http://trac.syr.edu/
tracreports/bulletins/immigration/monthlyfeb18/fil/.
---------------------------------------------------------------------------
    The Government's approach to charging these entry-related offenses 
imposes heavy costs on migrants and the Federal Government alike. With 
high conviction rates for these Federal offenses, many migrants are 
subjected to mandatory incarceration in Federal prison for months or 
longer. For the Federal Government, such prosecutions are an extremely 
costly use of finite law-enforcement resources and have no demonstrated 
deterrent effect on future migration.\6\
---------------------------------------------------------------------------
    \6\ Rebecca Gambler, Border Patrol: Actions Needed to Improve 
Oversight of Post-Apprehension Consequences, U.S. Government 
Accountability Office, January 2017, 36, https://www.gao.gov/assets/
690/682074.pdf; U.S. Department of Homeland Security, Office of 
Inspector General, Streamline: Measuring Its Effect on Illegal Border 
Crossing, OIG-15-95, May 15, 2015, https://www.oig.dhs.gov/assets/Mgmt/
2015/OIG_15-95_May15.pdf.
---------------------------------------------------------------------------
    The Council's factsheet, Prosecuting Migrants for Coming to the 
United States, provides basic information about entry-related offenses, 
including the significant costs incurred by the Government for 
conducting these prosecutions, the individuals who are subjected to 
them, and how the Government's rationale for carrying them out is not 
supported by the data.
                   fast-track removals and asylum law
    Migrants who reach the U.S. border without a valid visa will be 
placed in expedited removal, a fast-track removal process described in 
the Council's Primer on Expedited Removal.\7\ Because expedited removal 
does not apply to asylum seekers, DHS has pressed Congress to make 
drastic changes to our asylum laws to strip away these important 
protections.
---------------------------------------------------------------------------
    \7\ ``A Primer on Expedited Removal,'' American Immigration 
Council, February 3, 2017, https://americanimmigrationcouncil.org/
research/primer-expedited-removal.
---------------------------------------------------------------------------
    The ability to seek asylum, which is discussed in the Council's 
factsheet, Asylum in the United States, is a right enshrined in both 
international and domestic laws.\8\ The majority of the migrants 
currently presenting themselves to Border Patrol between the ports of 
entry and to Customs and Border Protection (CBP) at the ports along the 
Southern Border are seeking humanitarian relief after fleeing 
persecution, grave violence, and even death. Under U.S. law, 
immigration officials are required to process any individual who 
presents at a port of entry and states a fear of return to their 
country or a desire to apply for asylum.\9\ With threats of prosecution 
and family separation for those who fail to enter at a port of entry, 
more asylum seekers can be expected to arrive at the ports. CBP, 
however, has been stalling and holding off those arrivals, unlawfully 
refusing entry to asylum seekers.
---------------------------------------------------------------------------
    \8\  ``Asylum in the United States,'' American Immigration Council, 
May 14, 2018 https://www.americanimmigrationcouncil.org/research/
asylum-united-states.
    \9\ 8 U.S.C.  1225(a)(3).
---------------------------------------------------------------------------
    Separating families, criminally prosecuting migrants, and 
obstructing their ability to apply for asylum are cruel and un-
American. These policies are punitive, costly, and run counter to our 
ideals. The United States can and must do better.
                                 ______
                                 
          Statement of the National Domestic Workers Alliance
                              May 22, 2018
    The National Domestic Workers Alliance is the Nation's leading 
voice for dignity and fairness for the millions of domestic workers in 
the United States, most of whom are women of color and immigrant women.
    Today, we join millions of Americans across the country in urging 
Congress to protect the best interests of children, women, and migrant 
families who come to our country seeking asylum, and reject the 
dehumanizing rhetoric the Trump administration is deploying against 
immigrants to justify the militarization of the border and the 
separation of immigrant families.
    The Trump administration's treatment of a caravan of migrants 
traveling through Central America and Mexico seeking safety at our 
Southern Border is emblematic of how our Government treats asylum 
seekers generally. Contrary to what the administration portrayed in the 
media, a vast majority of the members of the caravan were women, 
children, youth, parents, and transgender women who fled their homes to 
escape political repression and violence, extreme poverty, and abuse.
    We write to express our concern that migrants seeking asylum, such 
as those traveling in the caravan, are being turned away at the border, 
are being criminally prosecuted, and that the administration is 
separating children from their families. We urge Congress to reject the 
policy proposals the Trump administration continues to offer as 
solutions as they will do nothing to address border security, but will 
instead endanger vulnerable people and call into question our Nation's 
moral standing.
    The right to seek asylum is enshrined in United States and 
international law. Asylum is not a ``loophole,'' as the Trump 
administration would like the public to believe, and individuals 
seeking asylum must be allowed to make their claims in a fair and 
efficient manner. The administration's practice of refusing to process 
asylum seekers and forcing vulnerable people, including families with 
small children and transgender women, to remain outside the gates of 
the ports of entry is unconscionable. With regard to the caravan, it 
was widely reported that these asylum seekers set up tents and slept 
outside for days, ``huddled under donated blankets''\1\ waiting to be 
processed. This wait also compromised the safety of caravan members as 
a group of transgender women were robbed by armed men, attacked 
repeatedly, and had their shelter set on fire.\2\ Customs and Border 
Protection's (CBP) assertion that they do not have sufficient capacity 
to process asylum seekers \3\ is a poor excuse, as the agency is one of 
the most over-resourced law enforcement agencies in the entire Federal 
Government.\4\ As part of its oversight function, Congress must ensure 
that Department of Homeland Security (DHS) officials, including CBP 
officers, do their jobs and allow asylum seekers to make their claims 
in a timely manner.
---------------------------------------------------------------------------
    \1\ See Kirk Semple, US Lets A Few Members of Migrant Caravan Apply 
For Asylum, New York Times (April 30, 2018) at https://www.nytimes.com/
2018/04/30/world/americas/mexico-migrants-caravan-asylum-seekers.html.
    \2\ See Jorge Rivas, The Nightmare Isn't Over For Trans Women On 
The Refugee Caravan, Splinter News (May 8, 2018) at https://
splinternews.com/the-nightmare-isnt-over-for-trans-women-on-the-
refugee-1825866317.
    \3\ See Sandra Dibble, Uncertainty greets Central American asylum 
seekers as officials say San Ysidro Port of Entry already at capacity, 
San Diego Tribune (April 29, 2018) at http://
www.sandiegouniontribune.com/news/immigration/sd-me-asylum-caravan-
20180428-story.html.
    \4\ See Doris Meissner, Donald M. Kerwin, Muzaffar Chishti, and 
Claire Bergeron, Immigration Enforcement in the United States: The Rise 
of a Formidable Machinery, Migration Policy Institute (January 2013) at 
https://www.migrationpolicy.org/news/us-spends-more-immigration-
enforcement-fbi-dea-secret-service-all-other-Federal-criminal-law.
---------------------------------------------------------------------------
    The Trump administration's plan to prosecute every person who 
crosses the border in between ports of entry \5\ in an effort to deter 
migration will have a profound effect on asylum seekers and families 
with children. This announcement is not only irresponsible and a 
violation of National and international laws, it is immoral. 
Individuals seeking asylum must be given the opportunity to make their 
claims. If these individuals are prosecuted, they will be criminalized 
and barred from accessing protection. DHS Secretary Nielsen's 
statements directing these individuals to ports of entry as an 
alternative \6\ is disingenuous at best, as CBP has stated no plans to 
increase its processing capacity. Future petitioners for asylum will 
inevitably face the same fate as those in the caravan and be forced to 
wait for days and perhaps even weeks to access protection, jeopardizing 
their health and safety.
---------------------------------------------------------------------------
    \5\ See Department of Justice Office of Public Affairs, Memorandum 
for Federal Prosecutors Along The Southwest Border, (April 6, 2018) at 
https://www.justice.gov/opa/press-release/file/1049751/download.
    \6\ Michael D. Shear, Trump Tirade Is Culmination of Immigration 
Frustration, New York Times (May 11, 2018) at https://www.nytimes.com/
2018/05/11/us/politics/trump-nielsen-
immigration.html?login=email&auth=login-email.
---------------------------------------------------------------------------
    In addition, this ``zero-tolerance'' policy will, in effect, 
separate children from their families. If adults who arrive with 
children are to be prosecuted, they will be taken to Federal jails and 
their children rendered unaccompanied, placing them in the custody of 
Health and Human Services Office of Refugee Resettlement. Reports have 
indicated that the administration has been separating children from 
their parents for months--in fact, since October, more than 700 
children have been separated from their families, ``including more than 
100 children under the age of 4.''\7\ Ripping children apart from their 
parents in order to deter migration is callous, cruel, and betrays our 
deeply-held American values. The American Academy of Pediatrics has 
condemned this policy, saying that ``highly stressful experiences, like 
family separation, can cause irreparable harm, disrupting a child's 
brain architecture and affecting his or her short- and long-term 
health. This type of prolonged exposure to serious stress--known as 
toxic stress--can carry life-long consequences for children.''\8\ 
Congress must demand that an end this cruel practice immediately.
---------------------------------------------------------------------------
    \7\ See Caitlin Dickerson, Hundreds of Immigrant Children Have Been 
Taken From Parents at U.S. Border, New York Times (April 20, 2018) at 
https://www.nytimes.com/2018/04/20/us/immigrant-children-separation-
ice.html.
    \8\ Colleen Kraft, AAP Statement Opposing Separation of Children 
and Parents at the Border (May 8, 2018 at https://www.aap.org/en-us/
about-the-aap/aap-press-room/Pages/
StatementOpposingSeparationofChildrenandParents.aspx.
---------------------------------------------------------------------------
    Despite the efforts of thousands of Americans who have stood up to 
welcome refugees, there are still hundreds of asylum seekers in 
detention and children waiting for an opportunity to be reunited with 
their families. How we treat refugees seeking safety is not a test of 
our National security, but a test of our National character.
    Today, the National Domestic Workers Alliance urges Members of the 
House Committee on Homeland Security, and all Members of Congress, to 
consider the real implications of turning our backs on those seeking 
protection at our Southwest Border, including children and families.
    This is not who we are as a country. Our legacy--and the future we 
hope to leave to our children--call on us to be a Nation that welcomes 
and defends the rights of the most vulnerable among us.

    Mr. Vela. Commissioner Vitiello, kind-of as a follow-up to 
the question about the distinction in how people are treated at 
the ports of entry versus between the ports of entry. With the 
new Zero Tolerance Policy in place, if someone is apprehended 
between the ports of entry and claims credible fear, what 
happens to them?
    Mr. Vitiello. Well, in the situation where zero tolerance, 
they will be referred to the Justice Department for criminal 
prosecution for illegal entry. If they claim credible fear, 
that is a separate matter.
    So while they are in custody, they could have an interview 
by one of Francis' people or once they are concluded with the 
U.S. Attorney and the Justice Department, that will be a 
separate matter for them.
    Mr. Vela. Did you want to follow up?
    Mr. Cissna. Yes. Just because you are being prosecuted 
under 8 U.S.C. 1325(a) doesn't mean that you can't also make an 
asylum claim. If that happens, I think what we expect will 
happen, I don't think we have seen many cases where this has 
happened yet under the new Zero Tolerance Policy.
    That person would go through the prosecution process and 
then be sent back into ICE detention. At that point, then we at 
USCIS would interview them in the normal course for their 
credible fear screening. So, they are not incompatible, the two 
processes.
    Mr. Vela. Well, what I am wondering about is, and you may 
be familiar with this Article 31 of the Refugee Convention, 
right? Which says the contracting States and United States is 
one of those, shall not impose penalties on account of their 
illegal entry or presence on refugees who are coming directly 
from a territory where their life or freedom was threatened in 
the sense of article 1 enter or are present in their territory 
without authorization.
    So what is your take on the United States agreement back in 
1968 as that would apply to these people that are crossing 
between ports of entry?
    Mr. Cissna. My understanding of the principal commitment 
that we made under the protocols of the convention, actually, 
are that we are not going to return people to a country where 
they may suffer persecution.
    We are not doing that. If they make a legitimate claim to 
asylum, we will hear it. We will do the credible fear screening 
and they may in the end get asylum. But that doesn't mean that 
they didn't violate the law.
    That doesn't mean that they didn't violate the 8 U.S.C. 
1325(a). The law is the law. They should be prosecuted and 
punished for that. But that doesn't mean they can't get also 
get asylum. We are not going to throw them back to a country 
where they can be persecuted if they have a legitimate asylum 
claim. We would not be therefore be violating the protocol of 
the convention.
    Mr. Vela. But to be clear and we may agree or disagree as 
to whether this is the right thing to do or not, what is 
happening with these people who claim credible fear between 
ports of entry. They are being taken right into our criminal 
justice system, correct?
    Mr. Cissna. I believe so, yes, right.
    Mr. Vela. Commissioner Vitiello, on the issue of, we had 
some discussion about terrorists on the Southern Border. The 
last time we checked we had encountered more terrorists on the 
Northern Border than on the Southern Border. Is that still true 
or has that changed?
    Mr. Vitiello. I would have to look at the data. I think 
it's probably still true.
    Mr. Vela. You made some reference to the fact that some of 
the--or a good portion of personnel in Border Patrol are 
Spanish-speaking, right?
    Mr. Vitiello. Correct. It is a requirement of the--it is a 
pass/fail requirement at the academy.
    Mr. Vela. So you can understand the serious concern that 
some of us might have with the incident in Montana here over 
the weekend, right? Where two American citizens were questioned 
about their citizenship just because they were speaking 
Spanish.
    Mr. Vitiello. So I am aware of that video. I did watch it 
on YouTube. I have looked at the full reporting from Havre 
sector. It happened in Havre, Montana. Just let me start out by 
saying that there is a policy in the Federal Government in law 
enforcement against racial profiling.
    The Secretary has a statement out on it. CBP has its own 
policy statement that prohibits the racial profiling as a 
tactic used in law enforcement investigations or encounters. We 
expect our people, whether they are arresting someone, whether 
they are interacting with the public, bad guy or good guy, they 
treat those people with professionalism, respect, and dignity, 
so. We hold them to account for when they don't do that.
    In the case of Montana, we have asked our Office of 
Professional Responsibility to review the matter. So I don't 
want to prejudge it. I want them to do all the fact-finding. 
Then I am happy to come back and give you the full circumstance 
about what happened.
    But the bottom line, we expect our people to act with 
professionalism and when they don't, we are going to hold them 
to account for that.
    Mr. Vela. Thank you.
    I yield back.
    Ms. McSally. The gentleman yields back.
    The Chair now recognizes Mr. Correa from California for 5 
minutes.
    Mr. Correa. Thank you, Madam Chair. Just following up on 
those comments on racial profiling. State of California 
Democrats and Republicans got together to pass laws against 
racial profiling. I can tell you in my life taking the train 
from San Diego to Orange County, I have been profiled. It was 
me, nice Marine sitting right next to me, guess who gets the 
question, are you an American citizen or not? lt is just 
something we live with. Yes, we got to live with it. Let me 
take a few moments to talk about big picture. Anybody here 
think MS-13 is good actors, bad actors? We all agree they are 
bad actors, for the record.
    Is there some of these folks coming from El Salvador, 
Guatemala, do you think they have legitimate fear for their 
lives given that MS-13 is alive and well in those countries? 
The answer is probably yes.
    So my question is, this is a public policy hearing today 
trying to iron out public policy. Is it the law or is it 
loopholes when it comes to refugees? If you get somebody who 
comes from El Salvador, do we want to change the law to say 
there should not be a loophole for those folks that have a 
reasonable credible fear for their lives?
    I am asking you, folks. Do you want to close that loophole?
    Mr. Vitiello. We want to be in a situation in where people 
who cross the border illegally if they have a legitimate 
refugee or asylum claim that they are put into that system and 
allowed to do that. What is happening here now or what is 
happening on the border now is that people are making that 
claim and they are not being held by ICE until their hearing, 
so their due process gets lost to their own effort because they 
don't show or----
    Mr. Correa. My process here. We talked a little while ago 
about our other partners, if I may call them partners, Mexico, 
in many ways, and I think, I don't want to put any words into 
your folks' mouths here, but you said there was some 
cooperation with Mexico.
    I have talked to folks in your agency and they tell me that 
there is a lot of cooperation with Mexico. That the numbers of 
those folks coming across in those caravans were drastically 
reduced by the Mexicans, but they have their own laws they have 
got to follow when it comes to humanitarian issues.
    So my question to you is would you advocate a stronger 
cooperation with the Mexicans when it comes to our National 
security? Including this issue of asylum seekers?
    Mr. Vitiello. Yes. Yes. To be precise, we do have some very 
good working relationships.
    Mr. Correa. Do you have suggestions? You are the experts. 
You are the policy makers. Do you have any suggestions how we 
can work with the Mexicans to make sure that we make this 
hemisphere a little bit safer for everybody involved? I am 
asking you as a policy maker. You are the expert. Give us some 
opinions.
    Mr. Vitiello. Yes. We are continuing the discussion on all 
elements of security as it relates to the hemisphere with 
Mexico. They are a strong partner and in fact they have helped 
us co-host bi-nationally a conference on the northern triangle 
to help them understand what the Government's challenges are. 
Where the investments need to be made in that part of the 
world.
    So Mexico is a great partner in that. But Safe Third is one 
of those things. A Safe Third country, Mexico does have asylum 
system. So if it can be strengthened----
    Mr. Correa. So the majority of these folks in the caravan 
did get turned back at the Mexican territory as opposed to 
reaching our border?
    Mr. Vitiello. A number of them did get settled.
    Mr. Correa. A majority. Because of the 1,000 to 1,500 
started, and some of us quoted that, and you said about 300 
arrived at the border that we know of. It is more than half 
didn't get to the U.S. border.
    Mr. Vitiello. We encountered almost 500 of them. I am aware 
of the media reports and in direct discussion with the Mexico 
they settled a number of them.
    Mr. Homan. But, sir, if we can add, we do need----
    Mr. Correa. Yes, sir.
    Mr. Homan. We need to close the loopholes. We need 
Congressional action on making----
    Mr. Correa. Is that a loophole, sir, or is that changing 
the law to tighten up on who is a refugee or not?
    Mr. Homan. Well, either or. You got to----
    Mr. Correa. Well, sir, you----
    Mr. Homan. But I understand that people----
    Mr. Correa. You are the policy maker advising us. Is it----
    Mr. Homan. What----
    Mr. Correa. Do you think the laws are too lax when it comes 
to whether you fear for your life or not? Or it is something 
else that you want to change in these loopholes?
    Mr. Homan. Laws are too lax. There are loopholes we need to 
have addressed. When----
    Mr. Correa. What would you tighten? You say it's too lax, 
what would you tighten?
    Mr. Homan. When USCIS approved 85 percent and the 
immigration court only approves 20 percent there is something 
being lost here. If only 20 percent are winning their claim in 
front of the immigration court, that shows there is a problem.
    There is going to be a system. Now, I certainly can say 
that do I think some of these people have a solid claim and 
they are escaping fear? Of course. Well, I also think many of 
them are taking advantage of a loophole in a small threshold. 
What the problem with that, they are clogging up the system. So 
if there is people in this world that----
    Mr. Correa. Then is it an issue of enough money being sent 
to the Judicial branch so they can speedily advocate on these 
claims?
    Mr. Cissna. I think it is both substance and process. If 
you change nothing but change the process, that would be a big 
help. If you kept the system as it was, but at least we could 
detain people until a full process of their asylum claim was 
heard, so----
    Mr. Correa. So that is the process not the loophole?
    Mr. Cissna. Well, that is one issue, it is the process and 
resources to be able to hold people and address the Flores 
settlement situation and address all his resources to hold 
people as long as it takes to hear their full asylum claim.
    The other issue is substance, what should be the credible 
fear standard? I know the Goodlatte Bill has a provision in 
there that talks about divorcing the credibility assessment 
from the substantive assessment. That would be helpful if that 
happened.
    There are other people who would say that the asylum--the 
basis of asylum itself may need to be reexamined. That is a 
separate issue as well.
    Mr. Correa. Madam Chair, I yield.
    Ms. McSally. The gentleman yields.
    The Chair now recognizes, Ms. Barragan from California for 
5 minutes.
    Ms. Barragan. You know, I heard the comment that the fact 
that only 20 percent qualify for asylum means that there is an 
abuse happening. One of the reasons it could be so low is 
because these people are not entitled to counsel.
    As I mentioned, it is very hard to meet the legal 
requirements. You almost cannot increase the standard. It is 
already so high. I actually believe if we gave people counsel, 
you would see that 20 percent number increase. By quite a bit.
    So I am not sure, I don't think the logic follows it, 
because only 20 percent are granted asylum. Therefore there are 
all these abuses. Having been in the system, having litigated 
asylum cases, I know first-hand how challenging it is, and I 
know the difference it makes when you do have counsel.
    Most people who don't have an extremely difficult time 
because it is so high. I want to go back to the issue of, I 
think Mr. Cissna that you had mentioned. How does USCIS 
determine a person's asylum claim is fraudulent? Like how is 
that assessment made?
    Mr. Cissna. Well, before, I mean, the person could just be 
ineligible, flat-out ineligible. That is different from being 
fraudulent. Both things are happening and----
    Ms. Barragan. Yes, I want to know about the fraudulent. How 
do you guys determine it when asylum claim is fraudulent?
    Mr. Cissna. I think if the person says something that 
manifestly does not conform with the facts on the ground, we 
would determine that the person was lying and therefore made a 
fraudulent claim.
    Ms. Barragan. Do we have any numbers about how many were 
actually fraudulent under that definition you just explained?
    Mr. Cissna. No, we don't have any numbers on how many 
people are making fraudulent claims either in credible fear or 
in regular asylum yet, but we are working on that.
    Ms. Barragan. Do you have any numbers on how many asylum 
claims were denied by USCIS in recent years that have led to 
perjury charges?
    Mr. Cissna. No, I don't have that available.
    Ms. Barragan. Could you get those to me in writing?
    Mr. Cissna. Sure.
    Ms. Barragan. If you could, that would be great. I want to 
also touch upon the incident that occurred, the Montana 
incident. The CBP has about a 100-mile radius of jurisdiction 
where you can engage with somebody, pull somebody over for 
reasonable suspicion of an immigration violation or crime. Is 
that correct? Roughly?
    Mr. Vitiello. Roughly, yes The court through case law has 
given us jurisdiction to do a number of things near the 
immediate border.
    Ms. Barragan. OK.
    Mr. Vitiello. Loosely defined at 100 miles.
    Ms. Barragan. If you take a look at the map, like most of 
Los Angeles alone is in that because of the west, being on the 
coast, correct?
    Mr. Vitiello. I think that is true for a number of coastal 
States.
    Ms. Barragan. How often would you say a CBP officer is 
going to engage with somebody and start questioning them about 
their status just because they are speaking Spanish? How often 
do you think that is happening?
    Mr. Vitiello. I don't think it happens very often at all. I 
think they are trained to do a number of things and look at a 
number of factors before they make an account or they make a 
stop for someone. In this case, it was roughly 40 miles or so 
from the border.
    Ms. Barragan. OK. So should I advise my constituents that 
are within 40 miles of the border they shouldn't be speaking 
Spanish anymore?
    Mr. Vitiello. No. I wouldn't do that.
    Ms. Barragan. What advice could you give? Because, look, I 
speak Spanish. It was my first language. It is actually an 
asset in this country to be able to speak two languages, 
especially Spanish. Because there is a shortage of, actually, 
workers who employers seek to speak two languages. Spanish is 
often one of them. I get questions now of, well, does this mean 
I shouldn't speak Spanish anymore? As somebody who is at CBP, 
what advice do you think I should I give them?
    Mr. Vitiello. I am not sure. I have a number of social 
engagements, I have worked on the border for many years. I 
speak Spanish myself. It is not something that people should be 
concerned about if they are here legally.
    Ms. Barragan. In this case, the people actually showed ID 
even though they don't have to. They were still detained for 
another 35 to 40 minutes. In that case, what is somebody 
supposed to do? You have shown your ID. You are still being 
detained.
    Mr. Vitiello. I would like for our Office of Professional 
Responsibility to do a complete review of the incident, and 
then I am happy to come back or put in the record if it is done 
by then, the total circumstance of that case.
    Ms. Barragan. OK. If that happens to somebody, are they 
allowed to pull out their cell phone and just start documenting 
that they are being held for 35 to 40 minutes or whatever it 
is?
    Mr. Vitiello. Our agents are regularly filmed in the 
performance of their duties. CBP has made an investment in 
changing policy and allowing for us to use incident-driven 
video recordings. So we are going to be investing in and 
deploying a number of cameras in the work space. Some of those 
will be actually be worn by agents.
    Ms. Barragan. The agents are not going to delete the 
videos, right?
    Mr. Vitiello. There is a whole policy that surrounds how we 
use the video and how it is stored and collected and et cetera.
    Ms. Barragan. Great. Thank you. I yield back.
    Ms. McSally. The gentlelady yields back.
    In summary, as we wrap up, I want to thank the gentlemen 
for their testimony today and their service. We talked today 
about trying to build the policy wall in order to secure our 
country, secure our border and stop having people take 
advantage of loopholes in the law.
    To summarize, some of those loopholes that we have been 
working together with you to close, the first is to raise the 
standard of the initial asylum interview that happens at the 
border which is so low that nearly everybody can make it 
through.
    The second is to hold individuals as long as it takes for 
them to have due process in order to process their claim. The 
third is to make it inadmissible in our country if you are a 
serious criminal or gang or gang member or terrorist which I 
cannot believe isn't part of the law, but we actually have to 
change that law.
    The fourth is to have a swift removal of you if you are 
denied in your claim. The fifth is to terminate your asylum if 
you were to get it, if you return back to your country without 
any material change in the conditions there. Clearly, if you 
are afraid for your life, but go back to visit then something 
is not right there. So your asylum should be considered for 
termination.
    The sixth is that there could be an expeditious return of 
unaccompanied minors to non-contiguous countries, so that we 
can swiftly return them just like we can to Mexico.
    The last is to increase the penalties for false asylum 
claims in order to deter and hold people accountable if they 
file for those. Is that a good summary of many of the loopholes 
we are talking about today?
    Mr. Vitiello. Agree.
    Ms. McSally. Thank you.
    These all are in our bill, the Securing America's Future 
Act. These are common-sense reforms that will keep our country 
safe and keep our communities safe. I just want to encourage, 
don't have any Members left here, all Members, on both sides of 
the aisle, look at our bill. Read our bill. Study our bill.
    If you have suggested improvements to our bill, then please 
bring them to us. We will work with you in order to get the 
bill to a place that we can get 218 people to vote for it and 
get it out of the people's House, the House of Representatives.
    The time is urgent as someone who represents a border 
community who is dealing with these public safety threats and 
National security threats on a daily basis in the communities 
that I represent.
    As you are all and your agents are out there every single 
day dealing with these threats. The time is urgent. This is not 
time to play politics with these issues. This is time for 
people to solve this issue and to close these loopholes to keep 
us safe.
    I want to thank the gentlemen for their testimony and the 
Members for their questions. I want to particularly thank 
Director Homan for your 34 years of service to our country in 
many law enforcement positions. God bless you in your 
transition out. Thanks for your service and all you have done 
for us.
    Mr. Homan. Thank you.
    Ms. McSally. Members of the committee may have some 
additional questions for the witnesses. We will ask you to 
respond to these in writing. Pursuant to committee Rule VII(D), 
the hearing record will be held open for 10 days.
    Without objection, the committee stands adjourned.
    [Whereupon, at 3:46 p.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

   Questions From Ranking Member Filemon Vela for Ronald D. Vitiello
    Question 1a. Can you please explain the criteria and process CBP 
personnel are required to use for verifying family relationships?
    Answer. A family unit is defined as a parent or legal guardian 
along with accompanying minors. CBP determines familial relationships 
on a case-by-case basis. U.S. Border Patrol (USBP) agents and Customs 
and Border Protection (CBP) officers review all available information, 
including any available documentation, in order to determine the 
validity of a claimed familial relationship. Additionally, agents and 
officers conduct thorough interviews to detect potentially fraudulent 
claims of familial relationship.
    Question 1b. Is this process different for families who present 
themselves at ports of entry than for those apprehended by Border 
Patrol?
    Answer. The process to determine a familial relationship is the 
same regardless of how the family enters the United States.
    In all instances, CBP strives to ensure the safety and welfare of 
any child an agent or officer may encounter.
    Question 2a. Can you please explain what CBP does to ensure family 
units are kept together, per its 2015 National Standards on Transport, 
Escort, Detention, and Search (TEDS)?
    Answer. CBP's National Standards on Transportation, Escort, 
Detention, and Search (TEDS) policy States in part that ``CBP will 
maintain family unity to the greatest extent operationally feasible, 
absent a legal requirement or an articulable safety or security concern 
that requires separation.'' In accordance with these standards, family 
units may be separated in certain situations, including:
  <bullet> the parent/legal guardian is subject to criminal 
        prosecution;
  <bullet> evidence of abuse that would indicate that the child's 
        safety is at risk; and
  <bullet> the familial relationship cannot be verified.
    This list is not exhaustive and the operational decision to 
separate a family unit is made after taking the safety and well-being 
of the child or children into account.
    Question 2b. How does the administration's zero-tolerance directive 
for adult border crossers hinder your ability to keep families 
together?
    Answer. DHS strives to keep the family unit together as long as 
operationally feasible. ``Zero tolerance'' does not introduce a new 
procedure for CBP and ICE agents. Existing protocols already address 
how to process families and the procedures to follow in the event that 
a family is separated for any reason.
    On June 20, 2018, the President issued Executive Order (E.O.) 
13841, in which he indicated the administration's policy of maintaining 
family unity. Additionally, on June 26, 2018, the U.S. District Court 
for the Southern District of California issued an order that, among 
other things, preliminarily enjoins DHS from detaining parents in DHS 
custody apart from their minor children in most cases, and requires ICE 
to reunite separated alien children with their parents in most cases. 
ICE and CBP are working with partner agencies to ensure compliance with 
that order.
    Question 2c. Do your 2015 TEDS still apply to Border Patrol's 
operations?
    Answer. CBP's U.S. Border Patrol (USBP) complies with the TEDS 
policy.
    Question 3. In July 2015, GAO recommended that CBP revise the 
methods and questions used by Border Patrol agents and OFO officers to 
screen unaccompanied alien children. What is the status of CBP's 
efforts to address these recommendations?
    Answer. CBP currently use the CBP-Form 93 Unaccompanied Alien Child 
Screening Addendum to screen all UACs. In response to the GAO's July 
2015 recommendations, the CBP-Form 93 is being revised and expected to 
be finalized as early as December 2018.
    Question 4a. In July 2015, GAO found that CBP personnel were not 
properly screening all Mexican unaccompanied children who had credible 
fear of returning to Mexico and who were victims of a severe form of 
trafficking in persons. The related recommendations remain open. Why 
has CBP not issued updated guidance per these recommendations?
    Answer. CBP complies with the Flores Settlement Agreement, Homeland 
Security Act of 2002, the Trafficking Victims Protection 
Reauthorization Act of 2008 (TVPRA), and all CBP policies and guidance 
for the processing and treatment of minors, including unaccompanied 
children. While no new guidance is necessary, the implementation of the 
updated CBP-93 will enhance the UAC screening process.
    Question 4b. What is the status of CBP's efforts to address these 
recommendations?
    Answer. USBP has been following all existing policies and legal 
injunctions to adhere to all legal concerns. All items in GAO's 
recommendations are being addressed through careful and thorough 
guidance to follow all regulations/policies/court orders to facilitate 
the safe and least restrictive screening and custody while in USBP 
facilities. In conjunction with the Office of Training and Development, 
USBP is working toward updating existing TVPRA training which will be 
available in the CBP distance learning module. The revised CBP-93 is in 
its final stages of review and is expected to be available in 2018. In 
April 2018, the Memorandum of Agreement between CBP, ICE, and HHS was 
signed and went into effect. This MOA outlined the requirement to 
formulate a Joint Concept of Operations between DHS and HHS and went 
into effect in July 2018.
    Question 4c. In the absence of such guidance, how is CBP ensuring 
that agents and officers are complying with trafficking preventions 
requirements and addressing the weaknesses that GAO identified in 2015?
    Answer. CBP complies with relevant laws and settlement agreements. 
CBP screens all unaccompanied children for trafficking concerns, and 
all CBP personnel receive training on the requirements of the TVPRA and 
the Flores Settlement Agreement.
    Question 5a. The Secretary and other leaders, such as yourself, 
have been telling people who are seeking asylum to go to our ports of 
entry. Otherwise, DHS intends to refer these asylum seekers to the 
Department of Justice for criminal prosecution if they attempt to 
approach a Border Patrol agent. However, we have heard reports from 
groups and asylum seekers themselves that CBP in the past improperly 
turned away or dissuaded people trying to file asylum claims at certain 
ports of entry. Is CBP preventing people from filing their asylum 
claims?
    Answer. CBP Office of Field Operations (OFO) processes all persons 
who apply for admission to the United States at ports of entry (POEs) 
and does not turn away anyone who is seeking asylum. Those applicants 
for admission who do not have the proper documentation significantly 
adds to the processing times at POEs. OFO does not deny any applicant 
for protection who expresses an intent to seek asylum or has a fear of 
return to their country of origin regardless of the ultimate 
disposition of the case. CBP processes applicants for admission to the 
United States, denies inadmissible travelers entry and, refers 
travelers who seek protection to appropriate officials for claims to be 
heard. OFO is committed to our multi-faceted National security mission 
set which includes the safe, secure, and orderly processing of all 
travelers as expeditiously as possible without compromising safety or 
security of the homeland. The number of inadmissible travelers CBP is 
operationally capable to process varies depending on overall port 
volume and enforcement actions. Upon completion of CBP inspection, 
inadmissible applicants for admission who express a fear of return are 
referred to ICE/ERO for long-term custody. CBP only maintains custody 
of inadmissible applicants for the minimum time necessary to complete 
the inspection and for ICE/ERO to accept custody.
    Question 5b. What kind of guidance have you issued to your field 
directors to make sure this doesn't happen?
    Answer. CBP recognizes the importance of thoroughly training our 
front-line officers. Customs and Border Protection Officers (CBPOs) 
receive training on the proper processing, treatment, and referral of 
aliens who express a fear of return. This training begins with CBP 
Field Operations Academy, and is reinforced through Post Academy 
training and the periodic issuance of memoranda and policy reminders/
musters.
    CBP leadership, through memos, messaging, and conference calls, 
continually reiterates to its field managers that any traveler who 
request asylum or expresses a fear of return to their home country or 
country of last residence is referred to United States Citizenship and 
Immigration Services (USCIS) asylum officers or the immigration courts 
who make a final decision on asylum applications. CBP OFO does not 
decide the merits of any asylum claim or application.
    Question 6. In April, CBP noted that capacity issues at San Ysidro 
Port of Entry slowed down the processing time for asylum seekers. I 
presume that the persistent CBP officer staffing shortage is one of the 
factors affecting these capacity issues. How has CBP prepared, if at 
all, for additional asylum seekers at ports of entry?
    Answer. At U.S. ports of entry, CBP Officers perform a variety of 
border security and facilitation activities to include counter-
terrorism activities, narcotics interdiction, trade enforcement, the 
facilitation of lawful trade and travel, and the processing of 
individuals who arrive at the ports of entry. Finite personnel and 
budgetary resources must be prioritized across these mission sets to 
ensure that the homeland is protected, that the United States meets its 
domestic and international legal obligations regarding processing of 
asylum seekers, and that economic security is provided.
  <bullet> CBP OFO is committed to our multi-faceted National security 
        mission set which includes the safe, secure, and orderly 
        processing of all travelers as expeditiously as possible 
        without compromising safety or security of the homeland.
  <bullet> The number of inadmissible travelers CBP is operationally 
        capable to process varies depending on overall port volume and 
        enforcement actions.
  <bullet> Upon completion of CBP inspection, inadmissible applicants 
        for admission who express a fear of return are referred to ICE/
        ERO for long-term custody. However, the family remains with CBP 
        at the POE until ICE/ERO takes custody of the subjects.
  <bullet> CBP only maintains custody of inadmissible applicants for 
        the minimum time necessary to complete the inspection and for 
        ICE/ERO to accept custody.
    Ports of entry also face capacity and facility constraints. Ports 
of entry were neither intended nor designed for the long-term detention 
of individuals; they are intended as short-term processing facilities 
used until individuals can be turned over to another appropriate 
agency.
    When resources and capacity constraints are reached at a port of 
entry, it may be necessary to temporarily limit the processing of 
additional individuals who may require temporary holding at the port 
until resources and space become available. These conditions were 
common during the last migrant surge in 2016, and are occurring again 
in 2018. When port resources and capacity are reached, some aliens 
arriving at a port of entry who do not express a fear of return to 
Mexico may need to wait in Mexico until they are able to enter the port 
of entry for processing. In many cases, aliens waiting in Mexico have 
access to shelters and support from non-governmental organizations 
(NGO's).
    Question 7. In 2015, the DHS Inspector General reported that:

``Border Patrol does not have guidance on whether to refer to 
Streamline prosecution aliens who express fear of persecution or fear 
of return to their home countries. As a result, Border Patrol agents 
sometimes use Streamline to refer aliens expressing such fear to DOJ 
for prosecution. Using Streamline to refer aliens expressing fear of 
persecution, prior to determining their refugee status, may violate 
U.S. obligations under the 1967 United Nations Protocol Relating to the 
Status of Refugees, which the United States ratified in 1968.''

    What has the Border Patrol done since 2015 to offer guidance to its 
agents regarding compliance with this protocol?
    Answer. In response to the DHS Inspector General report on Criminal 
Consequence Initiative, formerly known as Streamline, the Chief of the 
USBP, issued a guidance memorandum on September 30, 2015 and muster 
module to the field regarding the process of Credible Fear referrals. 
This has been put into practice and is standard operating procedure.
    Question 8. How do CBP intake and screening processes differ, if at 
all, for people who arrive at a port of entry and claim fear compared 
to those who claim fear after being apprehended by Border Patrol agents 
between ports of entry?
    Answer. CBP carries out its mission of border security while 
adhering to U.S. domestic and international legal obligations related 
to the protection of refugees and other vulnerable persons. The laws of 
the United States, as well as international treaties to which we are a 
party, allow people to seek protection on the grounds that they have a 
well-founded fear being persecuted in another country because of their 
race, religion, nationality, membership in a particular social group, 
or political opinion, or that there are substantial grounds for 
believing the person would be in danger of being subjected to torture 
if sent to another country. CBP understands the importance of complying 
with U.S. legal obligations and takes them seriously. Accordingly, CBP 
has designed policies and procedures based on these legal standards, in 
order to protect vulnerable persons.
    All persons in custody are screened for Credible Fear. If Credible 
Fear is expressed, it is notated on Form M-444 electronically sent to 
USCIS and printed for the A-file. Sometimes it is necessary to record 
additional information on the I-867 a and b (sworn statement) to 
capture facts in support of the refugee's claim. The File is annotated 
on the front as CREDIBLE FEAR for all parties to see. An appointment is 
scheduled with USCIS Asylum Officer after transfer from USBP to ICE/
ERO.
    From the USBP side, if the alien has not already told the agent 
upon apprehension that he or she is claiming fear or seeking asylum, 
the agent will screen for fear during the processing of the alien. For 
an unaccompanied child this is documented on the CBP-93, for adults it 
will be on the I-215 or I-867A/B or I-877. The alien is also given the 
M-444 or M-488 concerning their fear interview. The alien is turned 
over to ERO or ORR, depending on age, family unit, etc. The case is 
referred to an asylum officer with USCIS, who determines if the fear is 
founded or not. At that point, USBP has no further dealings with the 
illegal aliens, unless they are re-apprehended crossing illegally again 
into the United States.
    Question 9a. The Attorney General's April 6, 2018, memorandum 
directs each United States Attorney's Office, in consultation with DHS, 
to adopt a zero-tolerance policy for all first-time illegal entrants 
along the Southwest Border. How, if at all, are foreign nationals who 
are apprehended between ports of entry prioritized for referral to DOJ?
    Answer. On May 5, 2018, the Secretary of Homeland Security 
promulgated the following zero tolerance policy prosecution priorities, 
which are listed in priority order:
    1. All adult aliens (with criminal history)
    2. All adult aliens (with smuggling activity)
    3. Single adult aliens and adult aliens accompanying children (non-
        contiguous country/OTM)
    4. Single adult aliens (contiguous country/Mexico and Canada)
    5. Adult aliens accompanying children (contiguous country/Mexico 
        and Canada).
    Following Zero Tolerance implementation and after the President 
signed E.O. 13841 on June 20, 2018, the U.S. Border Patrol (USBP) 
Headquarters issued guidance to the field to refer all amenable single 
adults who violate 8 USC Sec. 1325 for prosecution. Adults who are part 
of a family unit will be referred for prosecution if:
  <bullet> There is a concern that detention of an alien child, with 
        the child's alien parent/legal guardian would pose a risk to 
        the child's welfare; or
  <bullet> The parent/legal guardian has an outstanding criminal 
        background or warrant (beyond a simple Section 1325 violation).
    Sector Chiefs were instructed to consider all circumstances of the 
apprehension and exercise discretion when referring an adult in a 
family unit for prosecution.
    Question 9b. How does CBP ensure that individuals referred to DOJ 
and who have articulated fear claims receive access to a credible fear 
interview by USCIS?
    Answer. During processing, all apprehended aliens are asked 
specific questions regarding any fear they may have of returning to 
their country of origin to ensure that each is afforded the ability to 
indicate an intention to apply for asylum, a fear of return, or a fear 
of persecution or torture. All claims of fear made in USBP custody are 
documented and referred to USCIS or to an immigration judge, as 
appropriate. An appointment is scheduled with USCIS Asylum Officer 
after transfer from USBP to ICE/ERO or to USMS for their criminal 
hearing.
    Question 9c. Under what circumstances is CBP referring foreign 
nationals to DOJ for prosecution before the individual received a 
credible fear interview with USCIS?
    Answer. CBP reviews each case before referring the case for 
prosecution. Criminal prosecution does not preclude, deny or otherwise 
inhibit an alien from applying for asylum, and all claims of fear made 
in USBP custody are referred to USCIS or to an immigration judge, as 
appropriate. In many cases, aliens are referred for criminal 
prosecution and receive their credible fear interview once they return 
to ICE custody after serving their sentence, if any.
    Question 10. What type of information does Border Patrol track 
regarding individuals that the agency refers to DOJ for immigration-
only offense prosecutions, as well as individuals that Border Patrol 
refers to USCIS for credible fear interviews?
    Answer. USBP utilizes the ``e3 system'' as the official system of 
record for all processing. The e3 system collects and transmits 
biographic, encounter, and biometric data for identification and 
verification of individuals encountered at the border for CBP's law 
enforcement and immigration mission. USBP captures all information 
related to the alien's apprehension, to include name, date of birth, 
country of birth, biometrics and processing disposition prior to the 
individual's transfer to ERO.
    Question 11a. Is it now the policy of the Trump administration to 
question the citizenship of anyone who is conversing in a language 
other than English?
    Answer. No.
    Question 11b. What kind of training measures is the Border Patrol 
providing to its agents so that we do not have a repeat of the Montana 
incident recorded in mid-May 2018 in which a Border Patrol agent 
questioned two U.S. citizens after he overheard them speaking in 
Spanish?
    Answer. Agents receive training in CBP's authority to engage with 
the public pursuant to the U.S. Constitution and applicable statutes. 
On-going training and updates are provided to address changes in the 
law.
    Questions From Honorable J. Louis Correa for Ronald D. Vitiello
    Question 1a. For the past 10 fiscal years, how many asylum seekers 
that originally intended to come to the United States are provided 
asylum and assisted by the Mexican government?
    Answer. CBP does not track how many asylum seekers were either 
assisted by or granted asylum by the Government of Mexico.
    Question 1b. How many asylum seekers actually reach the U.S.-Mexico 
border?
    Answer. CBP tracks the number of cases where applicants for 
admission request asylum or express a fear of return. This reflects the 
number of aliens that present themselves with a credible fear indicator 
at a port of entry for the past 10 years.
  <bullet> Fiscal Year 2008.--824
  <bullet> Fiscal Year 2009.--718
  <bullet> Fiscal Year 2010.--1,898
  <bullet> Fiscal Year 2011.--2,636
  <bullet> Fiscal Year 2012.--2,815
  <bullet> Fiscal Year 2013.--7,951
  <bullet> Fiscal Year 2014.--12,985
  <bullet> Fiscal Year 2015.--17,286
  <bullet> Fiscal Year 2016.--33,856
  <bullet> Fiscal Year 2017.--26,841
  <bullet> Fiscal Year 2018 (May).--33,568
  <bullet> Sum.--141,378
    Question 1c. Of those asylum seekers that reach the U.S.-Mexico 
border, what is the number and percentage that are granted asylum in 
the United States?
    Answer. DHS defers to DOJ's Executive Office for Immigration Review 
(EOIR) to to answer this question. EOIR adjudicates asylum applications 
filed by individuals who are in removal proceedings before EOIR, 
including those who established a credible fear.
    Question 1d. Can you please describe how Mexico has helped CBP by 
assisting migrants along its Southern Border?
    Answer. Mexico's National Migration Institute (INM) has helped CBP 
through things such as Operation Leonidas that aims to secure Mexico's 
Southern Border. INM's actions have strengthened the base for our 
collaborative engagement on traveler facilitation initiatives.
    INM now rescues (including apprehends) more Central Americans, in 
Mexico, than CBP does along the Southwest Border. These numbers reflect 
our commitment to and progress in working with the Government of Mexico 
to make a substantial impact on the flow of irregular migration.
    Question 1e. How has CBP helped the Mexican government in efforts 
to build up its border management?
    Answer. Since the inception of the Merida Initiative, approximately 
$2.7 billion in funds have been allocated toward building capacity 
among Mexican law enforcement and judicial institutions to combat the 
production and trafficking of illicit drugs, strengthen border 
security, and investigate and prosecute transnational organized crime. 
In addition, the 21st Century Border Management Initiative and the 
Security Coordination Group (SCG) continue to be mechanisms through 
which the United States and Mexico develop and implement joint security 
priorities.
    The day-to-day work under this Joint Declaration is guided by the 
binational Executive Steering Committee (ESC)--which last met in Mexico 
City in November 2017--and is carried out by its three working groups:
  <bullet> The Infrastructure subcommittee, chaired by the Department 
        of State, is charged with developing and monitoring the 
        implementation of a national plan for land border priorities. 
        The subgroup coordinates plans for new ports of entry (POEs), 
        the modernization of existing POEs, and upgrades to the 
        infrastructure feeding into them at and between POEs along the 
        U.S.-Mexico border.
  <bullet> The Secure Flows subcommittee, chaired by CBP, is mandated 
        to facilitate secure and efficient flow of people and goods 
        across the U.S.-Mexico border by managing risk, promoting and 
        improving trusted trader and traveler programs, developing new 
        technology at POEs, segregating lanes, exchanging information, 
        harmonizing manifest data, and engaging in capacity building 
        measures with GOM.
  <bullet> The Law Enforcement and Security subcommittee, co-chared by 
        DHS Office of Policy and Department of Justice, aggregates 
        policy priorities and concerns to develop a coherent U.S. 
        Government approach to border coordination and to address 
        smuggling corridors used to move contraband via air, land, and 
        sea.
    The SCB is a high-level bilateral policy dialog between all the 
U.S. and Mexican agencies who handle security-related topics. The SCG 
was originally convened by the National Security Council (NSC); 
however, it is now co-hosted by DHS and the Department of State (DoS). 
The last meeting of the SCG took place in Mexico City, Mexico in mid-
October, 2017.
    The U.S. Government supports the Government of Mexico (GOM) in its 
continued migration control activity in the Guatemala-Mexico border 
region. Most recently, DHS deployed two multidisciplinary teams to 
Mexico's Southern Border in order to support INM's current enforcement 
operation to stem the northward flow of Central American migrants 
entering Mexico.
    The U.S Government encourages GOM officials to visit CBP facilities 
along the U.S. Southwest Border to further strengthen the between CBP 
and INM personnel in order to continue sharing best practices and 
increase cooperation regarding migration management.
    Questions From Honorable Nanette Barragan for Ronald D. Vitiello
    Question 1. According to the New York Times more than 700 children 
had to be taken from adults claiming to be their parents since October 
2017, including more than 100 children under the age of 4. Secretary 
Nielsen disputed this figure at a May 15 Senate Homeland hearing. She 
said that the 700 children figure was an HHS number and not a DHS 
figure. What is the DHS figure for the number of children separated 
from their family member since October 2017, disaggregated by month?
    Answer. For fiscal year 2018 through April, U.S. Border Patrol 
(USBP) is unable to provide a breakdown of ages. The data was manually 
provided from the field as it was not captured in a system until late 
April. Changes were made on April 19, 2018 to the records system to 
capture this data electronically. During Zero Tolerance, the USBP 
separated 2,706 family units from May 5, 2018 to June 20, 2018.
    Question 2a. Can you please explain what process CBP personnel are 
supposed to follow when they unable to verify familial relationships?
    Answer. A family unit is defined as a parent or legal guardian 
along with accompanying minors. [0]CBP determines familial 
relationships on a case-by-case basis. U.S. Border Patrol (USBP) Agents 
and Customs and Border Protection (CBP[0]) Officers review all 
available information, including any available documentation such as 
but not limited to birth certificates and passports, in order to 
determine the validity of a claimed familial relationship. 
Additionally, agents and officers conduct thorough interviews to detect 
potentially fraudulent claims of familial relationship. [0] In the 
event of a separation, electronic records for all family members are 
linked in the in e3 Detention Module (e3DM) to facilitate contact or 
reunification at a later date.
    Question 2b. Of the 700 children who were separated from adults 
claiming familial relationships since October 2017, how many of these 
instances led to be human trafficking charges?
    Answer. Specific data for the cases named by HHS are unavailable. 
DHS/CBP cannot obtain exact details on the underlying 700 cases to 
determine if/how many trafficking cases are associated with these 
cases.
    Question 3a. In January 2017, CBP's Office of Professional 
Responsibility publicly released a report on its activities for fiscal 
year 2015. Has any subsequent reporting occurred?
    Answer. No subsequent reporting has been released.
    Question 3b. When will reports for fiscal years 2016 and 2017 be 
released publicly?
    Answer. The CBP Office of Professional Responsibility combined 
Annual Report for fiscal years 2016 and 2017 is currently in the works 
but does not have a release date at this time.
     Questions From Ranking Member Filemon Vela for Thomas D. Homan
    Question 1a. This last December, the Inspector General issued a 
report that found extremely serious problems with the treatment of 
detainees and conditions at various ICE detention facilities across the 
country. What are you doing to correct the many violations that 
facilities are committing?
    Question 1b. What, if anything, has been done in the past 6 months 
to address the very serious issues raised by the DHS Inspector General?
    Answer. U.S. Immigration and Customs Enforcement (ICE) concurred 
with the Inspector General's single recommendation to address the 
findings in its report on detention facilities. The Office of Inspector 
General (OIG) found that ICE's proposed corrective action met the 
recommendation's intent, and ICE engaged in a detailed assessment of 
the facilities identified in the OIG report. ICE corrected the 
identified concerns; however, two areas remain under continued 
monitoring. When ICE is confident that all concerns have been fully 
addressed, ICE will provide this information to the OIG, likely in the 
next few months.
    ICE notes that all facilities holding detainees are held to a high 
standard of care, and must meet or exceed Federal detention-related 
requirements, including those of the Occupational Safety and Health 
Administration, Environmental Protection Agency, Food and Drug 
Administration, National Fire Protection Association, the Life Safety 
Code, National Center for Disease Control and Prevention, and similar 
regulatory agencies. ICE will continue to aggressively monitor 
conditions at these facilities with a special emphasis on the areas 
identified by the OIG.
    Consistent with the one OIG recommendation, ICE has increased its 
monitoring and visits of the three facilities outlined in the report, 
with a special focus on the issues listed in the report such as 
language access, segregation, medical care, environmental health, and 
food safety. ICE is also hiring Federal staff to accompany contract 
inspectors during the annual audits in an effort to further improve 
oversight.
    Question 2a. How many families does ICE currently have in its 
custody?
    Question 2b. How many of these families have been referred to ICE 
custody since the beginning of the zero-tolerance policy that took 
effect in early May 2018?
    Answer. The zero-tolerance policy went into effect on April 6, 
2018. As such, ICE ERO has provided the following information regarding 
Family Residential Centers (FRCs),\1\ where families are held together 
as a unit.
---------------------------------------------------------------------------
    \1\ ICE FRCs includes Berks County Family Shelter, Karnes County 
Residential Center, and South Texas Family Residential Center.
---------------------------------------------------------------------------
  <bullet> ICE Initial Book Ins into FRCs between 4/6/2018--6/2/2018.--
        Total: 6,996.
  <bullet> ICE Currently Detained Aliens in FRCs as of 6/2/2018.--
        Total: 2,555.
    Question 3a. When CBP transfers an adult who has been separated 
from his or her children into ICE custody, what does ICE do to ensure 
that both the adult and child know of each other's location?
    Question 3b. What does ICE do to ensure families can eventually be 
unified?
    Answer. On May 5, 2018, the U.S. Border Patrol began to increase 
referrals for prosecution as a result of the administration's zero 
tolerance policy. All adult aliens who were amenable to prosecution for 
violating 8 U.S.C.  1325(a), Illegal Entry, which carries a potential 
penalty of up to 2 years in prison, were referred to the U.S. 
Attorney's Offices. Subsequently, on June 20, 2018, President Trump 
issued E.O. 13841, Affording Congress an Opportunity to Address Family 
Separation, which directs the administration to continue to protect the 
border, while simultaneously avoiding the separation of families. As 
expressed in the E.O., it is the policy of this administration to 
maintain family unity, including by detaining alien families together 
where appropriate and consistent with the law and available resources. 
The U.S. Department of Homeland Security (DHS) is continuing to examine 
these issues in light of on-going litigation and recent court 
decisions.
    In the mean time, DHS and the U.S. Department of Health and Human 
Services (HHS) have established a process to help ensure that family 
members know the location of their children and have regular 
communication after separation. The U.S. Government knows the location 
of all children in its custody and DHS and HHS are working together to 
ensure both that those adults who are subject to removal are reunited 
with their children for the purposes of removal, and that those adults 
who are entitled to reunification pursuant to court order are similarly 
reunited.
    Releases are occurring in close coordination with HHS to facilitate 
reunification with minor children to ensure compliance with the Ms. L. 
v. ICE ruling, which ordered the reunification of all parents separated 
from their children at the border within 30 days. U.S. Immigration and 
Customs Enforcement (ICE) Enforcement and Removal Operations (ERO) 
Juvenile and Family Residential Management Unit staff are in regular 
communication with the HHS Office of Refugee Resettlement to verify 
parent or legal guardian status and facilitate reunification of family 
units who have been separated. Specifically, ICE ERO has reunified all 
eligible parents with their children aged 0-4 years in HHS custody, and 
is now in the process of reunifying eligible parents with their 
children aged 5-17 years.
    ICE also works with detained parents to provide regular 
communication with their children through video teleconferencing, 
phone, and tablets. ICE is currently augmenting mental health care 
staffing, including trained clinical staff, to provide mental health 
services to detained parents who have been separated from their 
children.
   Questions From Ranking Member Filemon Vela for Lee Francis Cissna
    Question 1a. Operation Streamline has been in effect for some time 
now. Though I understand that the current zero-tolerance policy is 
different, what has been the effect of criminal prosecution through 
Streamline on a person's ability to claim asylum?
    Answer. CBP recognizes that undocumented aliens need to have the 
appropriate avenue to make claims of fear. On November 26, 2014, the 
Chief of the USBP sent a guidance memorandum and muster modules to the 
field to emphasize and further address credible fear determinations in 
expedited removal cases. CBP may refer an alien for criminal 
prosecution while the alien makes a claim of fear through the 
administrative process. The fact that an alien is being prosecuted does 
not influence the outcome of the asylum officer's credible fear 
determination. Conversely, an alien's claim of fear cannot be used as a 
criterion to exclude an undocumented alien from a possible prosecution 
for a criminal act.
    Question 1b. Have asylum claims been denied because of a criminal 
illegal entry or re-entry charge?
    Question 1c. How will claims filed by asylum seekers who are 
charged with illegal entry or re-entry be affected by these charges?
    Answer. Pursuant to Immigration and Nationality Act (INA) section 
235(b)(1)(A)(ii) and 8 C.F.R. Sec. 235.3(b)(4) and implementing 
regulations, any individual who indicates an intention to apply for 
asylum, a fear of return, or a fear of persecution or torture during 
the course of the expedited removal process must be referred to a USCIS 
asylum officer for an interview to determine if the individual has a 
credible fear of persecution or torture.
    An individual may express a fear at any point during the expedited 
removal process. If an individual expresses a fear, he or she must be 
screened by a USCIS asylum officer. USCIS conducts the screening 
interview when the individual is in ICE custody. USCIS currently does 
not have a process for screening individuals while they are in 
Department of Justice (DOJ) custody. If an individual is referred to 
DOJ for prosecution, he or she is processed on illegal entry or re-
entry charges, receives a sentence, and serves the sentence in DOJ 
custody. Generally, after the individual has served his or her sentence 
and is transferred to ICE custody, but before removal, he or she is 
referred to USCIS for the credible fear interview.
    Under current law, a criminal illegal entry or re-entry charge does 
not impact the outcome of the credible fear determination. However, an 
individual who illegally re-enters the United States after having been 
removed is subject to reinStatement of his or her prior order of 
removal under section 241(a)(5) of the INA, which renders the 
individual ineligible to apply for asylum. An alien subject to a 
reinstated removal order may still qualify for withholding of removal 
pursuant to INA Sec. 241(b)(3) or protection pursuant to the Convention 
Against Torture.
    USCIS defers to DOJ's Executive Office for Immigration Review 
(EOIR) on whether defensive asylum claims presented to immigration 
judges by individuals found to have a credible fear during the course 
of expedited removal proceedings are denied or otherwise affected 
because of a criminal illegal entry or re-entry charge.
    Question 2. How, if at all, does USCIS ensure that illegal entrants 
apprehended by CBP or ICE are receiving credible fear interviews, as 
required?
    Question 3. When do foreign nationals who are apprehended by Border 
Patrol and referred to DOJ for prosecution receive access to a credible 
fear interview if they have made a fear claim?
    Question 4a. Where and how are individuals detained while awaiting 
credible fear interviews?
    Question 4b. If USCIS determines that an individual has a credible 
fear of persecution, what are the next steps for that individual?
    Answer. Pursuant to INA 235(b)(1)(A)(ii) and 8 CFR 235.3(b)(4), ICE 
or CBP must refer any individual, including single adults and adults 
with children, who indicates an intention to apply for asylum, a fear 
of return, or a fear of persecution or torture during the course of the 
expedited removal process (under Section 235 of the INA) to a USCIS 
asylum officer for an interview to determine if the individual has a 
credible fear of persecution or torture.\2\ Once an individual is 
referred to USCIS, the agency uses a case management system to track 
all credible fear screening referrals and ensure that it completes 
screening for each referred individual.
---------------------------------------------------------------------------
    \2\ Note that unaccompanied alien children (UAC) are not subject to 
streamlined removal proceedings (including expedited removal and 
reinstatement of prior orders of removal). Section 235(a)(5)(D) of the 
TVPRA (8 U.S.C. Sec. 1232(a)(5)(D)) states: ``Any unaccompanied alien 
child sought to be removed by the Department of Homeland Security, 
except for an unaccompanied alien child from a contiguous country 
subject to exceptions under subsection (a)(2), shall be placed in 
removal proceedings under section 240 of the Immigration and 
Nationality Act . . . '' Hence, as of the effective date of March 23, 
2009, all UACs from non-contiguous countries whom DHS seeks to remove 
must be placed directly into section 240 proceedings.
---------------------------------------------------------------------------
    Individuals may express a fear at any point during the expedited 
removal process. If they express a fear, they must be screened by 
USCIS. USCIS conducts the screening interviews when the individuals are 
in ICE custody.
    Individuals awaiting credible fear interviews while in DHS custody 
are held in ICE detention facilities pending the outcome of their 
interview by a USCIS asylum officer.
    If an adult is referred to DOJ for prosecution, he or she is 
processed on illegal entry or re-entry charges, receives a sentence, 
and serves the sentence in DOJ custody. Generally, after he or she has 
served the sentence and is transferred to ICE custody, but before 
removal, he or she is referred to USCIS for the credible fear 
interview.
    If the asylum officer finds that an individual has established a 
credible fear of persecution or torture, the individual is placed into 
removal proceedings (under section 240 of the INA) where he or she is 
afforded the opportunity to apply for asylum and other relief or 
protection before an immigration judge. If the asylum officer finds 
that the individual has not established a credible fear of persecution 
or torture, the individual may ask an immigration judge to review the 
asylum officer's determination. If the individual declines a review of 
the determination, or if the immigration judge concurs with the asylum 
officer's negative credible fear determination,\3\ then the individual 
is removed from the United States under the expedited removal order.
---------------------------------------------------------------------------
    \3\ If an individual neither requests nor declines review of the 
determination, the individual is still referred to the immigration 
judge for review of the credible fear determination.
---------------------------------------------------------------------------
    Question 5a. The Central American Minors Refugee program was 
canceled abruptly in 2017. There were 4,000 applicants who have legally 
present adult family members in the United States whose applications 
were canceled when the program was shut down. Can you please tell us 
why the program was shuttered?
    Question 5b. Is it the Trump administration's position that it is 
in the best interest of these children to stay in violent countries or 
risk a dangerous journey through Mexico?
    Question 5c. If not, what was the purpose of closing down a legal 
pathway to refugee status?
    Answer. The decision to terminate the Central American Minors 
programs was made as part of the overall U.S. Government review of the 
U.S. Refugee Admissions Program for fiscal year 2018. The Departments 
of Homeland Security and State focus on targeted refugee processing in 
Central America, such as the Protection Transfer Arrangement (PTA), 
which is between the Government of Costa Rica, UNHCR, and the 
International Organization for Migration (IOM). Through UNHCR and IOM, 
vulnerable Salvadoran, Honduran, and Guatemalan applicants are 
transferred Costa Rica, where they are interviewed by DHS/USCIS and 
considered for resettlement to the United States. In some situations, 
the U.S. Refugee Admissions Program may decide to process UNHCR-
identified cases in one of the three countries.
    As of July 6, 2018, 215 cases (478 individuals) have been accepted 
for processing via the PTA since July 2016. Of those, 59 cases (129 
individuals) have been approved and traveled. Eight cases (20 
individuals) have been denied, and 18 cases (37 individuals) have been 
interviewed and are pending a final decision. Approximately 130 cases 
(292 individuals) are pending a USCIS interview.
    Questions From Honorable Nanette Barragan for Lee Francis Cissna
    Question 1a. How does USCIS define ``fraud'' for asylum claims?
    Question 1b. How does USCIS determine a person's asylum claim is 
fraudulent?
    Question 1c. How many of the asylum claims denied by USCIS in the 
past 5 fiscal years have led to perjury charges?
    Answer. Consistent with Section 212(a)(6)(C)(i) of the INA (8 
United States Code [U.S.C.] 1182), USCIS defines fraud in relation to 
the inadmissibility ground regarding ``[a]ny alien who, by fraud or 
willfully misrepresenting a material fact, seeks to procure (or has 
sought to procure or has procured) a visa, other documentation, or 
admission into the United States or other benefit provided under this 
Act.''
    A finding of inadmissibility for willful misrepresentation of a 
material fact under section 212(a)(6)(C)(i) of the INA requires that:
  <bullet> The applicant/beneficiary misrepresented or concealed some 
        fact;
  <bullet> The misrepresentation or concealment was willful;
  <bullet> The fact was material to the immigration benefit being 
        sought; and
  <bullet> The individual made the misrepresentation by some means to 
        an authorized official of the U.S. Government.
    A finding of inadmissibility for fraud under section 
212(a)(6)(C)(i) of the INA requires the elements listed above plus the 
following:
  <bullet> The misrepresentation was made with the intent to deceive a 
        U.S. Government official authorized to act upon the request 
        (generally an immigration or consular officer); and
  <bullet> The U.S. Government official believed and acted upon the 
        false representation by granting the benefit.
    Since a specific set of elements must exist before USCIS can apply 
a finding of fraud to requests for certain benefits, including 
applications for asylum, USCIS quantifies fraud by the number of 
affirmative asylum applications granted by USCIS that are subsequently 
terminated for fraud. USCIS revoked previously approved asylum status 
in 158 cases during fiscal year 2017. We do not have data on how many 
people have been criminally charged or found guilty of perjury based on 
filing of fraudulent asylum claims.

                                 <all>
</pre></body></html>
